Office of
Inspector
General

Compendium
 Unimplemented
of
Recommendations
December 2012 Edition
OIG Organization
The Department of Health and Human Services (HHS) Office of Inspector General (OIG) employs
about 1,700 professional staff members who are deployed throughout the Nation in regional and
field offices and in Washington, DC, headquarters. We conduct audits, evaluations, and
investigations; provide guidance to industry; and, when appropriate, impose sanctions such as civil
monetary penalties (CMP) and exclude individuals and entities from participation in Federal health
care programs. We collaborate with HHS and its operating and staff divisions, the Department of
Justice (DOJ) and other executive branch agencies, Congress, and States to bring about systemic
changes, successful prosecutions, negotiated settlements, and recovery of funds. Following are
descriptions of our mission-based components.


                 THE OFFICE OF AUDIT SERVICES (OAS) provides auditing services for HHS, either by
OAS



                 conducting audits with its own audit resources or by overseeing audit work done
                 by others. Audits examine the performance of HHS programs and/or its grantees
                 and contractors in carrying out their respective responsibilities and are intended
                 to provide independent assessments of HHS programs and operations. These
                 assessments help reduce waste, abuse, and mismanagement and promote
                 economy and efficiency throughout HHS.

                 THE OFFICE OF EVALUATION AND INSPECTIONS (OEI) conducts national evaluations to
OEI




                 provide HHS, Congress, and the public with timely, useful, and reliable
                 information on significant issues. These evaluations focus on preventing fraud,
                 waste, and abuse and promoting economy, efficiency, and effectiveness in HHS
                 programs. OEI reports also present practical recommendations for improving
                 program operations.

                 THE OFFICE OF INVESTIGATIONS (OI) conducts criminal, civil, and administrative
                 investigations of fraud and misconduct related to HHS programs, operations, and
OI




                 beneficiaries. With investigators working in almost every State and the District of
                 Columbia, OI actively coordinates with DOJ and other Federal, State, and local law
                 enforcement authorities. The investigative efforts of OI often lead to criminal
                 convictions, administrative sanctions, or CMPs.

                 THE OFFICE OF COUNSEL TO THE INSPECTOR GENERAL (OCIG) provides general legal
                 services to OIG, rendering advice and opinions on HHS programs and operations
OCIG




                 and providing all legal support for OIG’s internal operations. OCIG represents OIG
                 in all civil and administrative fraud and abuse cases involving HHS programs,
                 including False Claims Act, program exclusion, and CMP cases. In connection with
                 these cases, OCIG also negotiates and monitors corporate integrity agreements.
                 OCIG renders advisory opinions, issues compliance program guidance, publishes
                 fraud alerts, and provides other guidance to the health care industry concerning
                 the antikickback statute and other OIG enforcement authorities.


The organizational entities described above are supported by the Immediate Office of the Inspector
General and the Office of Management and Policy.
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                         Introduction and Priorities



Introductory Message From
the Office of Inspector General
The Department of Health & Human Services (HHS) Office of Inspector General (OIG) Compendium
of Unimplemented Recommendations (Compendium) summarizes significant 1 monetary and
nonmonetary recommendations that, when implemented, will result in cost savings and/or
improvements in program efficiency and effectiveness. The recommendations result from audits
and evaluations that are performed pursuant to the Inspector General Act of 1978, as amended.


What can you learn from the Compendium?
At the beginning of each fiscal year (FY) OIG follows up with HHS and its operating and staff
divisions to determine their progress in implementing significant recommendations that were
included in the preceding edition of the Compendium and in reports that were issued during the
closed fiscal year. This edition of the Compendium updates the status of recommendations made
through FY 2011 that were not fully implemented as of December 2012 and represent significant
opportunities for action in FY 2013.
Each narrative in the Compendium contains for pertinent reports the open recommendations,
background, progress of implementation, report titles, numbers, and issue dates. Related reports
and testimony are listed under “See Also” at the end of each section.
OIG’s audits and evaluations do not routinely project the annual cost savings that could be realized
at program level from implementing the recommendations. However, reports are indicative of the
extent to which policies and methodologies may be less than effective and in need of corrective
action.


How are OIG’s recommendations implemented?
Implementation generally requires one or more of three types of actions: legislative, regulatory, or
administrative. Some issues involve more than one type of action. OIG relies on policy makers such
as HHS and its operating and staff divisions, the Administration, Congress, and States to take the
necessary steps to achieve optimal outcomes.
Although many OIG recommendations are directly implemented by organizations within HHS, some
are acted on by States that collaborate with HHS to administer, operate, and/or oversee designated
federally funded programs such as Medicaid. HHS and States sometimes do not immediately
implement OIG’s recommendations for various reasons, including administrative complexities, the
current policy environment, or a lack of statutory authority. In such cases, Congress may step in to
incorporate OIG’s recommendations into legislative actions, resulting in substantial funds being put
to better use and/or in improvements in areas such as quality of care, program integrity, or better
information systems and processes.


1 The Compendium does not include all unimplemented OIG recommendations. For example, it does not include
recommendations that are only to collect improper payments or those that are addressed to specific non-Federal entities.
It also does not include recommendations that are systemically significant but involve sensitive security issues.


                                                                 Page i
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                        Introduction and Priorities



What agencies, programs, and functions do our
recommendations address?
The Compendium’s structure mirrors HHS’s organization and related programs.

Centers for Medicare & Medicaid Services Programs
    The programs of the Centers for Medicare & Medicaid Services (CMS), which include Medicare,
    Medicaid, and the Children’s Health Insurance Program (CHIP), generally account for more
    than 80 percent of HHS’s budget. The programs provide medical coverage for adults and
    children in certain statutorily defined categories.

Public Health and Human Service Programs and Other HHS-Related Issues
    Public Health—Public Health-related agencies—including the Agency for Healthcare Research
    and Quality (AHRQ), the Centers for Disease Control and Prevention (CDC), the Food and Drug
    Administration (FDA), the Health Resources and Services Administration (HRSA), the Indian
    Health Service (IHS), and the National Institutes of Health (NIH)—promote biomedical
    research; prevent and cure diseases; ensure the safety and efficacy of marketed food, drugs,
    and medical devices; or conduct other activities designed to ensure the general health and
    safety of Americans.
    Human Services—The Administration on for Community Living and the Administration for
    Children & Families (ACF) provide Federal direction and funding for State-administered efforts
    designed to promote stability, economic security, responsibility, and self-support for the
    Nation’s families and to establish comprehensive community-based systems to help maintain
    dignity and quality of life.
    Other HHS-Related Issues—Departmental functions include policies and procedures for
    financial accounting, information systems management, oversight of grants and contracts, and
    selected initiatives involving more than one HHS organizational entity.


Which recommendations are priorities?
Below is a list of open recommendations that we refer to as “priority recommendations” because in
our view they represent the most significant opportunities to positively impact HHS’s programs.
The recommendations, are presented in the order in which they are found in the Compendium.

Medicare Part A and Part B—Traditional Medicare
    Hospitals—Eliminate or Reduce Medicare Payments for Hospital Bad Debts. P. 4
    Physicians—Adjust Global Surgery Fees To Reflect the Number of Evaluation and Management
    Services Actually Being Provided by Physicians. P. 12
    Medical Equipment—Reduce the Rental Period for Medicare Home Oxygen Equipment. P. 17
    Hospices—Ensure That Hospice Claims for Beneficiaries in Nursing Homes Comply
    With Medicare Coverage Requirements. P. 32




                                                    Page ii
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                          Introduction and Priorities


    Independent Diagnostic Testing Facilities—Implement Unannounced Site Visits and Other
    Actions To Prevent Improper Payments (New). P. 35
    Medical Equipment—Ensure That Claims for Lower Limb Prostheses Meet Requirements
    (New). P. 46

Medicare Part C —Medicare Advantage
    Medicare Advantage Payment Amounts—Modify Payments to Medicare Advantage
    Organizations. P. 72
    Medicare Advantage Aggressive Marketing—Ensure That New Enrollees Understand Plan
    Rules. P. 75

Medicare Part D—Prescription Drug Benefit
    CMS—Develop a Comprehensive Safeguard Strategy for Overseeing Part D Prescription Drug
    Plans. P. 76
    Sponsor Data—Ensure the Accuracy of Sponsors’ Cost Estimates in Part D Bids. P. 84
    Claims Processing—Ensure the Validity of Prescriber Identifiers on Claims. P. 92
    Atypical Antipsychotic Drugs—Ensure That Part D Sponsors Have Information Needed To Make
    Accurate Coverage and Reimbursement Determinations (New). P. 94

Medicaid Reviews
    Prescription Drugs—Develop National Pharmacy Acquisition Cost Data as a Benchmark for
    Reimbursing Prescription Drugs (New). P. 98
    Prescriptions Drugs—Establish a Connection Between the Calculations of Medicaid Drug
    Reimbursements and Rebates. P. 104
    Prescriptions Drug Rebates—Extend the Additional Rebate Payment Provisions for Brand-
    Name Drugs to Generic Drugs. P. 107
    Payments to Public Providers—Limit Medicaid Payments to Costs and Require That
    Payments Returned by Public Providers Be Used To Offset the Federal Share. P. 111
    Improve Medicaid Children’s Utilization of Preventive Screening Services. P. 129

Public Health Reviews
    Centers for Disease Control and Prevention—Improve States’ and Localities’ Medical Surge
    Preparedness for Pandemics. P. 133
    Food and Drug Administration—Ethics Oversight—Ensure
    That Clinical Investigators Disclose All Financial Interests. P. 135
    Food and Drug Administration—Food Safety—Improve and Strengthen Food Facilities’
    Compliance With Records Requirements for Traceability of Food Products. P. 138
    Indian Health Service—Reduce Overpayments for Contract Health Services Hospital Claims and
    Cap Payments for Nonhospital Services at Medicare Rates. P. 148
    National Institutes of Health—Ethics Oversight—Require NIH Grantee Institutions To Identify,
    Report, and Address Institutional Financial Conflicts of Interest (New). P. 152


                                                        Page iii
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                            Introduction and Priorities




If you have questions about this publication, please contact OIG’s Office of External Affairs at
202-619-1343.
To report potential instances of waste, fraud, or abuse related to HHS’s programs, you may contact
the OIG Hotline by phone at 1-800-HHS-TIPS (1-800-447-8477) or via our Web site at
https://oig.hhs.gov.
For information about mail, fax, and TTY options and the types of information needed in your
report, please visit https://oig.hhs.gov/fraud/hotline.
OIG’s Compendium and other key publications are available on our Web site at:
https://oig.hhs.gov/




                                                        Page iv
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                                    Table of Contents



Table of Contents
          Medicare Part A and Part B (Traditional Medicare)                                              1
               Avoid Wasteful Spending-----------------------------------------------1
                    Rural Health Clinics—Improve Medicare’s Reimbursement and
                    Certification Rules-------------------------------------------------------------------2
                    Hospitals—Eliminate or Reduce Medicare Payments to Hospitals for
                    Bad Debt ------------------------------------------------------------------------------4
                    Hospitals—Implement a Uniform Claims Policy for Interpretations and
                    Reports of Diagnostic Radiology Services in Outpatient Emergency
                    Departments (New) -----------------------------------------------------------------6
                    Skilled Nursing Facilities—Monitor and Adjust Payments (New) ---------8
                    Hospices—Modify the Payment System for Hospice Care in
                    Nursing Facilities (New) --------------------------------------------------------- 10
                    Physicians—Adjust Global Surgery Fees to Reflect the Number of
                    Evaluation and Management Services Being Provided -------------------- 12
                    Laboratories—Reinstate Beneficiary Cost Sharing and Notices for
                    Lab Tests and Evaluate the Fee Schedule for Lab Services ---------------- 14
                    Laboratories—Establish a New Process for Reimbursement of
                    Laboratory Tests ------------------------------------------------------------------ 16
                    Medical Equipment—Reduce the Rental Period for Home Oxygen
                    Equipment -------------------------------------------------------------------------- 17
                    Medical Equipment—Adjust Reimbursements for Power Wheelchairs 19
                    Medical Equipment—Monitor Growth in the Negative Pressure Wound
                    Therapy Pump Market ----------------------------------------------------------- 20
                    Part B Drugs—Improve Collection of Average Sales Price Data ---------- 22
                    Part B Drugs—Exercise a Statutory Option To Reduce Payments ------- 23
                    Part B Drugs—Adjust Payments for Drugs With Newly Available
                    Generic Versions To Accurately Reflect Market Prices --------------------- 25
                    Part B Drugs—Specify Drugs That Qualify for the Chemotherapy
                    Administration Rate and Ensure That Claims Are Correctly Paid-------- 26
                    Dialysis-Related Drugs—Develop a More Accurate Method for
                    Estimating Changes in the Prices of End Stage Renal Disease Drugs ---- 27

               Identify and Reduce Improper Payments------------------------- 28
                    Claims Processing—Monitor the Use of Service Code Modifier 59 and
                    Ensure Correct Payments -------------------------------------------------------- 29
                    Skilled Nursing Facilities—Ensure the Appropriate Processing of
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                                     Table of Contents


                    Denial-of-Payment Remedies for Noncompliant Facilities ---------------- 31
                    Hospices—Ensure That Hospice Claims for Beneficiaries in Nursing
                    Homes Comply With Medicare Coverage Requirements ------------------ 32
                    Chiropractors—Prevent Payments for Chiropractic
                    Maintenance Therapy ------------------------------------------------------------ 34
                    Independent Diagnostic Testing Facilities—Implement Unannounced
                    Site Visits and Other Actions To Prevent Improper Payments (New) --- 35
                    Medical Equipment—Ensure That Claims Have Valid and Active
                    Identifiers for Suppliers and the Providers Who Ordered the Items or
                    Services ----------------------------------------------------------------------------- 37
                    Medical Equipment—Ensure That Part B Claims for Medical Equipment
                    Used During Beneficiaries’ Non-Part-A Nursing Home Stays Are
                    Allowable --------------------------------------------------------------------------- 39
                    Medical Equipment—Track Accumulated Repair Costs for Capped
                    Rental Medical Equipment ------------------------------------------------------ 40
                    Medical Equipment—Ensure That Claims for Power Wheelchairs Meet
                    Medical Necessity Criteria (New) ---------------------------------------------- 42
                    Medical Equipment—Ensure That Claims for Pressure-Reducing
                    Support Surfaces Meet Coverage Criteria ------------------------------------- 44
                    Medical Equipment—Ensure That Claims for Lower Limb Prostheses
                    Meet Requirements (New) ------------------------------------------------------ 46
                    Medical Equipment—Develop Evidence Criteria for Appeals To
                    Reinstate Medical Equipment Suppliers’ Billing Privileges --------------- 48

               Ensure Patient Safety and Quality of Care ------------------------ 49
                    Hospital Survey and Certification—Provide Guidance to State Survey
                    Agencies on Assessing Hospital Tracking of Adverse Events ------------- 50
                    Ambulatory Surgical Center Recertifications—Implement a Minimum
                    Survey and Certification Cycle -------------------------------------------------- 52
                    Hospice Recertifications—Establish Specific Requirements for the
                    Frequency of Certification Surveys -------------------------------------------- 53
                    Home Health Agency Recertifications—Implement Intermediate
                    Sanctions for Noncompliance With Conditions and Standards ----------- 55
                    Physicians—Revise the "Incident-to" Rule and Implement a Service
                    Code Modifier To Improve Oversight ------------------------------------------ 57

               Oversight of Medicare Contractors -------------------------------- 58
                    Benefit Integrity Contractor Performance—Improve the
                    Performance Evaluation Process to Include Quantitative Data ---------- 59
                    Overpayment Referrals—Determine Why Medicare Overpayment
                    Referral Rates Vary Among Contractors -------------------------------------- 61
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                                     Table of Contents


                    Overpayment Referrals—Implement Controls To Track the Status of
                    Overpayments Referred for Collection ---------------------------------------- 62
                    Fraud Referrals—Implement a System To Track Recovery Audit
                    Contractors’ Referrals of Potentially Fraudulent Claims ------------------ 63

               Other Management and Systems Issues -------------------------- 65
                    1-800-HHS-TIPS Hotline—Upgrade the System for Processing
                    Complaints (New) ----------------------------------------------------------------- 65
                    Financial Management—Improve CMS’s Financial Reporting and
                    Related Processes ----------------------------------------------------------------- 67
                    Data Integrity and Security—Improve Medicare Information Systems
                    Controls ----------------------------------------------------------------------------- 69
                    Quality of Data for Oversight—Improve CMS Reporting to the
                    Healthcare Integrity and Protection Data Bank ----------------------------- 70

          Medicare Part C (Medicare Advantage)                                                          72
                    Medicare Advantage Payment Amounts—Modify Payments to
                    Medicare Advantage Organizations -------------------------------------------- 72
                    Medicare Advantage Aggressive Marketing—Ensure That New
                    Enrollees Understand Plan Rules ---------------------------------------------- 75

          Medicare Part D (Prescription Drug Program)                                                   76
               Preventing and Detecting Fraud and Abuse ---------------------- 76
                    CMS—Develop a Comprehensive Safeguard Strategy for Overseeing
                    Part D Prescription Drug Plans ------------------------------------------------- 76
                    MEDICs—Authorize Medicare Drug Integrity Contractors To Directly
                    Obtain the Information They Need To Investigate Fraud and Abuse ---- 78
                    Sponsors—Determine the Effectiveness of Plan Sponsors’ Antifraud
                    Programs ---------------------------------------------------------------------------- 80
                    Sponsors—Improve Sponsors’ Training of Pharmacies To Prevent
                    Fraud, Waste, and Abuse (New) ------------------------------------------------ 82

               Accuracy of Data for Payments and Reconciliations ----------- 84
                    Sponsor Data—Ensure the Accuracy of Sponsors’ Cost Estimates in
                    Part D Bids -------------------------------------------------------------------------- 84
                    Sponsor Data—Ensure the Accuracy of Sponsors’ Rebate Estimates in
                    Part D Bids (New) ----------------------------------------------------------------- 86

               Beneficiary Cost Sharing --------------------------------------------- 88
                    Coverage Gap—Support Outreach and Education for Beneficiaries
                    Before They Enter the Coverage Gap ------------------------------------------ 88
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                                     Table of Contents


                    Coverage Gap—Track Beneficiaries’ True Out-of-Pocket Costs ---------- 90

               Sponsor Compliance With Conditions for Payment ------------ 92
                    Claims Processing—Ensure the Validity of Prescriber Identifiers on
                    Claims ------------------------------------------------------------------------------- 92
                    Atypical Antipsychotic Drugs—Ensure That Part D Sponsors Have
                    Information Needed To Make Accurate Coverage and Reimbursement
                    Determinations (New) ----------------------------------------------------------- 94

          Medicare Cross-Cutting Initiatives                                                            96
               Medicare Parts A, B, C, and D ---------------------------------------- 96
                    Language Access Services—Increase Medicare Providers’ and Plans’
                    Implementation of Standards for Culturally and Linguistically
                    Appropriate Services ------------------------------------------------------------- 96

          Medicaid Program                                                                              98
               Avoid Wasteful Spending--------------------------------------------- 98
                    Prescription Drugs—Develop National Pharmacy Acquisition Cost
                    Data as a Benchmark for Reimbursing Prescription Drugs (New) ------- 98
                    Prescription Drugs—Require Manufacturers To List All Approved
                    Products With the Food and Drug Administration as a Requirement of
                    Medicaid Eligibility-------------------------------------------------------------- 100
                    Prescriptions Drugs—Clarify and Improve Program Guidance to Drug
                    Manufacturers on Average Manufacturer Price Issues------------------- 102
                    Prescriptions Drugs—Establish a Connection Between the Calculations
                    of Medicaid Drug Reimbursements and Rebates -------------------------- 104
                    Prescription Drugs—Ensure That States Are Accurately Identifying and
                    Collecting Rebates on Physician-Administered Drugs (New)----------- 105
                    Prescriptions Drug Rebates—Extend the Additional Rebate Payment
                    Provisions for Brand-Name Drugs to Generic Drugs --------------------- 107
                    Prescription Drugs—Improve the Policies and Information Available
                    for State Medicaid Agencies To Oversee Reimbursements for
                    340B-Purchased Drugs (New) ------------------------------------------------ 109
                    Payments to Public Providers—Limit Medicaid Payments to Costs and
                    Require That Payments Returned by Public Providers Be Used To
                    Offset the Federal Share ------------------------------------------------------- 111
                    Uncollected Refunds—Establish a National Medicaid Credit Balance
                    Reporting Mechanism To Monitor Refundable Amounts in Providers’
                    Patient Accounts ----------------------------------------------------------------- 114
                    Third-Party Liability—Ensure That States Collect From Noncustodial
                    Parents With the Ability To Contribute Toward Their Children’s
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                                    Table of Contents


                    Medicaid or Children’s Health Insurance Program (CHIP) Costs ------ 116
                    Hospital Payments—Encourage States To Update Hospital Outlier
                    Payment Methodologies (New) ----------------------------------------------- 118
                    Adult Day Health Settings—Ensure That Services Provided Qualify for
                    Medicaid Reimbursement (New) --------------------------------------------- 119

               Identify and Reduce Improper Payments----------------------- 121
                    School-Based Health Services—Ensure Compliance With Medicaid
                    Requirements -------------------------------------------------------------------- 121
                    Home Health—Prevent Duplicate Medicaid and Medicare Payments 124
                    Personal Care Services—Enforce Policies Prohibiting Payments for
                    Personal Care Services for Institutionalized Beneficiaries -------------- 125
                    Personal Care Services—Ensure that Medicaid Claims Provided by
                    Attendants With Undocumented Qualifications Are Not Paid (New) - 127

               Protect the Health of Medicaid Children ------------------------ 129
                    Improve Medicaid Children’s Utilization of Preventive Screening
                    Services --------------------------------------------------------------------------- 129

               Ensure the Adequacy of Data for Oversight -------------------- 131
                    Managed Care—Enforce Federal Requirements for Submitting
                    Medicaid Managed Care Encounter Data ----------------------------------- 131

          Public Health Agencies                                                                     133
               Centers for Disease Control and Prevention ------------------- 133
                    Public Health Crises—Improve States’ and Localities’ Medical Surge
                    Preparedness for Pandemics -------------------------------------------------- 133

               Food and Drug Administration ----------------------------------- 135
                    Ethics Oversight—Ensure That Clinical Investigators Disclose All
                    Financial Interests -------------------------------------------------------------- 135
                    Safety of Medical Devices—Use Adverse Event Reports To Detect and
                    Address Safety Concerns ------------------------------------------------------- 137
                    Food Safety—Improve and Strengthen Food Facilities’ Compliance With
                    Records Requirements for Traceability of Food Products--------------- 138
                    Food Safety—Ensure That Food Facility Registry Provides Complete
                    and Accurate Information ----------------------------------------------------- 140
                    Food Safety—Strengthen Inspections of Domestic Food Facilities To
                    Ensure Safety and Compliance ------------------------------------------------ 141
                    Food Safety—Ensure That Food Facility Inspections Conducted by
                    State Agencies Are Complete, Properly Documented, and Appropriately
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                                   Table of Contents


                    Paid For (New) ------------------------------------------------------------------- 143

               Health Resources and Services Administration --------------- 144
                    Patient Safety—Increase Reporting of Medical Malpractice Cases to the
                    National Practitioner Data Bank ---------------------------------------------- 144
                    Wasteful Spending—Eliminate Excessive Costs in the 340B Drug
                    Pricing Program ----------------------------------------------------------------- 146

               Indian Health Service ----------------------------------------------- 147
                    Wasteful Spending—Reduce Overpayments for Contract Health
                    Services Hospital Claims and Cap Payments for Nonhospital Services
                    at Medicare Rates --------------------------------------------------------------- 148
                    Quality of Care—Improve Access to Mental Health and Dialysis
                    Services at IHS and Tribal Facilities (New) --------------------------------- 149

               National Institutes of Health -------------------------------------- 151
                    Ethics Oversight—Increase Oversight of Grantees’ Management of
                    Financial Conflicts of Interest in Research --------------------------------- 151
                    Ethics Oversight—Require NIH Grantee Institutions To Identify, Report,
                    and Address Institutional Financial Conflicts of Interest (New) ------- 152

          Human Services Agencies                                                                   154
               Administration for Children and Families ---------------------- 154
                    Quality of Services to Children—Delineate Roles and Enforce
                    Unaccompanied Children’s Services Requirements ---------------------- 154
                    Quality of Services to Children—Early Head Start Program Should
                    Ensure That All Teachers Have the Required Credentials (New) ------ 155

               Administration for Community Living -------------------------- 157
                    AoA Grants Management—Use Voluntary Contributions To Expand
                    Services for the Elderly--------------------------------------------------------- 157
                    AoA Grants Management—Ensure That States’ Cost-Sharing Practices
                    Comply With Requirements and Improve Data Quality------------------ 159

          Other HHS-Related Issues                                                                  161
                    Financial Management—Improve Financial Analysis and Reporting
                    Processes ------------------------------------------------------------------------- 161
                    Safety and Quality of Care—Strengthen State Protections for Persons
                    With Disabilities in Residential Settings ------------------------------------ 162
                    Ethics Oversight—Require That HHS’s Conflict-of-Interest Waivers Be
                    Documented as Recommended (New) -------------------------------------- 164
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                             Table of Contents




Contents by Topic
340B Discount Drug Program, 109                  Medical Devices, 137
340B Drug Program, 146                           Medical Equipment, 17, 19, 20, 37, 39, 40, 42,
Additional Rebates, 107                                     44, 46, 48
Adult Day Health Services, 119                   Mental Health, 149
All Programs                                     Modifier 59, 29
  Language Access Services, 96                   Nonphysicians, 57
Ambulatory Surgical Centers, 52                  Other Suppliers, 35
Average Manufacturer Price Issues, 102           Pandemics, 133
Benefit Integrity Contractors, 59                Part B Drugs, 22, 23, 25
Capped Rental Repairs, 40                        Part D
Chemotherapy Administration, 26                    CMS Safeguard Strategy, 76
Children’s Health, 129                             Costs in Coverage Gap, 88
Chiropractors, 34                                  Drugs in Nursing Homes, 94
Contract Health Services, 148                      Manufacturer Rebates, 86
Credit Balances, 114                               MEDICs’ Identification of Fraud, 78
Data Integrity and Security, 69                    Provider Identifiers, 92
Dialysis Facilities, 27                            Sponsor Compliance Plans, 80
Dialysis Services, 149                             Sponsor Cost Estimates, 84
Drug Payments and Rebates, 104                     Sponsor Training of Pharmacies, 82
Enhanced Payments to Public Providers, 111         TrOOP costs, 90
Ethics Oversight, 135, 151, 152, 164             Patient Safety, 144
FDA Approval of Drugs, 100                       Personal Care Services, 125, 127
Financial Management, 161                        Persons With Disabilities, 162
Financial Reporting, 67                          Pharmacy Reimbursements, 98
Food Safety, 138, 140, 141, 143                  Physician Administered Drugs, 105
Generic Drugs, 107                               Physicians, 12, 26
Grants Management, 157, 159                      Power wheelchairs, 42
Home Health, 55                                  Practitioners, 29
Home Health Services, 124                        Prescription Drugs, 98, 100, 102, 104, 105,
Hospice, 10, 32, 53                                         107, 109
Hospitals, 4, 6, 50                              Recovery Audit Contractor, 63
Hospitals Inpatient Outlier Payments, 118        Rural Health Clinics, 2
Hotline Complaints, 65                           School-Based Health Services, 121
Laboratories, 14, 16                             Services to Children, 154, 155
Lower Limb Prostheses, 46                        Skilled Nursing Facilities, 8, 31
MA Capitation Payments, 72                       Support Surfaces, 44
MA Marketing Activities, 75                      Third-Party Liability, 116
Managed Care Encounter Data, 131                 Uncollected Refunds, 114
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012   Table of Contents




                       https://oig.hhs.gov
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                           Medicare Part A and Part B



Medicare Part A and Part B
(Traditional Medicare)
 Avoid Wasteful Spending
Wasteful spending occurs when Medicare’s laws, policies, and methodologies fail to ensure that
program costs are reasonable and appropriate and reflect Medicare’s role as a high-volume, prudent
insurer/payer in the health care marketplace. The Office of Inspector General (OIG) designated
avoiding waste in health care pricing methodologies as one of the top management and
performance challenges facing the Department of Health and Human Services (HHS) in FY 2012.
The recommendations in this section address the wasteful spending that arises from shortcomings
in existing laws, policies, and methodologies.
“Waste” is a broad term that could apply to all situations in which Medicare pays more than it
should. For example, when Medicare's payment policies and methodologies are not aligned with
the marketplace, e.g. the costs incurred by a supplier to acquire a medical device, waste occurs.
Sometimes Medicare’s policies and methodologies also cause waste when unintended loopholes or
other inherent problems invite exploitation or hinder consistent payment determinations.
Medicare’s supporting systems and practices sometimes cause waste by hindering timely and
appropriate payment adjustments.
A separate section of the Compendium specifically addresses improper payments, which are also a
form of wasteful spending. Improper payments occur when Medicare does not effectively identify
and reduce erroneous, inappropriate, and fraudulent billing by providers and suppliers prior to
payment.
OIG’s audits and evaluations do not routinely project the annual cost savings that could be realized
at program level from implementing the recommendations. However, reports are indicative of the
extent to which policies and methodologies may be less than effective and in need of corrective
action.

Acronyms and Abbreviations for Selected Terms Used in This Section

AMP     average manufacturer price                  MMA   Medicare Prescription Drug, Improvement,
ASP     average sales price                               and Modernization Act of 2003
BBA     Balanced Budget Act of 2007                 NLA   national limit amount
CBO     Congressional Budget Office                 PPI   Producer Price Index (Bureau of Labor
DRA     Deficit Reduction Act of 2005                     Statistics)
E&M     evaluation and management (services)        RHC   rural health clinic
ESRD    end stage renal disease                     RUG   resource utilization group (code)
MIPPA   Medicare Improvements for Patients and      SCHIP State Children’s Health Insurance Program
        Providers Act of 2008                       SNF   skilled nursing facility
                                                    WAMP widely available market price




                                                     Page 1
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                Medicare Part A and Part B




Medicare A/B > Avoid Waste in Spending > Rural Health Clinics > Payment Methodology

Rural Health Clinics—Improve Medicare’s Reimbursement and
Certification Rules


    Recommendations To Be Implemented
        We recommended that CMS
           improve the oversight and functioning of the rural health clinics (RHC) cost
            reimbursement system, with a long-term goal of implementing an improved method
            of reimbursement;
           modify the RHC certification process to increase State involvement and ensure more
            strategic placement of RHCs (in conjunction with the Health Resources and Services
            Administration (HRSA));
           issue regulations that respond to States' requests for guidance on monitoring and
            evaluating RHCs;
           issue regulations to ensure that only RHCs that are determined to be essential
            providers remain certified as RHCs; and
           seek legislative authority or administratively require RHC applicants to document the
            need for and the impact of the RHCs on access to health care in the rural underserved
            areas.
           Also, we recommended that HRSA publish regulations revising its shortage-
            designation criteria.
        Savings probable but not estimated.




The recommendations would prevent the wasteful Medicare spending that occurs because
Medicare’s cost-based reimbursement methodology for RHCs results in claims for costs that are
difficult and sometimes impossible to verify or to audit without significant resource expenditures
by the Government.
Waste also occurs when RHCs, which are intended to serve rural, underserved, and shortage-
designated areas, may be inappropriately located in urban areas or in areas with no shortage of
primary care providers.
•    A July 1996 OIG report identified the cost-based reimbursement methodology as one of several
     factors driving RHC program growth. With certain requirements, Medicare pays RHCs on the
     basis of their costs. Cost reimbursement is well understood as an extremely vulnerable
     mechanism by which to pay providers of service. It contains little or no incentive for efficiency,
     provides opportunities for inflated and inappropriate payments (especially given the lack of
     itemized billing for most independent RHCS), is cumbersome and complex, and is difficult and



                                                       Page 2
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                         Medicare Part A and Part B


    expensive to oversee. Generally, health care providers and suppliers in urban or nonshortage
    areas are paid under more accountable reimbursement methodologies, such as prospective
    payment systems or fee schedules.
•   An August 2005 OIG report analyzed 279 questionable RHCs and found that 61 percent were
    located in areas that were not designated as shortage areas and 39 percent were located in
    urban areas. Ninety percent of RHCs had three or more primary care provider sites within 25
    miles of their locations, indicating the areas may not qualify as underserved.

Progress of Implementation
CMS and HRSA have attempted to address our recommendations through various actions, for
example:
•   On February 28, 2000, CMS published a proposed rule, noting that both the General Accounting
    Office (now the Government Accountability Office ) (GAO) and HHS OIG had concluded that the
    number of RHCs was growing out of proportion to the need, that some RHCs remained in the
    program after the need for payment incentives no longer existed, that the payment methodology
    for provider-based RHCs lacked sufficient cost controls, and that establishing payment limits
    and screens on reasonable costs for providers was needed. (65 Fed. Reg. 10450.) The rule was
    intended to implement related amendments in the Balanced Budget Act of 1997 (BBA).
•   The final rule was issued on December 24, 2003. (68 Fed. Reg. 74791, 74792.) However, the
    rule was subsequently suspended on September 22, 2006, to revert to prior rules because more
    than 3 years had elapsed between the publication of the proposed and final rules.
    (71 Fed. Reg. 55341 and MMA, § 902.)
•   On February 29, 2008, HRSA issued a notice of proposed rulemaking on shortage designation
    criteria. (73 Fed. Reg. 11232.) On July 23, 2008, HRSA subsequently said that it intended to
    post a new notice of proposed rulemaking before issuing a final rule. (73 Fed. Reg. 42743.) The
    rule was not issued.
•   On June 27, 2008, CMS issued a new proposed rule to clarify policies and to revise certain
    provisions concerning the payment methodology, nonphysician providers, waivers of staffing
    requirements, conditions for certification, and other matters. (73 Fed. Reg. 36696.) The rule
    would have made Medicare payments equal to reasonable costs less aggregate coinsurance and
    deductible amounts billed (p. 36705). The rule was not finalized.
•   In November 3, 2011, HRSA published a notice announcing an update of shortage areas,
    available on the HRSA Web site. (76 Fed. Reg. 68198.) The update used existing (not revised)
    criteria.
We encourage CMS and HRSA to follow through on their efforts to implement each of the
recommendations we specified. We continue to monitor CMS’s and HRSA’s progress.

Primary OIG Reports
    1996 JUL Rural Health Clinics – Growth, Access, and Payment. OEI-05-94-00040. Full Text.
    2005 AUG Status of the Rural Health Clinic Program. OEI-05-03-00170. Full Text.




                                                  Page 3
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                         Medicare Part A and Part B




Medicare A/B > Avoid Waste in Spending > Hospitals > Bad Debt Payments

Hospitals—Eliminate or Reduce Medicare Payments to Hospitals for Bad Debt


  Recommendations To Be Implemented
       We recommend that the Centers for Medicare & Medicaid Services (CMS) seek legislation
       or legislative authority to
          eliminate (or reduce) Medicare payments to hospitals for bad debt associated with
           beneficiaries’ failure to pay their deductibles and coinsurance and
          modify Medicare’s bad debt policies.
       Savings – An HHS Budget in Brief for FY 2013 proposal to more closely align Medicare’s
       bad debt policy with the private sector (which does not pay for bad debt) by reducing
       Medicare’s bad debt payments to 25 percent for all providers that receive such payments
       estimated $35.9 billion in savings over 10 years. (Department of Health and Human
       Services Fiscal Year 2013 Budget in Brief, p. 53.) The Congressional Budget Office’s
       estimate of the 10-year savings for the same proposal was $23.6 billion.




The recommendations would prevent the wasteful Medicare spending that occurs when hospitals
fail to make a reasonable effort to collect unpaid deductibles and coinsurance from Medicare
beneficiaries who can afford to pay or to collect from other sources (such as beneficiaries’ other
insurance or Medicaid) that would pay the amounts on their behalf.
In FY 2012, Medicare reimbursed 70 percent of hospitals’ allowable bad debt from uncollected
deductibles and coinsurance, amounting to billions of dollars.
A June 1990 OIG management advisory report stated that hospitals’ path of least resistance was
merely to submit the claims to Medicare. The report noted that prior OIG reviews found there was
little incentive for hospitals to collect unpaid deductibles and coinsurance because Medicare would
pay the amounts. One of our recommendations was that Medicare not pay hospitals for bad debts.
Additional Background >
A 1987 statutory moratorium prohibited the Secretary from changing any hospital bad debt policies
that were in effect at that time. (Omnibus Budget Reconciliation Act of 1987, § 4008(c).) The
moratorium, which effectively blocked administrative and regulatory adjustments to bad debt
policy, was rescinded by the Middle Class Tax Relief and Job Creation Act of 2012, § 3201(d), as of
FY 2013.
In several other OIG reviews since 2001, we have found recurring problems with hospital claims for
bad debt reimbursement. For example, hospitals claimed Medicare reimbursement for bad debts
that were not sufficiently documented, may not have been subjected to reasonable collection efforts,
may not have met the definition of “uncollectible” when claimed as worthless, or were not derived
from unpaid deductible and coinsurance amounts. Other problems included data entry and



                                                       Page 4
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                          Medicare Part A and Part B


calculation errors and hospitals’ failure to reduce their bad debts by the amount that they recovered
from previously written off bad debts as required.

Progress of Implementation
In a January 2012 update, CMS agreed that hospitals do not always follow Medicare bad debt
policies and noted that the bad debt moratorium in effect since 1987 continued to prevent it from
revising hospital bad debt policies. Various legislative actions and proposals have adjusted, or
attempted to adjust, Medicare’s payments for bad debts. For example:
•   The Balanced Budget Act of 1997 (BBA), § 4451, reduced Medicare bad debt payments to
    hospitals to 55 percent as of FY 2000. However, the Medicare, Medicaid, and SCHIP Benefits
    Improvement and Protection Act of 2000 (BIPA), § 541, increased reimbursement to 70 percent.
•   An HHS Budget in Brief for FY 2008 legislative proposal to eliminate Part A and Part B bad debt
    reimbursements over 4 years for all providers was estimated to save $7.15 billion over 5 years.
    CBO scored the 10-year savings for the provision at $19.9 billion beginning with FY 2009.
•   An HHS proposal to reduce bad debt payments to 25 percent for all providers over 3 years
    beginning in 2013 was estimated to save $35.88 billion over 10 years. The Congressional
    Budget Office’s estimate of the 10-year savings for the same proposal was $23.6 billion.
•   The Middle Class Tax Relief and Job Creation Act of 2012, § 3201, reduced Medicare bad debt
    payments to hospitals and skilled nursing facilities to 65 percent (from 70 percent) beginning
    with FY 2013. The new law also phases in over 3 years a reduction to 65 percent for certain
    other providers whose allowable bad debt was being paid at a 100-percent rate. According to a
    joint staff analysis by the House Committees on Ways and Means and Energy and Commerce,
    CBO scored savings from the reductions in § 3201 at $6.9 billion over 10 years. Section 3201,
    which is self-implementing, was included in a proposed rule published at 77 Fed. Reg. 40951
    (July 11, 2012).
We continue to recommend eliminating or further reducing Medicare payments to hospitals for bad
debt.

Primary OIG Report
    1990 JUN Options To Reform Payment for Medicare Bad Debts. A-14-90-00339. Full Text.

See Also
The following reviews revealed problems in hospital claims for bad debt reimbursement.
    2010 JUN A-04-09-00055; A-04-09-00056; A-04-09-00057; A-04-09-00058.
    2003 JAN A-01-02-00515; A-02-02-01031; A-04-02-02016.
    2002 OCT A-04-02-02011; A-05-02-00039; A-05-02-00052; A-06-02-00027.
    2002 SEP A-02-02-01016.
    2002 JUL A-03-01-00022; A-09-02-00057.
    2002 JUN A-03-02-00002.




                                                   Page 5
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                 Medicare Part A and Part B




Medicare A/B > Avoid Waste in Spending > Hospitals > Part B Diagnostic Radiology

Hospitals—Implement a Uniform Claims Policy for Interpretations and Reports
of Diagnostic Radiology Services in Outpatient Emergency Departments (New)


    Recommendation To Be Implemented
        We recommend that CMS
           adopt a uniform policy for single and multiple claims for interpretations and reports
            of diagnostic radiology services in hospital outpatient emergency departments to
            require that claimed services be contemporaneous with the beneficiary’s diagnosis
            and treatment or, alternatively,
           identify circumstances in which noncontemporaneous interpretations may contribute
            to the diagnosis and treatment of the beneficiary.
        Savings probable but not estimated.




The recommendation would prevent the wasteful Medicare Part B spending that occurs when
Medicare’s payment contractors do not ensure that paid services are reasonable and necessary for
the diagnosis and treatment of the patient. (Social Security Act, §1862(a)(1)(A).)
In hospital emergency department settings, professional diagnostic radiology services (such as
interpretations and reports by physicians) that are billed to Part B must be identifiable, direct, and
discrete diagnostic or therapeutic services to an individual patient. (Medicare Claims Processing
Manual, Chapter 13, § 20.1.)
Generally, interpretations meeting this requirement occur while the patient is present in the
emergency room. However, in practice, when only one claim for interpretation and report services
is received, Medicare’s payment contractors pay the claim without confirming that the
interpretation was performed while the beneficiary was in the emergency room.
OIG found that many interpretations and reports, particularly those performed after the patients'
discharge, did not contribute directly to the patients’ diagnosis and treatment and were not
allowable under the Part B fee-schedule methodology.
•    A 1993 OIG report revealed that in 44 percent of the cases, radiologists reinterpreted x-rays in
     our sample at least 1 day after the emergency departments discharged the patients. The
     reinterpretations had no effect on the treatments provided to beneficiaries. No patient from the
     group reviewed was recalled to the hospital or referred elsewhere.
•    An April 2011 OIG report found that in 2008 Medicare paid for interpretation and reports
     performed for 16 percent of x-rays ($10 million) and 12 percent of CTs and MRIs ($19 million)
     that were performed after beneficiaries left the emergency departments. For 25 percent of
     x-ray claims and 27 percent of CT and MRI claims, contemporaneity was difficult to establish
     because documentation was incomplete.



                                                         Page 6
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                         Medicare Part A and Part B


The April 2011 report noted that in 2009 the Senate Finance Committee released “Transforming the
Health Care Delivery System: Proposals to Improve Patient Care and Reduce Health Care Costs,” which
indicated that the number of imaging services increased more than other Medicare physician
services for the period under review.

Progress of Implementation
CMS’s 2012 update said that neither a single billed interpretation and report nor multiple billed
interpretations and reports must in all cases be contemporaneous with the beneficiary’s diagnosis
and treatment to contribute to that diagnosis and treatment. CMS said a case-by-case basis should
be used to determine circumstances in which noncontemporaneous interpretations may contribute
to the beneficiary’s diagnosis and treatment.
We maintain that ineligible claims have been routinely paid and that adopting a uniform policy
would avoid waste in fee-schedule payments. As a step toward monitoring this condition, we have
suggested that CMS institute service code modifiers for further analysis of instances in which
emergency department diagnostic interpretations were performed after patients were discharged
from emergency department care.

Primary OIG Reports
    2011 APR Medicare Payments for Diagnostic Radiology Services in Emergency Departments.
             OEI-07-09-00450. Full Text.
    1993 JUL Medicare’s Payment for Interpretations of Hospital Emergency Room X-rays.
             OEI-02-89-01490. Full Text.




                                                  Page 7
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                   Medicare Part A and Part B




Medicare A/B > Avoid Waste in Spending > Skilled Nursing Facilities > Higher Paying RUGs

Skilled Nursing Facilities—Monitor and Adjust Payments (New)


    Recommendations To Be Implemented
        We recommend that CMS
           monitor overall Medicare payments to skilled nursing facilities (SNF) and adjust rates
            as necessary,
           change the current methodology for determining the level of therapy that is needed
            and ensure appropriate payments,
           strengthen monitoring of SNFs that disproportionately bill for higher paying resource
            utilization groups (RUG), and
           follow up on the SNFs that are identified as having questionable billing practices.
        Savings probable but not estimated.




The recommendations would curb the wasteful Medicare spending that occurs when incentives
inherent in the current payment methodology for SNFs lead some SNFs to inappropriately bill for
higher paying RUGs for therapy and other higher paying RUGs. Such higher levels of care may not
be medically necessary.
Medicare pays SNFs under a prospective payment system. For billing purposes, SNFs categorize
Medicare beneficiaries into RUGs based on their care and resource needs at various points during
their stays. Changes to rates and methods could remove inappropriate incentives that may be
driving questionable billing.
•    A December 2010 OIG report revealed that SNFs’ shift toward billing higher paying RUGs did not
     appear to be the result of changes in beneficiary characteristics, such as age and diagnosis. For
     example, SNFs’ billing for ultra-high therapy increased by nearly 90 percent ($5 billion), from
     2006 to 2008.
•    A July 2011 OIG report said that on the basis of FY 2010 and FY 2011 data, Medicare payment
     rates for therapy RUGs were more than 1½ times higher, on average, than the rates for
     nontherapy RUGs. The report highlighted the need to make RUGs and Medicare payments more
     consistent with beneficiaries’ care and resource needs. Changes could include requiring SNFs to
     recalculate a beneficiary’s RUG whenever his or her level of therapy changes substantially and
     reduce the overlap that occurs in assessment periods.
Additional Background >
The Medicare Payment Advisory Commission (MedPAC), in a March 2012 Report to Congress (p. 2),
recommended that Congress direct the Secretary of HHS to revise the SNF payment system to




                                                         Page 8
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                           Medicare Part A and Part B


redistribute payments away from intensive therapy care that is unrelated to patient care needs and
toward medically complex care. MedPAC made a similar recommendation in June 2008.

Progress of Implementation
Regulatory actions by CMS are supported by OIG’s work. For example:
•   On August 8, 2011, CMS issued a final rule adjusting rates in FY 2012 in response to a
    substantial increase in payments to SNFs in FY 2011. (76 Fed. Reg. 48486.) The final rule,
    which refers to our July 2011 preliminary analysis of data for the first 6 months of FY 2011, said
    that CMS will continue to work with OIG to provide greater monitoring of SNF utilization and
    reporting trends.
•   Though CMS made changes to the RUGs in FY 2011, more needs to be done to reduce the
    potentially inappropriate and significant increases in payments for ultra high therapy and other
    higher paying RUGs. CMS estimated that payments to SNFs increased by nearly $4 billion in
    FY 2011.
•   On August 2, 2012, CMS issued a notice, “Prospective Payment System and Consolidated Billing
    for Skilled Nursing Facilities for FY 2013,” that describes CMS’s monitoring of the impact of
    FY 2012 policy changes and certain SNF practices, including RUG distributions, group therapy
    allocations, and other elements. (77 Fed. Reg. 46213.)
We remain concerned that the payment system continues to provide incentives to SNFs to bill for
more therapy than is medically necessary, and we strongly encourage CMS to pursue the options we
recommended to reduce this vulnerability. We continue to monitor CMS’s progress.

Primary OIG Reports
    2011 JUL Changes in Skilled Nursing Facilities Billing in Fiscal Year 2011. OEI-02-09-00204.
             Full Text.
    2010 DEC Questionable Billing by Skilled Nursing Facilities. OEI-02-09-00202. Full Text.




                                                    Page 9
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                            Medicare Part A and Part B




Medicare A/B > Avoid Waste in Spending > Hospice Care in Nursing Facilities

Hospices—Modify the Payment System for Hospice Care in
Nursing Facilities (New)


  Recommendations To Be Implemented
        We recommend that CMS
           modify the payment methodology for hospice care in nursing facilities (to reduce
            incentives for hospices to improperly seek out SNF beneficiaries), seeking statutory
            authority if necessary and
           monitor hospices that depend heavily on nursing facility residents.
        Savings probable but not estimated.




The recommendations would curb the wasteful Medicare spending that occurs when incentives
inherent in Medicare’s hospice payment methodology lead some hospices to inappropriately seek
out beneficiaries in nursing facilities.
Nursing facilities are already staffed with professional caregivers that provide personal care
services similar to the hospice aide services. However, Medicare pays hospices the same rate for
care provided in nursing facilities as it does for care provided in other settings, such as private
homes.
A July 2011 OIG report revealed that hundreds of hospices had more than two-thirds of their
beneficiaries residing in nursing facilities in 2009. Medicare spending on hospice care for nursing
facility residents increased nearly 70 percent from $2.55 billion in 2005 to $4.31 billion in 2009.
The number of Medicare hospice beneficiaries residing in nursing facilities increased 40 percent
during the same period—considerably less than the increase in spending.
We found that hospices having a high percentage of their beneficiaries in nursing facilities received
more Medicare payments per beneficiary than did other hospices because the nursing facility
beneficiaries generally spent more time in care, increasing total reimbursements.
Additional Background >
Hospice care is provided to individuals and their families in various settings, including the home or
other places of residence, such as a skilled nursing facility or other nursing facility. Upon a
beneficiary’s election of hospice care, the hospice assumes the responsibility for palliative, rather
than curative, care for the beneficiary’s terminal illness.
Medicare pays hospices an all-inclusive daily rate under Part A. The rate is paid to the hospice for
each day that a beneficiary is in hospice care, regardless of the number of services furnished.
Routine home care is the most common level of care.




                                                        Page 10
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                             Medicare Part A and Part B


A November 1997 OIG report examined contractual relationships between hospices and nursing
facilities for the care of beneficiaries eligible for both Medicare and Medicaid (cited at the end of this
section). We expect to issue new reports in FY 2013 about hospices’ marketing materials and
practices and their financial relationships with nursing facilities.

Progress of Implementation
In responding to our review, CMS said it concurred with our recommendations, agreed that
incentives may exist in the current payment structure, and noted that the Affordable Care Act
requires reforms to hospice payments.
•   In its January 2012 update, CMS stated that it would share our report with its payment and
    recovery audit contractors. CMS also stated that it would instruct contractors to consider this
    issue when prioritizing their medical review strategies or other interventions.
•   On July 27, 2012, CMS issued the Hospice Wage Index for Fiscal Year 2013. (77 Fed. Reg.
    44242.) The notice mentioned that over the past several years, MedPAC, GAO, and HHS OIG all
    recommended that CMS collect more comprehensive data in order to better understand the
    utilization of the Medicare hospice benefit and said that CMS would investigate the
    recommendations as well as other payment options. CMS is conducting hospice payment
    reform research and will develop payment model options.
We encourage CMS to focus its efforts on lessening the incentives for hospices to disproportionately
seek out beneficiaries in nursing facilities. We maintain that the problem is rooted in the payment
methodology which pays hospices the same rate for the care of patients whether the patient is in a
nursing home or in other settings, such as at home. A change in methodology is warranted. We
continue to monitor CMS’s progress.

Primary OIG Report
    2011 JUL Medicare Hospices That Focus on Nursing Facility Residents. OEI-02-10-00070.
             Full Text.

See Also
    2011 JUL OIG’s Spotlight on Medicare Hospice Care, available on our Web site.
    2009 SEP Medicare Hospice Care for Beneficiaries in Nursing Facilities: Compliance With
             Medicare Coverage Requirements. OEI-02-06-00221. Full Text.
    2009 SEP Medicare Hospice Care: Services Provided to Beneficiaries Residing in Nursing
             Facilities. OEI-02-06-00223. Full Text.
    2007 DEC Medicare Hospice Care: A Comparison of Beneficiaries in Nursing Facilities and
             Beneficiaries in Other Settings. OEI-02-06-00220. Full Text.
    1997 NOV Hospice and Nursing Home Contractual Relationships. OEI-05-95-00251. Full Text.
    1997 SEP Hospice Patients in Nursing Homes. OEI-05-95-00250. Full Text.




                                                     Page 11
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                            Medicare Part A and Part B




Medicare A/B > Avoid Waste in Spending > Physicians > E&M Services

Physicians—Adjust Global Surgery Fees to Reflect the Number of Evaluation and
Management Services Being Provided


  Recommendations To Be Implemented
       We recommend that CMS
           adjust the estimated number of evaluation and management (E&M) services within
            global surgery fees to reflect the number of E&M services actually being provided to
            beneficiaries or
           use the financial results of the audit, in conjunction with other information, during the
            annual updates of the physician fee schedule.
       Savings – $97.6 million per year. (Estimate based on CY 2005 data.)




The recommendations would curb the wasteful Medicare spending that occurs when Medicare’s fee
schedule payments for global surgery do not align with the number of E&M services provided in
such surgery.
A global surgery is a group of clinically related services, including the surgical service and related
preoperative and postoperative services that are treated as a single unit for purposes of coding,
billing, and reimbursement. E&M services are nonsurgical services provided for diagnosing and
treating diseases or counseling and evaluating beneficiaries. Medicare compensates physicians for
surgical services and the related E&M services included in the global fee regardless of the E&M
services actually provided during the global surgery period.
An April 2009 OIG report estimated that Medicare paid $97.6 million for E&M services in CY 2005
that were included in eye global surgery fees but were not provided during the global surgery
periods. The report disclosed that physicians generally provided fewer E&M services than were
included in the global surgery fees. In some instances, they provided more E&M services than were
included in the fees. This high-priority audit was included in the Joint OIG-CMS Health Care
Integrity Strategy.
Additional Background >
Medicare pays for physicians’ services on the basis of an established fee schedule that CMS updates
annually. The fee schedule amounts, which are based on the resources, such as physician time and
intensity of the work (measured in relative value units), involved with furnishing services, include
global surgery fees for surgical services and the related preoperative and postoperative E&M
services provided during the global surgery period.
Similar audits of musculoskeletal and cardiovascular global surgeries that were issued in 2012 are
cited in the “See Also” section below.




                                                      Page 12
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                         Medicare Part A and Part B


Progress of Implementation
 CMS indicated that it will continue to work in conjunction the American Medical Association
Relative Value Update Committee and relevant specialty societies to identify potentially misvalued
services. CMS annually reviews hundreds of codes, many of which are codes with global surgery
periods. CMS said it will continue to consider the results of this report and several other relevant
reports during its selection process for misvalued codes, noting that the process for identifying,
reviewing, and updating values of a misvalued code takes years. CMS said it will continue to
investigate whether adjustments to the number of E&M visits within global periods are necessary to
appropriately value global surgical packages.
We are monitoring CMS’s actions to address our recommendations and plan additional audits of
industry practices related to the number of E&M services provided by physicians and reimbursed as
part of the global surgery fee. We continue to recommend that CMS consider the results of our
nationwide audit of eye surgeries during its periodic review and revision process.

Primary OIG Report
    2009 APR Nationwide Review of Evaluation and Management Services Included in Eye and
             Ocular Adnexa Global Surgery Fees for Calendar Year 2005. A-05-07-00077.
             Full Text.

See Also
    2012 JUN Use of Electronic Health Record Systems in 2011 Among Medicare Physicians
             Providing Evaluation and Management Services. OEI-04-10-00184. Full Text.
    2012 JUN Fletcher Allen Health Care Did Not Always Bill Correctly for Evaluation and
             Management Services Related to Eye Injection Procedures. A-01-11-00515. Full Text.
    2012 MAY Musculoskeletal Global Surgery Fees Often Did Not Reflect the Number of Evaluation
             and Management Services Provided. A-05-09-00053. Full Text.
    2012 MAY Cardiovascular Global Surgery Fees Often Did Not Reflect the Number of Evaluation
             and Management Services Provided. A-05-09-00054. Full Text.
    2012 MAY Medicare Coding Trends of Medicare Evaluation and Management Services.
             OEI-04-10-00180. Full Text.




                                                  Page 13
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                          Medicare Part A and Part B




Medicare A/B > Avoid Waste in Spending > Laboratories > Cost Sharing

Laboratories—Reinstate Beneficiary Cost Sharing and Notices for Lab Tests and
Evaluate the Fee Schedule for Lab Services


  Recommendations To Be Implemented
       We recommend that CMS
           reinstate beneficiary deductibles and coinsurance (and notifications of amounts paid
            on their behalf) as a means of controlling utilization and
           periodically evaluate the national fee schedule to ensure that reimbursement is
            aligned with the prices that physicians pay for clinical laboratory tests.
       Savings – The Congressional Budget Office’s (CBO) December 2008 “Budget Options
       Volume I – Health Care” (p. 159) estimated savings of $23.8 billion over 10 years from
       reinstating standard deductible and coinsurance requirements, with annual savings of
       $2.4 billion by 2014.




The recommendations would help prevent the wasteful Medicare spending known to occur because
beneficiaries do not share in the cost of laboratory tests. Medicare pays for allowed laboratory
charges at a rate of 100 percent, which is unlike its reimbursement rate for most other Medicare
benefits.
Waste also occurs because Medicare's fee schedule methodology does not align reimbursements
with the prices that physicians pay for clinical laboratory tests.
Beneficiary cost sharing is a standard provision of the Medicare program. A January 1996 OIG
report said that if laboratory tests were subject to Medicare's deductible and the 20-percent
coinsurance and beneficiaries received a notice of the amount paid on their behalf, there would be
more participatory control over utilization and billing. CMS informally confirmed in 2011 that
because beneficiaries do not pay a share of the charges, CMS has no global policy requiring its
payment contractors to notify beneficiaries of the payments Medicare made to laboratories on their
behalf. Notifications are an important program integrity safeguard.
With regard to reimbursements, a January 1990 OIG report noted that Medicare was paying
substantially more than physicians paid for laboratory tests. Our detailed review of 4,120 billings to
211 physicians revealed that the Medicare payment rates were about 90 percent more than the
amounts that were actually paid by physicians. The January 1996 report said that although
Medicare reduced the national fee schedule after our 1990 report, the average amount billed per
beneficiary had gone up.
The Medicare Improvement for Patients and Providers Act of 2008 (MIPPA), § 145(b) made
adjustments to the laboratory reimbursement methodology, but did not resolve our concerns.




                                                       Page 14
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                          Medicare Part A and Part B


Progress of Implementation
Copayments—CMS said a legislative change would be necessary to reinstate deductibles and
coinsurance.
•   In December 2008, the Congressional Budget Office (CBO) estimated that $23.8 billion could be
    saved over 10 years by reinstating standard deductible and coinsurance requirements through
    an option that would require independent laboratories to bill the providers who ordered the
    tests instead of billing Medicare and the enrollees separately. Providers, who already bill and
    collect fees from patients, would bill Medicare and collect the beneficiary copayments.
•   The December 2008 option places the ordering physician (instead of laboratories) at the hub of
    Medicare billing for lab tests, and restoring deductibles and copayments would raise
    beneficiaries’ awareness of claims filed on their behalf. Budget Options, Volume 1: Health Care.
    Option 86. “Impose a Deductible and Coinsurance for Clinical Laboratory Services Covered by
    Medicare,” p. 159.
Reimbursements—With regard to reevaluating the fee schedule, CMS said it did not have access to
physician or laboratory records that would enable it to determine the prices that laboratories
charge other customers or the amounts that physicians are paying for laboratory tests. CMS noted
in its annual updates that it was taking steps to reduce payments for laboratory tests and said it
would continue to evaluate payment levels for laboratories. CMS has not provided specific
information that would cause us to close out our recommendation on reimbursements.
•   An October 14, 2011, MedPAC package of potential policies to offset the budgetary costs of
    repealing the sustainable growth rate system estimated that reducing clinical laboratory
    payments by 10 percent would save $10 billion over 10 years.
•   The Middle Class Tax Relief and Job Creation Act of 2012, § 3202, reduced by 2 percent the fee
    schedules for 2013, and such reduced fee schedules will serve as the base for 2014 and
    subsequent years. According to a joint staff analysis of the House Committees on Ways and
    Means and Energy and Commerce, CBO estimated that § 3202 will reduce spending by
    $2.7 billion over 10 years.
We encourage CMS to seek legislative authority to reinstate deductibles and copayments and, as it
reviews billing patterns for codes for more complex lab tests, to consider appropriate adjustments
to be made to reimbursements, seeking legislation if necessary.

Primary OIG Reports
    1996 JAN Follow-up to Report on Changes Are Needed in the Way Medicare Pays for Clinical
             Laboratory Tests. A-09-93-00056. January 1996. Full Text.
    1990 JAN Changes Are Needed in the Way Medicare Pays for Clinical Laboratory Tests.
             A-09-89-00031. Full Text.

See Also
    2012 JUN Medicare Memorandum Report: Coverage and Payment for Genetic Laboratory Tests.
             OEI-07-11-00011. Full Text.




                                                  Page 15
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                            Medicare Part A and Part B




Medicare A/B > Avoid Waste in Spending > Laboratories > Payment Methodology

Laboratories—Establish a New Process for Reimbursement of Laboratory Tests


  Recommendation To Be Implemented
          We recommend that CMS seek legislative authority to establish a new process for
           setting accurate and reasonable payment rates for laboratory tests.
       Savings probable but not estimated.




The recommendation would curb the questionable Medicare spending that is occurring because the
data used in 1985 to establish and update the Clinical Laboratory Fee Schedule may not have
reflected the actual costs of performing the lab tests. Also, the data may not have reflected real
differences in costs from one geographic area to another, as would be expected.
A July 2009 OIG report indicated that in establishing rates in 1985, carriers used data on laboratory
charges that may not have reflected costs. Since then, methods used to update carrier rates have
incrementally added to variation in carrier rates. If CMS continues to use current methods for
updating the Clinical Laboratory Fee Schedule, early formula calculations that do not reflect actual
costs will remain and possibly increase over time. Therefore, a new process is needed for setting
accurate and reasonable payment rates that would represent costs, adjusted for geographic
differences.
Under current methodology, Medicare’s payment contractors reimburse laboratories the lower of
the laboratories’ charges or the contractors' fee schedules for their geographic areas for each test,
as capped by a national limit amount (NLA).

Progress of Implementation
CMS said it would consider our recommendation as it continues to monitor the effects of its
payment policies for laboratories. Options may include instituting competitive bidding for
laboratory services.
The HHS Budget in Brief for Fiscal Year 2009 proposed introducing competitive bidding for clinical
laboratory services (p. 54). Specifically it proposed to expand the successful competitive
acquisition policy to include clinical laboratory services. HHS estimated the savings at $2.29 billion
over 5 years, 2009–2013, p. 59.
We encourage CMS to continue to pursue legislation that would set accurate and reasonable
payment rates for laboratory tests.

Primary OIG Report
    2009 JUL Variation in the Clinical Laboratory Fee Schedule. OEI-05-08-00400. Full Text.




                                                     Page 16
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                  Medicare Part A and Part B


See Also
    2002 JAN Common Working File Edits for Unauthorized Laboratory Tests. OEI-05-00-00050.
             Full Text.
    1996 JAN Follow-up to Report on Changes Are Needed in the Way Medicare Pays for Clinical
             Laboratory Tests. A-09-93-00056. January 1996. Full Text.
    1990 OCT Ensuring Appropriate Use of Laboratory Services. OEI-05-89-89150.
             Full Text.
    1990 JAN Changes Are Needed in the Way Medicare Pays for Clinical Laboratory Tests.
             A-09-89-00031. Full Text.
    1989 MAR Medicare Reimbursement for Outpatient Laboratory Services.
             OAI-04-88-01080. Full Text.




Medicare A/B > Avoid Waste in Spending > Medical Equipment > Oxygen Rental Period

Medical Equipment—Reduce the Rental Period for Home Oxygen Equipment


  Recommendation To Be Implemented
          We recommend that CMS work with Congress to further reduce the rental period for
           oxygen equipment.
       Savings – We calculated that if the rental period were 13 months instead of 36 months,
       Medicare and its beneficiaries would save approximately $3.2 billion over 5 years. The
       Congressional Budget Office estimated savings at $11 billion over 10 years. (See
       “Progress” section.)




The recommendation would curb the wasteful Medicare spending that occurs because Medicare’s
and beneficiaries’ expenditures for rented oxygen equipment substantially exceed the purchase
price of the equipment.
At the end of the capped rental period, ownership of the oxygen equipment transfers to the
beneficiary. The current 36-month rental period causes excessive rental payments to occur prior to
transfer of ownership.
A September 2006 OIG report estimated that Medicare would allow $7,215 for 36 months for
concentrators that cost only $587, on average, to purchase. Beneficiaries would pay $1,443 in
coinsurance paid for the same $587 concentrators. The beneficiaries’ coinsurance alone exceeds
the average cost of two concentrators by $269. A legislative change is needed to reduce the rental
period.




                                                      Page 17
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                         Medicare Part A and Part B


Additional Background >
Medicare has reduced the payment rates for home oxygen equipment three times since 1989. A still
shorter rental period is warranted, and HHS budget documents have recommended 13 months as
an alternative.
In deliberations about whether to reduce the rental period, industry groups have commented on the
related costs of servicing equipment. Our 2006 report indicated that suppliers perform only
minimal servicing and maintenance for beneficiary-owned concentrators and portable equipment.
When suppliers visit beneficiaries, they often perform services that beneficiaries have been trained
to do themselves. For example, on the basis of our sample, 50 percent of the visits to service the
concentrators included cleaning the external filter, which the beneficiary is trained to maintain.
When we accompanied suppliers on their visits to beneficiaries’ homes, we observed that routine
maintenance for a concentrator consisted of checking the filter to make sure it was clean and
checking the oxygen concentration and flow rate using handheld instruments—tasks that can be
performed in less than 5 minutes.

Progress of Implementation
CMS stated that reducing the rental period for most oxygen equipment from 36 to 13 months
requires a statutory change.
•   In 2007, the Congressional Budget Office estimated that shortening the continuous rental
    period for oxygen equipment from 36 months to 13 months would save $3.5 billion over 5 years
    and $11 billion over 10 years, 2008 – 2017. Budget Options, February 2007, p. 193.
•   The HHS Budget in Brief for FY 2008 estimated that reducing the rental period for oxygen
    equipment from 36 to 13 months would save $2.38 billion over 5 years (FY 2008 – FY 2012).
    (pp. 53 and 57.)
•   The HHS Budget in Brief for FY 2009 estimated that reducing the rental period for oxygen
    equipment from 36 to 13 months would save $3 billion over 5 years (FY 2009 – FY 2013).
    (pp. 54 and 59.)
•   In its 2012 update, CMS suggested that a statutory change may not be necessary given that
    unreasonable payment amounts for oxygen and oxygen equipment are addressed through the
    competitive bidding program for medical equipment and supplies.
While we support CMS's efforts to control pricing through competitive bidding, we do not believe
the competitive bidding process alone will do enough to address the large difference between
acquisition costs and Medicare’s and beneficiaries’ shared rental payments for oxygen equipment.
We continue to encourage CMS to work with Congress to reduce the rental period for oxygen
equipment.

Primary OIG Report
    2006 SEP Medicare Home Oxygen Equipment – Cost and Servicing. OEI-09-04-00420.
             Full Text.




                                                  Page 18
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                               Medicare Part A and Part B




Medicare A/B > Avoid Waste in Spending > Medical Equipment > Power Wheelchairs

Medical Equipment—Adjust Reimbursements for Power Wheelchairs


  Recommendation To Be Implemented
          We recommend that CMS determine whether Medicare’s fee schedule amounts for
           standard and complex rehabilitation power wheelchairs should be adjusted.
       Savings probable but not estimated. In 2007, approximately 173,300 Medicare
       beneficiaries received standard and complex power wheelchairs, at a total cost of $686
       million. The 2009 Medicare fee schedule amount exceeded the average competitively bid
       price by $568.




The recommendation would curb the wasteful Medicare spending that occurs because Medicare’s
methodology for developing power wheelchair fee schedule amounts does not align
reimbursements with supplier acquisition costs.
OIG evaluations found that consumers can purchase power wheelchairs in the marketplace at lower
prices than Medicare and its beneficiaries pay.
An August 2009 OIG report compared acquisition costs to payments in 2007 and revealed that
Medicare and its beneficiaries paid almost four times the average amount suppliers paid to acquire
standard power wheelchairs and paid almost two times the average amount suppliers paid to
acquire complex rehabilitation power wheelchair packages.
Additional Background >
At the time of our review, Medicare covered power wheelchairs under a capped rental arrangement.
The beneficiary could choose to rent or purchase the power wheelchair. Medicare beneficiaries
typically chose to purchase power wheelchairs. In the first half of 2007, new purchases accounted
for 95 percent of all Medicare power wheelchair expenditures.
A report by the Congressional Research Service (CRS) stated that starting January 1, 2011, the
Affordable Care Act, § 3136, restricted the lump-sum payment option for new or replacement chairs
to only the complex, rehabilitative power wheelchairs. The lump-sum payment option is eliminated
for all other wheelchairs. (The provision does not apply to competitive acquisition areas prior to
January 1, 2011.) The CRS report said that starting January 1, 2011, the rental payment for power-
driven wheelchairs is 15 percent of the purchase price for each of the first 3 months (instead of 10
percent) and 6 percent of the purchase price for each of the remaining 10 months of the rental
period (instead of 7.5 percent). CBO scored savings from § 3136 at $800 million over 10 years.
(Congressional Research Service (CRS) Report R41196, p. 45.)

Progress of Implementation
In responding to our review, CMS said that it planned to use information from the Competitive
Bidding Acquisition Program for its analysis of whether Medicare’s fee schedule amounts for



                                                     Page 19
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                            Medicare Part A and Part B


standard and complex rehabilitation power wheelchairs should be adjusted and will consider
seeking legislation to ensure that fee schedule amounts are reasonable and responsive to market
changes. CMS noted that it is not likely to use its authority to adjust fee schedule amounts until the
results of the supplier bids for power wheelchairs under the Competitive Bidding Acquisition
Program have been assessed.
Subsequently, the Affordable Care Act, § 3136, was passed, making the changes described under the
“Additional Background” section above. See CMS Manual System Change Request 7116, October 15,
2010, and MLN Matters, MM7116, Elimination of Lump Sum Purchase Payment for Standard Power
Wheelchairs Furnished on or after January 1, 2011 due to the Affordable Care Act.
We encourage CMS to provide documentation of the extent to which our recommendation regarding
fee schedule payments is being implemented. We continue to monitor improvements in this area.

Primary OIG Report
    2009 AUG Power Wheelchairs in the Medicare Program – Supplier Acquisition Costs and
             Services. OEI-04-07-00400. Full Text.

See Also
    2011        OIG’s Spotlight on Power Wheelchairs, available on our Web site.
    2009 JUL Miscoded Claims for Power Wheelchairs in the Medicare Program. OEI-04-07-00403.
             Full Text.
    2009 DEC Medicare Power Wheelchair Claims Frequently Did Not Meet Documentation
             Requirements. OEI-04-07-00401. Full Text.
    2004 APR OIG Testimony Before the Senate Committee on Finance – “Abuses of the Medicare
             Wheelchair Benefit.” Testimony.



Medicare A/B > Avoid Waste in Spending > Medical Equipment > Wound Therapy Pumps

Medical Equipment—Monitor Growth in the Negative Pressure Wound
Therapy Pump Market


  Recommendations To Be Implemented
       We recommend that CMS
          continue to monitor the growth of new negative pressure wound therapy pumps in
           the marketplace and
          follow up on the claims that we identified that may be inappropriate.
       Savings probable but not estimated.




                                                    Page 20
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                           Medicare Part A and Part B


The recommendations would curb the wasteful Medicare spending that occurs when Medicare’s
payment rates for rentals of negative pressure wound therapy pumps (pump) results in
reimbursements that do not align with supplier acquisition costs.
The pumps are portable or stationary devices used to treat ulcers or wounds that have not
responded to traditional wound treatment methods. Medicare’s rental fee was based on a purchase
price that was established when there was only one manufacturer in the market. Since then, a
number of manufacturers have introduced new pump models to the market and are charging
substantially less for them.
A March 2009 OIG report revealed that Medicare’s purchase price for the original model was more
than four times the average price paid by suppliers for the new pump models. Although CMS
included pumps in Round 2 competitive bidding in 2012 and is implementing adjustments to
payments, additional monitoring of the growing pump market is needed to ensure that Medicare
reimbursements are appropriately aligned going forward.
Additional Background >
Medicare covers pumps under a capped rental arrangement. Under this arrangement, Medicare
pays suppliers a monthly fee schedule amount for each month that they rent the pumps to
beneficiaries. Between 2001 (when Medicare started covering pumps) and 2007, Medicare
payments for the pumps increased 583 percent, from $24 million to $164 million.
Our 2009 report also revealed that beneficiaries’ coinsurance payments for pumps covered a
substantial portion of the average cost of a new pump model. After just 4 months of rental, a
beneficiary’s coinsurance of $1,286 covered over one-third (36 percent) of the average cost of a new
pump model to the supplier.

Progress of Implementation
CMS included the pumps under the competitive bidding program for medical equipment and
supplies. For bidding that began in 2012, revised payment amounts will take effect on July 2, 2013.
The revised prices for pumps will implement a prior, short-term OIG recommendation to align
Medicare’s reimbursements for the pumps with prices in the current marketplace.
CMS said it will consider whether it would be able to gather valid and reliable data to make a
determination when the payment amount for pumps is grossly deficient or excessive and to
establish, if needed, a new amount that is realistic and equitable. CMS said it will monitor and track
trends in utilization of pumps and track the market share among pump suppliers. CMS concurred
with our recommendation to follow up on pump claims that may be inappropriate and said it is
working with its contractors to strengthen oversight in this area.
We encourage CMS to follow through on its efforts. We request that CMS describe the mechanisms
it has in place to collect and analyze data on pump market prices. We continue to monitor CMS’s
progress in implementing our recommendations.

Primary OIG Report
    2009 MAR Comparison of Prices for Negative Pressure Wound Therapy Pumps.
             OEI-02-07-00660. Full Text.




                                                   Page 21
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                            Medicare Part A and Part B




Medicare A/B > Avoid Waste in Spending > Part B Drugs > ASP Data Collection

Part B Drugs—Improve Collection of Average Sales Price Data


  Recommendations To Be Implemented
       We recommend that CMS
           develop an automated system for collecting average sales price (ASP) data and
           seek a legislative change to directly require all manufacturers of Part B-covered drugs
            to submit ASP data.
       Savings probable but not estimated.




The recommendations would prevent the wasteful Medicare spending that occurs when Medicare’s
ineffective data collection practices and processing methods hinder timely and appropriate
payment adjustments.
ASPs serve as the basis of Medicare payment for Part B-covered drugs. The increased efficiencies
that would result from implementing an automated system for collecting ASP data would facilitate
appropriate adjustments to Medicare payments.
A February 2010 OIG report identified several potential issues with the ASP data reporting process,
including the timeliness of manufacturer reporting, the largely manual process CMS uses to collect
and analyze manufacturer-reported data, and the legal requirements for manufacturer reporting.
Each of these issues introduces the potential for inefficiency and errors. Administrative and
legislative changes are needed.
Additional Background >
The ASP is derived from a manufacturer’s sales of a drug to all purchasers in the United States in a
calendar quarter divided by the total number of units of the drug sold by the manufacturer in that
same quarter. The ASP is net of any price concessions, such as volume discounts, prompt pay
discounts, cash discounts, free goods contingent on purchase requirements, chargebacks, and
rebates other than those obtained through the Medicaid drug rebate program
Some manufacturers of Part-B-covered drugs are not required to report ASPs. CMS should work
with Congress to develop legislation that would directly require all manufacturers of Part B-covered
drugs to submit ASPs. This would ensure that Medicare payment amounts were reflective of all Part
B-covered drugs.

Progress of Implementation
CMS supported developing an automated system for the collection of ASP data and said that as it
continues to monitor the effects of current payment policies, it would consider seeking a legislative
change to directly require all manufacturers of Part B-covered drugs to submit ASPs.




                                                       Page 22
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                            Medicare Part A and Part B


We encourage CMS to follow through on its plan as a way to ensure that Medicare payment amounts
are reflective of all Part-B-covered drugs. We continue to monitor CMS’s implementation of our
recommendations.

Primary OIG Report
    2010 FEB Average Sales Prices – Manufacturer Reporting and CMS Oversight.
             OEI-03-08-00480. Full Text.




Medicare A/B > Avoid Waste in Spending > Part B Drugs > Payment Adjustments

Part B Drugs—Exercise a Statutory Option To Reduce Payments


  Recommendations To Be Implemented
       We recommend that CMS
          reduce Medicare reimbursement amounts for Part B drugs that meet a statutory
           5-percent threshold,
          expand its price substitution policy to include certain drug codes with partial average
           manufacturer price (AMP) data, and
          seek a legislative change to directly require all manufacturers of Part B-covered drugs
           to submit both average sales prices (ASP) and average manufacturer prices (AMP).
       Savings – $13.2 million for 32 drug codes over 4 calendar quarters.




The recommendations would eliminate the wasteful Medicare spending that occurs when Medicare
fails to optimally exercise a statutory option to reduce payments for Part B-covered drugs under
specified conditions.
When the ASP of a drug exceeds the AMP or the WAMP by a certain threshold (currently 5 percent),
the Secretary of HHS may disregard the ASP for the drug when setting reimbursement amounts.
A November 2011 OIG report estimated that if reimbursement amounts for 32 drug codes with
complete AMP data had been lowered to 103 percent of the AMPs during the applicable quarters,
Medicare expenditures would have been reduced by $13.2 million between the third quarter of
2010 and the second quarter of 2011. Although the opportunity to save Medicare dollars exists, in
practice the option has not been used.
Additional Background >
Federal law requires OIG to conduct reviews comparing ASPs to AMPs and widely available market
prices (WAMP). OIG’s November 2011 report (link below) provides more detail on our
recommendations.




                                                      Page 23
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                          Medicare Part A and Part B


Progress of Implementation
CMS has taken steps to ensure that manufacturers report certain pricing data in a timely manner,
including terminating manufacturers’ rebate agreements for failure to report AMPs and referring
manufacturers with nontimely AMPs to OIG for evaluating civil monetary penalties (CMP). In 2011,
CMS published an AMP substitution policy in the Federal Register at 76 Fed. Reg. 42772, 42828 (July
19, 2011). Details of the AMP substitution policy were described in the final rule with comment
period published at 76 Fed. Reg. 73026, 73287-96 (November 28, 2011).
We continue to recommend that Medicare reimbursements for eligible drug codes be lowered and
will continue to assist CMS in developing a price substitution policy and taking appropriate action
against manufacturers that fail to comply with reporting requirements.

Primary OIG Reports
    2011 Nov Comparison of ASP to AMP: An Overview of 2010. OEI-03-11-00410. Full Text.
    2011 APR Comparison of ASP to AMP: An Overview of 2009. OEI-03-10-00380. Full Text.
    2010 FEB Comparison of ASP to AMP: An Overview of 2008. OEI-03-09-00350. Full Text.
    2008 DEC Comparison of ASP to AMP: An Overview of 2007. OEI-03-08-00450. Full Text.

See Also
    2012 AUG Impact on Reimbursement for Second Quarter 2012. OEI-03-12-00410. Full Text.
    2012 JAN Comparison of ASP to WAMP. OEI-03-10-00280. Full Text.
    2012 JAN Impact on Reimbursement for Fourth Quarter 2011. OEI-03-12-00020. Full Text.
    2011 AUG Impact on Reimbursement for Third Quarter 2011. OEI-03-11-00540. Full Text.
    2011 JUL Impact on Reimbursement for Second Quarter 2011. OEI-03-11-00360. Full Text.
    2011 MAY Impact on Reimbursement for First Quarter 2011. OEI-03-11-00160. Full Text.
    2011 FEB Impact on Reimbursement for Fourth Quarter 2010. OEI 03-11-00030. Full Text.
    2010 NOV Impact on Reimbursement for Third Quarter 2010. OEI 03-10-00440. Full Text.
    2010 SEP Manufacturers’ Reporting Requirements. OEI-03-09-00060. Full Text.
    2010 JUL Impact on Reimbursement for Second Quarter 2010. OEI 03-10-00350. Full Text.
    2010 APR Impact on Reimbursement for First Quarter 2010. OEI 03-10-00150. Full Text.
    2010 FEB Manufacturer Reporting and CMS Oversight of ASP. OEI-03-08-00480. Full Text.
    2010 JAN Impact on Reimbursement for Fourth Quarter 2009. OEI-03-09-00640. Full Text.
    2009 AUG Impact on Reimbursement for Third Quarter 2009. OEI-03-09-00490. Full Text.
    2009 AUG Impact on Reimbursement for Second Quarter 2009. OEI-03-09-00340. Full Text.
    2009 APR Impact on Reimbursement for First Quarter 2009. OEI-03-09-00150. Full Text.
    2009 FEB Impact on Reimbursement for Fourth Quarter 2008. OEI-03-09-00050. Full Text.
    2008 DEC Impact on Reimbursement for Third Quarter 2008. OEI-03-08-00530. Full Text.




                                                  Page 24
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                 Medicare Part A and Part B


     2006 JUL OIG Testimony Before the House Committee on Ways and Means, Subcommittee on
              Health – “Part B Reimbursement for Prescription Drugs and the Average Sales
              Prices (ASP) Used To Set This Reimbursement.” Testimony.




Medicare A/B > Avoid Waste in Spending > Part B Drugs > Newly Available Generic Drugs

Part B Drugs—Adjust Payments for Drugs With Newly Available Generic Versions
To Accurately Reflect Market Prices


  Recommendations To Be Implemented
       We recommend that CMS
           ensure that the Medicare payments for drugs with newly available generic versions
            accurately reflect market prices and
           work with Congress to require manufacturers of first generics to submit monthly ASP
            data during the period of initial generic availability.
       Savings – $111 million for 16 drugs over three quarters.




The recommendations would curb the wasteful Medicare spending that occurs because the current
payment methodology causes Medicare and its beneficiaries to miss out on immediate savings
when a drug’s ASP declines.
The vulnerability involves a two-quarter lag between the time that manufacturers lower the ASP of
a drug and Medicare’s corresponding payment adjustment. This occurrence is especially relevant
when generic versions of a drug first become available.
A January 2011 OIG report revealed that if there had been no two-quarter reimbursement lag
during the period of initial generic availability for 16 selected drugs, Medicare and its beneficiaries
could have saved a conservatively estimated $111 million in the three quarters under review.
Administrative and legislative changes are needed.
An August 2008 OIG report compared the first-quarter 2008 Medicare payment amount to
manufacturer prices for irinotecan hydrochloride (irinotecan), an injectable drug used to treat
patients with colorectal cancer. he Medicare payment amount for irinotecan was more than double
the average manufacturer sales price we calculated. Medicare expenditures for the drug could have
been reduced by $6.5 million in that month alone.
Additional Background >
According to FDA, 26 of the 48 top dollar-volume brand-name drugs covered under Part B either
already have or could have generic versions approved for the first time in the next several years.
Also, the Affordable Care Act, § 7002, created a new approval pathway for generic biologics.




                                                       Page 25
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                  Medicare Part A and Part B


Therefore, the impact of the two-quarter lag will likely continue to grow if CMS does not make
changes to its Part B payment system.

Progress of Implementation
CMS stated that the ASP methodology reflects market-based prices over time. CMS’s comments and
our responses about monthly ASP reporting begin on p. 20 of the August 2011 report.
We encourage CMS to implement the recommendations we specified. We continue to monitor
CMS’s progress.

Primary OIG Reports
    2011 JAN Medicare Payments for Newly Available Generic Drugs. OEI-03-09-00510. Full Text.
    2008 AUG Medicare Payment for Irinotecan. OEI-03-08-00310. Full Text.




Medicare A/B > Avoid Waste in Spending > Physicians > Chemotherapy Administration

Part B Drugs—Specify Drugs That Qualify for the Chemotherapy Administration
Rate and Ensure That Claims Are Correctly Paid


  Recommendations To Be Implemented
       We recommend that CMS
          establish a process to determine the specific drugs that qualify for the chemotherapy
           administration payment rate and
          ensure that drug administration claims are coded and paid correctly.
       Savings probable but not estimated.




The recommendations would control the wasteful Medicare spending that occurs because Medicare
has not established a process to specify the drugs that qualify for the chemotherapy administration
payment rate.
The lack of specifications hinders consistent determinations of whether claims for chemotherapy
administration are appropriate for reimbursement.
A June 2009 OIG report revealed that Medicare’s payment contractors have implemented
inconsistent chemotherapy administration coding policies and review procedures. Medicare paid
$1.9 billion for chemotherapy administration services between 2005 and 2007.
Additional Background >
Medicare pays physicians about twice as much to administer chemotherapy drugs as it pays them to
administer nonchemotherapy drugs. Medicare also pays the chemotherapy rate for administering
certain types of nonchemotherapy drugs with particularly complex preparation and delivery issues.


                                                      Page 26
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                   Medicare Part A and Part B


Medicare leaves the determinations of qualifying drugs to the individual payment contractors that
process Part B physician claims.

Progress of Implementation
CMS said that the current procedural terminology guidance represents the best consensus from the
medical community and CMS. CMS also said that it believes the current variations in carrier
definitions of qualifying drugs may be because of required practice variations in the conditions for
which a drug is used and that these variations may decrease as a consequence of contracting
reform.
We continue to encourage CMS to establish a process to determine which specific drugs qualify for
the chemotherapy administration payment rate and that CMS ensure that drug administration
claims are coded correctly and paid appropriately. We continue to monitor CMS’s progress.

Primary OIG Report
     2009 JUN Medicare Part B Chemotherapy Administration – Payment and Policy.
              OEI-09-08-00190. Full Text.




Medicare A/B > Avoid Waste in Spending > Dialysis Facilities > Payment Adjustments

Dialysis-Related Drugs—Develop a More Accurate Method for Estimating
Changes in the Prices of End Stage Renal Disease Drugs


  OIG Recommendation
           We recommend that CMS develop a more accurate method for estimating changes in
            the prices of end stage renal disease (ESRD) drugs.
        Savings are probable but not estimated.




The recommendations would prevent the wasteful Medicare spending that occurs when Medicare
uses the Bureau of Labor Statistics Producer Price Index (PPI) for the ESRD drugs portion of the
ESRD new bundled rate when estimating price changes.
A September 2010 OIG report established that the PPI is not an accurate tool for the purpose. The
report revealed that during a period when facilities’ acquisition costs for many ESRD drugs
decreased, the PPI increased by 39 percent. This method will unnecessarily cost Medicare and its
beneficiaries hundreds of millions of dollars a year.
We calculated that if CMS had used the PPI to update payment amounts for the ESRD drug epoetin
alfa since 2003, total program payments to all independent dialysis facilities for the drug in the first
quarter of 2009 alone would have been 33 percent higher than the actual payments made under the
prior ASP-based system. In contrast, facility acquisition costs for the drugs that account for the




                                                        Page 27
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                         Medicare Part A and Part B


majority of Medicare expenditures in independent dialysis facilities actually decreased during the
same period.
Additional Background >
In August 2010, CMS published an ESRD final rule, “Medicare Program End-Stage Renal Disease
Prospective Payment System,” that implemented a case-mix adjusted bundled prospective payment
system (PPS) for Medicare outpatient end-stage renal disease (ESRD) dialysis facilities beginning
January 1, 2011 (ESRD PPS). (75 Fed. Reg. 49030 (August 12, 2010).) CMS said in the final rule that
it agreed “with the commenters” [on the earlier proposed rule] about the need for an update in ASP
prices for Part B drugs and the need to use the PPI for the update. CMS estimated that an update
using the PPI would result in a 3.9-percent increase in Medicare reimbursement for the top 11
separately billable Part B Drugs from 2010 to 2011 (p. 49079).

Progress of Implementation
CMS did not concur with our recommendation to develop a more accurate method for estimating
changes in the prices of ESRD drugs under the bundled rate but said it will monitor the ESRD
program to ensure that growth trends in the PPI represent an appropriate price proxy when
compared to growth trends in ASP.
We continue to monitor CMS’s implementation of the recommendation we specified. We will review
payments for ESRD drugs under the new bundled rate system. We also will compare facility
acquisition costs for certain drugs to inflation-adjusted cost estimates and determine how costs for
the drugs have changed since our last review.

Primary OIG Report
    2010 SEP End Stage Renal Disease Drugs – Facility Acquisition Costs and Future Medicare
             Payment Concerns. OEI-03-09-00280. Full Text.




 Identify and Reduce Improper Payments
Improper payments occur when Medicare does not effectively identify and reduce erroneous and
inappropriate billing by providers and suppliers prior to payment. OIG designated improper
payments as one of the top management and performance challenges facing HHS in FY 2012.
Improper payments include both overpayments and underpayments. Some (but certainly not all)
overpayments are fraudulent.
Improper payments are associated with claims-based or claims-processing-based deficiencies.
Commonly, the items or services billed are not supported by the documentation in the providers’
medical files, are not medically necessary, or were not covered by Medicare. Also, administrative
errors may be associated with the claims. Many claims are questioned and disallowed because
providers do not maintain required documentation or the documentation is not sufficient to
support the services and amounts claimed.
Recommendations in this section include that CMS and/or Medicare contractors conduct
prepayment and postpayment reviews of medical records (including third-party records, such as
ordering providers’ records) as appropriate; conduct unannounced site visits of providers;
implement system edits to detect and reject questionable entries on claims; develop data sets and



                                                  Page 28
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                               Medicare Part A and Part B


other tools to assist in proper billing; track billing histories for capped items and services; establish
risk-based levels for screening and reviewing providers; monitor historically vulnerable provisions,
procedures, providers, benefit categories, and system codes; ensure effective guidance and
communications among CMS, its payment contractors, and the provider community; and impose
sanctions, such as penalties, suspensions, and revocations, on providers with serious deficiencies.
OIG’s audits and evaluations do not routinely project the annual cost savings that could be realized
at program level from implementing the recommendations. However, reports are indicative of the
extent to which policies and methodologies may be less than effective and in need of corrective
action.


Acronyms and Abbreviations for Selected Terms Used in This Section

CCI     Correct Coding Initiative                     MMA       Medicare Prescription Drug, Improvement,
DPNA    denial of payment for new admissions                    and Modernization Act of 2003
DRA     Deficit Reduction Act of 2005                 NPI       national provider identifier
IDTF    independent diagnostic testing facility       SNF       skilled nursing facility
                                                      UPIN      unique physician identifier number



Medicare A/B > Reduce Improper Payments > Practitioners > Modifier 59

Claims Processing—Monitor the Use of Service Code Modifier 59 and Ensure
Correct Payments


  Recommendations To Be Implemented
       We recommend that CMS
           encourage Medicare’s payment contractors to conduct prepayment and postpayment
            reviews of the use of service code modifier 59 and
           ensure that the payment contractors’ claims processing systems pay claims with
            modifier 59 only when the modifier is billed with the correct service code.
       Savings – We estimated that $27 million was improperly paid in FY 2003 because modifier
       59 was attached to the wrong service codes on claims.




The recommendations would prevent the improper payments that occur when the billing providers
(physicians and other eligible practitioners) inappropriately enter service code modifier 59 on
claims for Medicare reimbursement. Medicare does not automatically detect misuses of modifier 59
before paying the claims.
Providers use Modifier 59 to indicate that the provider performed a distinct procedure or service
for a beneficiary along with another procedure or service that generally would not be billed
together on the same date of service. Modifier 59 allows both service codes to be paid. A modifier



                                                      Page 29
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                            Medicare Part A and Part B


is a two-digit code that further describes the service performed. Thirty-five modifiers can be used to
bypass Correct Coding Initiative ( CCI) edits. Modifier 59 is one of the modifiers.
A November 2005 OIG report estimated $59 million in improper Medicare payments occurred in
FY 2003 because the service code pairs with which Modifier 59 was used did not meet certain
program requirements. We estimated an additional $27 million was improperly paid because the
modifier was attached to the wrong service code on the claim.
The report also revealed that most Medicare payment contractors did not conduct special reviews
of claims with modifier 59. For those that did, the providers had an error rate of 40 percent or more
for the services they billed with modifier 59.
Additional Background >
In January 1996, the Centers for Medicare & Medicaid Services (CMS) began the Correct Coding
Initiative (CCI). This initiative was developed to promote correct coding by providers and to prevent
Medicare payment for improperly coded services. The initiative consists of automated edits that are
part of the carriers’ claims processing systems.
Specifically, the CCI edits contain pairs of Healthcare Common Procedure Coding System codes (i.e.,
code pairs) that generally should not be billed together by a provider for a beneficiary on the same
date of service.

Progress of Implementation
CMS concurred with our recommendations to encourage carriers to conduct prepayment and
postpayment reviews of the use of modifier 59 and to ensure that carriers’ claims processing
systems pay claims only when modifier 59 is billed with the secondary code. However, at the time
of the report, CMS said that it was unable to implement system edits to ensure correct coding.
•   In April 2006, CMS published clarifying guidance to chapter 4 of the Medicare Claims Processing
    Manual, which includes the use of modifier 59 (CR 4388).
•   In April 2008, CMS issued an MLN Matters article (classified as Special Edition 0810) to provide
    continuing education to physicians on how to bill modifier 59 appropriately.
•   In its December 2009 update, CMS indicated that it would explore the development of a system
    edit for modifier 59. However, upon further analysis in this area, CMS concluded that the
    implementation of an edit for modifier 59 would likely result in increased appeals volume.
•   In its update for 2011, CMS indicated that it will continue to explore alternative solutions to
    ensure correct coding.
We continue to monitor CMS’s progress to ensure correct coding and use of Modifier 59.

Primary OIG Report
    2005 NOV Use of Modifier 59 To Bypass Medicare’s National Correct Coding Initiative Edits.
             OEI-03-02-00771. Full Text.




                                                    Page 30
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                  Medicare Part A and Part B




Medicare A/B > Reduce Improper Payments > Skilled Nursing Facilities > Denial of Payment

Skilled Nursing Facilities—Ensure the Appropriate Processing of
Denial-of-Payment Remedies for Noncompliant Facilities


  Recommendation To Be Implemented
        We recommend that CMS manage skilled nursing facility denial-of-payment remedies for
        new admissions (DPNA) cases by timely sending DPNA instructions to contractors and
        ensuring that the contractors retrospectively review cases that are processed late to
        correct any payment errors. Specifically, CMS should
           address communication breakdowns by implementing a standard format to notify
            Medicare’s payment contractors that a DPNA remedy will be in effect and
           require confirmation that instructions are received and understood.
        Savings probable but not estimated.




The recommendations would prevent the improper payments that occur because Medicare does not
have consistent procedures in place to identify and correctly process SNF new admissions claims
that are subject to DPNA disallowances.
DPNA is an enforcement remedy that CMS may use to address noncompliance with Federal quality-
of-care standards in SNFs.
A May 2008 OIG report revealed that CMS and its payment contractors incorrectly processed
74 percent of the SNF DPNA actions we reviewed. Forty percent of the cases resulted in
overpayments to the SNFs in an amount exceeding $5 million in FY 2004. Causes of the DPNA
processing errors included CMS’s failure to provide its contractors with DPNA instructions on a
timely basis or at all, CMS's provision of information to the wrong contractors, and contractors’
misinterpretation of CMS’s instructions.
Additional Background >
CMS is required to impose a denial of payment for new admissions (DPNA) under two
circumstances: extended noncompliance and repeated instances of substandard quality of care, for
example, a string of unrelated, low-level deficiencies that create a potential for harm to beneficiaries
as well as for the most severe instances of immediate jeopardy, which pose serious injury, harm,
impairment, or death to beneficiaries.
CMS is responsible for imposing denial of payment remedies but relies on its payment contractors
to actually identify and reject the relevant Medicare claims.

Progress of Implementation
CMS outlined specific actions to address each recommendation and indicated that it would develop
internal procedures to effectively communicate DPNA instructions to claims processing contractors


                                                        Page 31
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                         Medicare Part A and Part B


and create a protocol so contractors could notify CMS that a DPNA had been implemented as
requested.
•    In April 2009, CMS told OIG that it had established a workgroup to improve practices to reduce
     improper payments to nursing homes subject to DPNAs. According to CMS, the workgroup was
     developing a formal administrative policy guidance memorandum for internal use by CMS and
     MACs about consistency in effectuating DPNAs. The guidance was scheduled to be issued in
     summer 2009, but as of January 2011, it had not been issued.
•    In its update for 2011, CMS said that no updates were available on the guidance concerning
     DPNA instructions and protocols with contractors. CMS said that it would provide this
     information as soon as possible after it becomes available.
•    CMS had not provided subsequent updates as of August 2012.
We continue to monitor CMS’s progress in implementing the recommendations we specified.

Primary OIG Report
     2008 MAY Nursing Home Enforcement – Processing Denials of Medicare Payment.
              OEI-06-03-00390. Full Text.

See Also
     2007 JUL OIG Testimony Before the Senate Special Committee on Aging – “Elder Abuse and
              Noncompliant Nursing Homes.” Testimony.



Medicare A/B > Reduce Improper Payments > Hospices > Noncompliance

Hospices—Ensure That Hospice Claims for Beneficiaries in Nursing Homes
Comply With Medicare Coverage Requirements


    Recommendation To Be Implemented
           We recommend that CMS strengthen its monitoring practices for hospice claims for
            beneficiaries in nursing homes by using targeted medical reviews and other oversight
            mechanisms.
        Savings probable but not estimated.




The recommendation would prevent the improper payments that occur because Medicare cannot
determine on the basis of hospice claims alone whether key coverage requirements are met before
paying claims. Claims associated with noncompliance with Medicare’s requirements are considered
improper and unallowable.
Additional monitoring of hospice claims for beneficiaries in nursing homes is needed.




                                                    Page 32
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                           Medicare Part A and Part B


Two OIG reports issued together in September 2009 quantified the number of beneficiaries enrolled
in hospice and the types of services being provided to them and, on the basis of medical reviews,
concluded that CMS’s oversight procedures for hospice claims were inadequate and that it must do
more to ensure that Medicare coverage requirements are met. We found that 82 percent of claims
we reviewed for hospice beneficiaries in nursing facilities did not meet at least one Medicare
coverage requirement. Medicare paid about $1.8 billion for the claims.
Additional Background >
The Tax Equity and Fiscal Responsibility Act of 1982, § 122, created the Medicare hospice benefit
for eligible beneficiaries under Medicare Part A. Pursuant to regulations, to be covered for payment
by Medicare, hospice services must be reasonable and necessary for the palliation or management
of the terminal illness as well as related conditions. Hospices must establish and maintain a clinical
record for each beneficiary receiving services. The record must contain evidence that certain
requirements are met.

Progress of Implementation
CMS said that it shared our report with providers but has not offered evidence that it has changed
its oversight practices.
•   In its update for 2011, CMS said that it would instruct Medicare contractors to consider the
    coverage requirements in our report when prioritizing its medical review strategies or other
    interventions. CMS also said that it is collecting more data on hospice claims and has added
    edits to reject claims that do not comply. A change request for new edits, CR 6778, was issued
    on February 5, 2010. Additionally, CMS said it began conducting provider outreach calls in 2010
    to improve compliance with Medicare requirements regarding hospice claims.
•   In its 2012 update, CMS said that it is exploring preliminary requirements to begin the
    implementation of the Affordable Care Act, § 3132(b), which requires reviews of hospices with a
    certain percentage of its population having lengths of stay greater than 180 days.
We continue to monitor CMS’s implementation of the recommendation we specified.

Primary OIG Reports
    2009 SEP Medicare Hospice Care for Beneficiaries in Nursing Facilities: Compliance With
             Medicare Coverage Requirements. OEI-02-06-00221. Full Text.
    2009 SEP Medicare Hospice Care: Services Provided to Beneficiaries Residing in Nursing
             Facilities. OEI-02-06-00223. Full Text.

See Also
    2011 JUL Medicare Hospices That Focus on Nursing Facility Residents. OEI-02-10-00070.
             Full Text.
    1997 SEP Hospice Patients in Nursing Homes. OEI-05-95-00250. Full Text.




                                                   Page 33
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                              Medicare Part A and Part B




Medicare A/B > Reduce Improper Payments > Chiropractors > Noncovered Services

Chiropractors—Prevent Payments for Chiropractic Maintenance Therapy


  Recommendation To Be Implemented
          We recommend that CMS implement and enforce policies to prevent payments for
           maintenance therapy.
       Savings probable but not estimated.




The recommendation would prevent the improper payments that occur when chiropractors
inappropriately enter an acute treatment service code modifier (AT modifier) on claims for
Medicare reimbursement.
Medicare’s controls are not sufficient to detect misuses of the modifier before paying the claims.
Claims associated with noncompliance with Medicare’s requirements are considered improper and
unallowable.
The AT Modifier identifies services that are active/corrective treatments that meet Medicare’s
requirements for payment. Medicare denies service codes without the AT modifier as being
noncovered maintenance therapy. The AT Modifier allows the claim to be paid.
A May 2009 OIG report revealed that a lack of initial visit dates in claims data contributes to
Medicare’s inability to identify noncovered maintenance therapy. On the basis of medical reviews,
we estimated that Medicare inappropriately paid 47 percent of allowed chiropractic claims in a
2006 sample. Chiropractors improperly submitted claims for maintenance therapy with the AT
modifier even though all 16 Medicare payment contractors we reviewed indicated that they
provided education to chiropractors on the correct use of the modifier.
Additional Background >
Medicare pays only for medically necessary chiropractic services, which are limited to
active/corrective manual manipulations of the spine to correct subluxations. When further
improvement cannot reasonably be expected from continuing care, the services are then considered
maintenance therapy, which is not medically necessary and therefore not payable under Medicare.
When submitting claims, chiropractors must use the AT Modifier to identify services that are active/
corrective treatments that meet Medicare’s requirements for payment (i.e., for subluxations) and
must document services pursuant to CMS’s Medicare Benefit Policy Manual.
Previous OIG work found significant vulnerabilities existed in connection with chiropractic claims,
particularly concerning Medicare payments for maintenance therapy.

Progress of Implementation
CMS indicated it is working through the policy and operational implications of requiring an
additional service code modifier and will consider implementing one if feasible.



                                                     Page 34
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                              Medicare Part A and Part B


We continue to monitor CMS’s efforts regarding the feasibility of requiring an additional modifier or
other potential policy solutions.

Primary OIG Report
    2009 MAY Inappropriate Medicare Payments for Chiropractic Services. OEI-07-07-00390.
             Full Text.

See Also
    2005 JUN Chiropractic Services in the Medicare Program: Payment Vulnerability Analysis.
             OEI-09-02-00530. Full Text.
    2000 JUN Chiropractic Care—Comparison of Medicare Managed Care and Fee-For-Service.
             OEI-04-97-00495. Full Text.
    1999 NOV Utilization Parameters for Chiropractic Treatments. OEI-04-97-00496. Full Text.
    1998 SEP Chiropractic Care—Controls Used by Medicare, Medicaid, and Other Payers.
             OEI-04-97-00490. Full Text.
    1998 SEP Chiropractic Care—Medicaid Coverage. OEI-06-97-00480. Full Text.




Medicare A/B > Reduce Improper Payments > Other Suppliers > IDTFs > Noncompliance

Independent Diagnostic Testing Facilities—Implement Unannounced Site Visits
and Other Actions To Prevent Improper Payments (New)


  Recommendations To Be Implemented
       We recommend that CMS
          periodically conduct unannounced site visits to independent diagnostic testing
           facilities (IDTF),
          take action against the noncompliant IDTFs identified by our site visits in Los Angeles,
          impose a moratorium on the enrollment of IDTFs in the Los Angeles area, and
          stop payments to noncompliant IDTFs whose billing privileges are being revoked.
       Savings probable but not estimated.




The recommendations would prevent the questionable payments that occur when IDTFs bill
Medicare for services but, as confirmed by site visits, do not maintain their physical facilities at the
locations on file with CMS and are not open during business hours as required. Claims associated
with noncompliance with Medicare’s requirements are considered improper and unallowable.




                                                     Page 35
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                          Medicare Part A and Part B


IDTFs, a type of Medicare service supplier, offer diagnostic services and are independent of a
physician’s office or hospital.
OIG issued two reports in August 2011 on IDTFs in Los Angeles, California and Miami, Florida. Our
work revealed that of the 224 actively enrolled IDTFs in the two selected cities, 73 were not open
during regular business hours at the location on file. IDTFs that do not comply with Medicare
standards are subject to administrative actions, including revocation of their Medicare billing
privileges.
Additional Background >
IDTFs, which were formerly called Independent Physiological Laboratories, have historically been
vulnerable to abuse. In site visits in 1997, we found that 20 percent of IDTFs were not at the
locations on file with CMS. A June 2006 OIG report of IDTF claims in 2001 projected $71.5 million
in improper Medicare payments to IDTFs. Medicare allowed almost $1 billion for IDTF claims for
2.4 million beneficiaries in 2010.

Progress of Implementation
In response to the Los Angeles report, CMS said it anticipates increasing the frequency of
unannounced site visits and that it will take appropriate administrative actions against the IDTFs
identified in the report. CMS did not concur with the recommendation to impose a moratorium.
However, CMS said it would take the recommendation under strong consideration. In response to
the Miami report, CMS said it anticipates increasing the frequency of unannounced site visits to
IDTFs. CMS also said it is exploring options to use payment suspensions in conjunction with
revocation actions for providers and suppliers that are found to be nonoperational.
Given the conditions disclosed by our review, we maintain that all the specific corrective actions we
recommended be implemented. We continue to monitor CMS’s progress.

Primary OIG Reports
    2011 AUG Miami Independent Diagnostic Testing Facilities’ Compliance With Medicare
             Standards. OEI-05-09-00560. Full Text.
    2011 AUG Los Angeles Independent Diagnostic Testing Facilities’ Compliance With Medicare
             Standards. OEI-05-09-00561. Full Text.

See Also
    2012 MAR Questionable Billing for Medicare Independent Diagnostic Testing Facility Services.
             OEI-09-09-00380. Full Text.
    2011 AUG OIG’s Spotlight on Independent Diagnostic Testing Facilities, available on our Web
             site.
    2006 JUN Review of Claims Billed by Independent Diagnostic Testing Facilities for Services
             Provided to Medicare Beneficiaries During Calendar Year 2001. A-03-03-00002.
             Full Text.
    1998 AUG Independent Physiological Laboratories: Vulnerabilities Confronting Medicare.
             OEI-05-97-00240. Full Text.




                                                   Page 36
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                               Medicare Part A and Part B




Medicare A/B > Reduce Improper Payments > Medical Equipment > Provider Identifiers

Medical Equipment—Ensure That Claims Have Valid and Active Identifiers for
Suppliers and the Providers Who Ordered the Items or Services


  Recommendations To Be Implemented
       We recommend that CMS
          Implement claims processing system changes to ensure that national provider
           identifiers (NPI) for both referring physicians and suppliers listed on medical
           equipment and supply claims are valid and active and
          determine the earliest date to end the provision that allows suppliers to submit claims
           without referring physician NPIs while maintaining beneficiary access to services.
       Savings probable but not estimated.




The recommendations would prevent the questionable payments that occur because a temporary
CMS instruction allows medical equipment suppliers to substitute their own NPIs for ordering
providers’ NPIs on claims (i.e., use identical NPIs for both), thus creating a program vulnerability.
CMS allows the practice when suppliers cannot obtain valid, active NPIs from the ordering
providers. Thus, claims are being paid without any indicator that the ordering providers are eligible
to order medical equipment and supplies for the beneficiaries as required.
A February 2009 OIG report noted and expressed concern about the temporary provision, which
became effective May 23, 2008. An OIG followup report in April 2010 revealed that Medicare paid
$87 million from May 23, 2008, through September 2009 for medical equipment claims with
identical NPIs for suppliers and ordering providers. CMS plans to implement system edits that will
deny payments when the NPI of the ordering provider does not match Medicare’s provider
enrollment data, but CMS has not announced a date for activating the edits. Meanwhile,
questionable payments continue.
Additional Background >
In May 2008, NPIs became the exclusive identifier to be used on medical equipment and other
Medicare claims. We remain concerned that longstanding vulnerabilities we found with UPINs (an
earlier identifier) may be perpetuated with NPIs, and new challenges, such as the temporary
measure described above, may be affecting the integrity of the claims processing system.

Progress of Implementation
Following are links describing CMS’s temporary measure, its final rule on related statutory
requirements, and its claims processing procedures, accessed on its Web site in June 2012.




                                                      Page 37
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                        Medicare Part A and Part B


•   Temporary measure allowing suppliers to substitute their NPI for the ordering providers’ NPIs
    on claims. (CMS’s Program Integrity Manual, ch. 14, § 14.5, “NPIs for Secondary Providers.”
    Accessed on June 26, 2012 at:
    http://www.cms.gov/Regulations-and-Guidance/Guidance/Manuals/downloads/pim83c14.pdf.

•   Final rule. Medicare and Medicaid Programs; Changes in Provider and Supplier Enrollment,
    Ordering and Referring, and Documentation Requirements; and Changes in Provider
    Agreements. (77 Fed. Reg. 25284 (April 27, 2012).) Effective June 26, 2012, the interim final
    rule amending 42 CFR parts 424 and 431 published on May 5, 2010 (75 FR 24437) is confirmed
    as final with changes.
•   Phase 2 of Ordering and Referring Requirement. (MLN Matters article, SE1221 (June 2012).)
Although CMS has taken a number of steps to implement the NPI, it has not operationally
implemented the recommendations we specified.

Primary OIG Reports
    2010 APR Medicare Payments for Medical Equipment and Supply Claims With Identical
             Referring Physician and Supplier National Provider Identifiers.
             OEI-04-10-00110. Full Text.
    2009 FEB Medicare Payments in 2007 for Medical Equipment and Supply Claims With Invalid or
             Inactive Referring Physician Identifiers. OEI-04-08-00470. February 2009.
             Full Text.

See Also
    2008 JUL OIG Testimony Before the Senate Committee on Homeland Security and
             Governmental Affairs, Permanent Subcommittee on Investigations. “Unique
             Physician Identifiers on Medical Equipment and Supply Claims and Related Issues.”
             Testimony.
    2002 SEP Durable Medical Equipment Ordered with Surrogate Physician Identification
             Numbers. OEI-03-01-00270. Full Text.
    2002 MAY Accuracy of Unique Physician Practitioner Identification Number Registry Data.
             OEI-03-01-00380. Full Text.
    2001 NOV Medical Equipment and Supply Claims with Invalid or Inactive Physician Numbers.
             OEI-03-01-00110. Full Text.
    1999 OCT Accuracy of Unique Physician Identification Number Data. OEI-07-98-00410.
             Full Text.




                                                 Page 38
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                            Medicare Part A and Part B




Medicare A/B > Reduce Improper Payments > Medical Equipment > Nursing Home Stays

Medical Equipment—Ensure That Part B Claims for Medical Equipment Used
During Beneficiaries’ Non-Part-A Nursing Home Stays Are Allowable


  Recommendations To Be Implemented
       We recommend that CMS
          Designate and maintain information on which nursing facilities and distinct parts of
           Medicaid nursing homes primarily provide skilled care and thus would not qualify as a
           beneficiary’s home for medical equipment payment purposes and
          implement a process or processes to identify patients entering nursing homes with
           rented medical equipment.
       Savings probable but not estimated.




The recommendations would prevent the improper Medicare Part B payments that occur when
suppliers inappropriately submit a “home” place-of-service code on medical equipment claims but
the nursing homes in which the beneficiaries are staying do not qualify as the beneficiaries’ homes
for Medicare payment purposes.
Part B pays for medical equipment only if it is used in beneficiaries’ homes or institutions that
qualify as their homes. Claims associated with noncompliance with Medicare’s requirements are
considered improper and unallowable.
A July 2009 OIG report revealed that Medicare Part B inappropriately allowed $30 million in 2006
for medical equipment provided during non-Part A stays in Medicare-certified skilled nursing
facilities (SNF). Also, nearly all of $11.9 million that Medicare allowed for medical equipment
provided during stays in Medicaid nursing facilities (NF) and distinct parts of NFs was
inappropriate. As with the SNF claims, the inappropriately allowed NF claims nearly always (97
percent) erroneously identified the place of service as the beneficiary’s home.
We found that medical equipment suppliers and Medicare’s payment contractors lack reliable
listings of which Medicaid nursing facilities (NF) and distinct-part nursing homes primarily provide
skilled care; facilities primarily providing skilled care generally do not qualify as beneficiaries'
homes. CMS and States reported that they do not maintain primary level-of-care designations for
nursing homes. Such designations would facilitate accurate claim submission by suppliers and
proper claim adjudication by payment contractors.
Additional Background >
The BIPA requires OIG to monitor Medicare Part B payments during non-Part A nursing home stays.
Medicare Part A covers nursing home care (including use of medical equipment) for up to 100 days
in an SNF. If nursing home care is needed after the 100 days (or the beneficiary did not qualify for a
Part A SNF stay), Medicare Part B may cover certain medical and other health services. However,



                                                    Page 39
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                             Medicare Part A and Part B


Part B does not pay for medical equipment provided to beneficiaries in nursing homes unless the
nursing homes qualify as the beneficiaries’ homes. Very few nursing homes qualify as beneficiaries’
homes.

Progress of Implementation
CMS has not provided specific information regarding steps it plans to take to identify nursing homes
in which medical equipment should not be paid for because the nursing homes provide primarily a
skilled level of care. In its 2012 update, CMS cited that criteria already exist for identifying nursing
homes that meet the basic SNF definition. CMS also noted that it is State survey agencies’
responsibility to assess individual institutions against these criteria. However, our study showed
that States and CMS do not maintain this information. For Medicare to recoup payments and for
DME suppliers to determine a facility's status, this determination needs to be made. We continue to
believe that CMS is the appropriate entity to do so.
Additionally, CMS has not proposed a process to identify patients entering a nursing home with
rented medical equipment.
We continue to monitor CMS's progress in implementing the recommendations we specified.

Primary OIG Report
    2009 JUL Part B Services During Non-Part A Nursing Home Stays – Durable Medical Equipment.
             OEI-06-07-00100. Full Text.

See Also
    1996 MAR Durable Medical Equipment Payments in Nursing Homes. OEI-06-92-00862.
             Full Text.



Medicare A/B > Reduce Improper Payments > Medical Equipment > Capped Rental Repairs

Medical Equipment—Track Accumulated Repair Costs for Capped Rental
Medical Equipment


  Recommendation To Be Implemented
          We recommend that CMS require its Medicare payment contractors to track
           accumulated repair costs of capped rental medical equipment.
       Savings probable but not estimated.




The recommendation would prevent the questionable payments that occur when medical
equipment suppliers bill Medicare for repairs to equipment rented or owned by Medicare
beneficiaries but the claims exceed certain limits or the repairs are not covered.




                                                     Page 40
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                          Medicare Part A and Part B


Medicare cannot always detect that the repairs may not qualify for payment because Medicare does
not have a mechanism for tracking accumulated repair costs of capped rental durable medical
equipment.
An August 2010 OIG report revealed that from 2006 to 2008, Medicare improperly allowed nearly
$4.4 million for noncovered repairs for beneficiary-rented capped rental equipment. In 2007,
Medicare allowed nearly $27 million for repair claims for beneficiary-owned capped rental
equipment that failed to meet payment requirements and allowed nearly $29 million for
questionable repair claims.
Tracking accumulated repair costs would enable Medicare’s payment contractors to identify and
prevent improper payment for repairs that exceed 100 percent of the purchase price for
replacement capped rental medical equipment. This same technique could be used to identify
claims for accumulated repairs that exceed a designated percentage of the purchase price for
replacement capped rental medical equipment. We recommend that the Medicare payment
contractors obtain serial numbers of repaired equipment and track accumulated repair costs of
capped rental equipment in the same way Medicare tracks repair costs of prosthetics.
Additional Background >
The term “capped rental” refers to equipment for which Medicare contractors pay suppliers a fee
schedule amount that is “capped” after a certain number of continuous months of rental to a
Medicare beneficiary. Ownership of the equipment is then transferred to the beneficiary. Examples
of capped rental equipment include power mobility devices, hospital beds, continuous positive
airway pressure devices, commodes, and walkers. Medicare will pay for maintenance and servicing,
including repairs, depending on when the capped rental equipment was first rented, who owns the
equipment, and what types of repairs need to be made.
The implementation effective January 1, 2006 of the DRA of 2005 altered Medicare coverage of
routine maintenance and servicing of capped rental medical equipment. When ownership of a
capped rental item is transferred to the beneficiary, Medicare pays for repairs only when the repairs
are necessary to make it serviceable. Medicare does not cover routine, periodic maintenance of
beneficiary-owned equipment, such as testing, cleaning, and regulating of equipment. Medicare
also does not pay for parts and labor covered by a supplier or manufacturer warranty.
Both before and after the implementation of the DRA, Medicare did not cover maintenance and
servicing during rental periods because medical equipment suppliers recover the expenses they
incur in maintaining the equipment in working order from the rental charge.

Progress of Implementation
CMS responded positively to each of six original recommendations in the August 2010 report and
has implemented all recommendations except for requiring its payment contractors to track
accumulated repair costs of capped rental medical equipment. CMS agreed to consider the
feasibility of requiring its payment contractors to obtain serial numbers of repaired equipment and
track accumulated repair costs. However, it has not implemented the actions.
We continue to monitor CMS’s implementation of the final recommendation for this report.

Primary OIG Report
    2010 AUG Review of Claims for Capped Rental Durable Medical Equipment. OEI-07-08-00550.
             Full Text.



                                                  Page 41
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                            Medicare Part A and Part B


See Also
    2002 JUN Maintenance Payments for Capped Rental Equipment. OEI-03-00-00410. Full Text.



Medicare A/B > Reduce Improper Payments > Medical Equipment > Power wheelchairs

Medical Equipment—Ensure That Claims for Power Wheelchairs Meet Medical
Necessity Criteria (New)


  Recommendations To Be Implemented
       We recommend that CMS
          review records from sources in addition to the supplier, such as the prescribing
           physician, to determine whether power wheelchairs are medically necessary and
          enhance reenrollment screening standards for current suppliers of durable medical
           equipment, prosthetics, orthotics, and supplies at a risk level of “high” upon
           reenrollment.
       Savings – The HHS Budget in Brief for Fiscal Year 2012 projected that conducting
       prepayment or earlier reviews of power wheelchair claims would reduce improper
       payments and prevent fraud. HHS estimated such reviews would save $240 million over
       10 years. (See Progress section.)




The recommendations would prevent the improper payments that occur when medical equipment
suppliers bill Medicare for power wheelchairs that do not meet Medicare’s medical necessity
criteria. Claims associated with noncompliance with Medicare’s requirements are considered
improper and unallowable.
By reviewing prescribing physicians’ records along with suppliers’ records, Medicare could better
determine whether claims meet the criteria for payment. Medicare contractors are not required to
review the prescribing physician’s records.
A July 2011 OIG report revealed that on the basis of medical record reviews, 61 percent of claims
Medicare allowed for power wheelchairs provided in the first half of 2007 were not medically
necessary or the claims were not sufficiently documented to determine medical necessity. Medicare
and its beneficiaries paid $95 million for the claims. A power wheelchair is medically necessary
when a beneficiary’s mobility deficit cannot be addressed using other types of mobility-assistive
equipment, such as a cane, manual wheelchair, or scooter.
Although CMS has taken steps since 2007 to decrease errors among suppliers of power wheelchairs
and other medical equipment and supplies, Medicare has paid significantly more in recent years for
power wheelchairs than it did in 2007.
Additional Background >




                                                    Page 42
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                         Medicare Part A and Part B


Two previous OIG reports based on the same sample of power wheelchairs found problems with
coding and with documentation requirements. Across all three reports, 80 percent of claims for
power wheelchairs did not meet Medicare’s coverage criteria.
Given the overall 80-percent error rate for power wheelchair claims, which reinforced the findings
of multiple other OIG reports that identified substantial vulnerabilities in the medical equipment
and supplies benefit, we also recommended that all current medical equipment suppliers be subject
upon reenrollment to screening at the risk level of “high.”
In August 2012, CMS announced a 3-year Medicare Prior Authorization for Power Mobility Device
(PMD) Demonstration for certain PMD codes in seven States where there have been high incidences
of fraudulent claims and improper payments. The demonstration will provide CMS with valuable
data through which, working with its partners, CMS can develop new avenues for combating the
submission of fraudulent claims to for PMDs. The prior authorization demonstration is expected to
have a secondary benefit of helping to identify and reduce improper payments, recognizing that
many improper payments are not the result of willful fraud. (77 Fed. Reg. 46439 (August 3, 2012).)
The demonstration, which was originally announced in November 2011, was scheduled to begin in
September 2012. Fact Sheet.

Progress of Implementation
CMS said it will continue to emphasize the need for proper documentation from the prescribing
physician to determine medical necessity.
The HHS Budget in Brief for Fiscal Year 2012, p. 63, proposed to require prepayment or earlier
review for all power wheelchair claims. HHS estimated savings at $240 million over 10 years
(2012 – 2021), p. 65. However, the proposal was not enacted.
With regard to screening medical equipment suppliers at the risk level of “high” upon reenrollment,
CMS said that existing authorities allow it the flexibility to combat fraud, waste, and abuse among
existing suppliers effectively and that it has tools in place that allow for better monitoring and
regulation of existing suppliers.
We continue to monitor CMS’s progress in preventing payments for medically unnecessary power
wheelchairs. We also maintain that all current medical equipment suppliers should be subject to
the screening standards of the “high” risk level upon reenrollment.

Primary OIG Report
    2011 July Most Power Wheelchairs in the Medicare Program Did Not Meet Medical Necessity
              Guidelines. OEI-04-09-00260. Full Text.

See Also
    2011        OIG’s Spotlight on Power Wheelchairs, available on our Web site.
    2009 DEC Medicare Power Wheelchair Claims Frequently Did Not Meet Documentation
             Requirements. OEI-04-07-00401. Full Text.
    2009 AUG Power Wheelchairs in the Medicare Program – Supplier Acquisition Costs and
             Services. OEI-04-07-00400. Full Text.
    2009 JUL Miscoded Claims for Power Wheelchairs in the Medicare Program. OEI-04-07-00403.
             Full Text.



                                                  Page 43
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                               Medicare Part A and Part B


    2004 APR Medicare Payments for Power Wheelchairs. OEI-03-02-00600. Full Text.




Medicare A/B > Reduce Improper Payments > Medical Equipment > Support Surfaces

Medical Equipment—Ensure That Claims for Pressure-Reducing Support Surfaces
Meet Coverage Criteria


  Recommendations To Be Implemented
       We recommend that CMS
          ensure that claims for group 2 support surfaces meet Medicare coverage criteria and
           are paid appropriately and
          take action regarding the claims in our sample that were inappropriate.
       Savings probable but not estimated.




The recommendations would prevent the improper Medicare payments that occur when medical
equipment suppliers bill Medicare for support surfaces that do not meet coverage requirements and
inappropriately enter a special service code modifier (KX modifier) that allows the claim to be paid
without review.
Suppliers use the KX modifier to indicate that a claim meets Medicare coverage criteria and that
adequate documentation exists. Claims associated with noncompliance with Medicare’s
requirements are considered improper and unallowable.
An August 2009 OIG report revealed that all but one of the claims in our sample included the KX
modifier, even though we found that 80 percent of the claims did not meet clinical coverage criteria.
Support surfaces are used in treating pressure ulcers (bedsores). Our report showed that 86
percent of group 2, which covers 80 percent of all support surface payments, did not meet Medicare
coverage criteria for the first half of 2007. This resulted in an estimated $33 million in
inappropriate payments.
Additional Background >
Pressure ulcers occur commonly among the elderly and individuals with spinal cord injuries.
Support surfaces are covered under Medicare Part B as durable medical equipment. If a physician
determines that a support surface is medically necessary, the physician writes a prescription
indicating the type of support surface the beneficiary needs. Once a support surface is selected,
prescribed, and ordered, a medical equipment supplier delivers the item to the beneficiary and bills
Medicare monthly for the rental.
For the August 2009 report, we considered a claim as not meeting Medicare coverage criteria if it
either did not meet Medicare’s clinical coverage requirements or did not meet Medicare’s supplier
documentation requirements.



                                                     Page 44
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                             Medicare Part A and Part B


An April 2012 OIG report summarized four audits of claims with KX modifiers for therapeutic shoes
for diabetics, continuous positive airway pressure systems, respiratory assist devices, and pressure
reducing support surfaces. We made unannounced visits to review suppliers’ files for a sample of
claims with the KX modifier and CY 2007 dates of service. We estimated that Medicare paid about
$316.4 million to suppliers that, despite having entered the KX modifier on the claims, did not have
the required documentation on file to support the claims.

Progress of Implementation
CMS initially said that it is reviewing the utility and use of the KX modifier as a safeguard, including
its application in durable medical equipment claims.
•   CMS’s 2011 update said that it had tasked a contractor with conducting additional medical
    review on claims for pressure-reducing support services. As part of the study, the contractor
    reviewed the KX modifier. Since this update, the contractor completed its review of claims.
•   In its 2012 update, CMS said it shared the results with the pertinent Medicare payment
    contractors. CMS also said that once it reviews the inappropriate claims and better understands
    their nature, it will forward them to the payment contractors for action.
CMS did not provide documentation to support the actions it described. We encourage CMS to
provide OIG with evidence of its corrective actions. Until then, the recommendations remain open.

Primary OIG Report
    2009 AUG Inappropriate Medicare Payments for Pressure Reducing Support Surfaces.
             OEI-02-07-00420. August 2009. Full Text.

See Also
    2012 APR Claim Modifier Did Not Prevent Medicare From Paying Millions in Unallowable Claims
             for Selected Durable Medical Equipment. A-04-10-04004. April 2012.
             Web Summary. Full Text.




                                                    Page 45
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                             Medicare Part A and Part B




Medicare A/B > Reduce Improper Payments > Medical Equipment > Lower Limb Prostheses

Medical Equipment—Ensure That Claims for Lower Limb Prostheses Meet
Requirements (New)


  Recommendations To Be Implemented
       We recommend that CMS ensure that claims for lower limb prostheses meet requirements
       by taking the following actions:
          implement additional claims processing edits to prevent inappropriate payments,
          strengthen monitoring of billing for lower limb prostheses using the measures
           discussed in our report,
          implement requirements for face-to-face encounters [between physicians and
           beneficiaries] to establish beneficiaries’ need for prostheses,
          revise requirements in local coverage determinations to ensure that prostheses are
           matched to beneficiaries’ needs and that CMS contractors can assess the medical
           necessity of these devices,
          enhance screening for currently enrolled suppliers of lower limb prostheses and place
           these suppliers into the risk level of “high,” and
          take appropriate action on suppliers with questionable billing.
       Savings - $43 million. The estimate is based on our review of 2009 claims.




The recommendations would prevent the improper payments that occur when medical equipment
suppliers bill Medicare for lower limb protheses that do not meet requirements specified in the
local coverage determination and Medicare cannot readily identify the deficiencies.
Claims associated with noncompliance with Medicare’s requirements are considered improper and
unallowable. Lower limb prostheses are designed to replace, as much as possible, the function of a
missing limb.
An August 2011 OIG report revealed that $43 million (about 6.6 percent) in payments for a sample
of lower limb prostheses did not meet Medicare requirements and could have been prevented by
using claims processing edits. The $43 million was based solely on an analysis of claims data and
did not include payments that a medical record review may have found to be unreasonable or
unnecessary. By implementing additional coverage-based edits and taking the other steps we
recommended, Medicare could better determine whether claims meet criteria for payment.
Between 2005 and 2009, Medicare spending for lower limb prostheses increased 27 percent (from
$517 million to $655 million) while the number of Medicare beneficiaries receiving lower limb
prostheses decreased by 2.5 percent.




                                                    Page 46
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                               Medicare Part A and Part B


We also found that Medicare paid $61 million for beneficiaries for whom no claims were filed by the
referring physicians, raising questions about whether the physicians ever evaluated the
beneficiaries and whether these devices were medically necessary. Suppliers frequently billed for
unusual combinations of prostheses or for beneficiaries who had no history of amputation or
missing limb.

Progress of Implementation
CMS said it would instruct the pertinent Medicare payment contractors to implement consistent
claims processing edits based on local coverage determination requirements and consider the
measures used in the OIG review as supplemental criteria for detecting high-risk suppliers. CMS
said it would also encourage the contractors to consider developing thresholds for these measures
while prioritizing their workloads. CMS’s comments on the specific recommendations included the
following:
CMS agreed that face-to-face encounters between the physician and beneficiary are important. The
Affordable Care Act, § 6407, authorizes a face-to-face documentation requirement for designated
medical supplies and for other items and services for which payment is provided under title XVIII of
the Social Security Act on the basis of a finding that such an decision would reduce the risk of waste,
fraud, or abuse.
CMS said it has sufficient tools for increased scrutiny of existing suppliers.
In March 2012, CMS issued an MLN Matters Special Edition Article outlining our concerns and CMS’s
responses. The article was intended for providers that bill Medicare for lower limb prostheses.
While the MLN article may have increased awareness about vulnerabilities highlighted in our
report, the article did not address any related OIG recommendations. (“Questionable Billing by
Suppliers of Lower Limb Prostheses.” MLN Matters. SE 1213 Revised. Issued March 26, 2012,
Revised June 7, 2012.)
We encourage CMS to follow through on its implementation plans and include in its efforts all the
recommendations we specified. We continue to monitor CMS’s progress.

Primary OIG Report
    2011 AUG Questionable Billing by Suppliers of Lower Limb Prostheses. OEI-02-10-00170.
             Full Text.

See Also
    2011 DEC Program Integrity Problems With Newly Enrolled Medicare Equipment Suppliers.
             OEI-06-09-00230. Full Text.




                                                     Page 47
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                             Medicare Part A and Part B




Medicare A/B > Reduce Improper Payments > Medical Equipment > Appeals of Revocations

Medical Equipment—Develop Evidence Criteria for Appeals To Reinstate Medical
Equipment Suppliers’ Billing Privileges


  Recommendation To Be Implemented
          We recommend that CMS strengthen the appeal process by developing criteria on the
           types of evidence required for hearing officers to reinstate medical equipment
           suppliers’ billing privileges.
       Savings probable but not estimated.




The recommendation would prevent the improper payments that could occur when medical
equipment suppliers with revoked or inactivated billing privileges are reinstated to Medicare by
hearing officers who have not been provided guidance from Medicare on the types of evidence to be
considered.
An October 2008 OIG report revealed that two-thirds of the suppliers we reviewed whose billing
privileges were reinstated by hearing officers had their privileges revoked or inactivated again and
that some individuals connected to the reinstated suppliers had been indicted.
We found that hearing officers reinstated billing privileges for 91 percent of the medical equipment
suppliers we reviewed who appealed revocation of their billing privileges. Hearing officers
reinstated the suppliers’ billing privileges on the basis of a variety of evidence submitted by the
suppliers.
Additional Background >
All suppliers whose billing privileges have been denied or revoked may appeal and request a
hearing. This is an important process to ensure that only billing privileges for suppliers that fail to
meet the supplier standards remain denied or revoked. For suppliers that request a hearing,
hearing officers generally accept all documentation submitted as legitimate, unless they have
reason to believe otherwise.

Progress of Implementation
CMS agreed that it should consider establishing guidelines for the evaluation of evidence that a
hearing officer would review. However, CMS said that guidance should not impinge on a hearing
officer’s ability to make an independent determination or with a supplier’s ability to submit any
evidence that it believes would support the reversal of a revocation or denial decision. In late 2010,
CMS indicated that it would establish guidelines for evaluating evidence and participate in a
workgroup to develop evidentiary criteria for inclusion in regulatory guidance for hearing officers.
We agree that CMS should develop criteria that maintain the independence of hearing officers and
suppliers’ ability to submit evidence. We suggest that CMS develop a list of evidence that it believes




                                                     Page 48
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                           Medicare Part A and Part B


would support the need for overturning various types of revocation and that such evidence be
germane to the reason for revocation.

Primary OIG Report
    2008 OCT South Florida Durable Medical Equipment Suppliers – Results of Appeals.
             OEI-03-07-00540. Full Text.




 Ensure Patient Safety and Quality of Care
Medicare faces challenges in ensuring the safety and quality of care rendered to its beneficiaries.
Despite increased attention to patient safety, quality problems persist.
Tools to ensure patient safety and quality include ensuring that providers meet all Medicare
conditions for coverage and participation; ensuring that health care professionals meet qualification
and licensure requirements; strengthening policies for provider accountability for quality of care;
imposing appropriate sanctions, including denying payments for services of such low quality that
they are virtually worthless; excluding providers that fail to meet basic quality standards; and
adopting electronic health records and electronic prescribing, which should improve quality of care,
reduce medication errors, and otherwise promote patient safety.
CMS develops Conditions of Participation (CoP) and Conditions for Coverage (CfC) that health care
organizations must meet in participate in and receive payment from the Medicare and Medicaid
programs. These health and safety standards are the foundation for improving quality and
protecting the health and safety of beneficiaries. CMS also ensures that the standards of accrediting
organizations recognized by CMS (through a process called "deeming") meet or exceed the Medicare
standards set forth in the CoPs / CfCs. Medicare contracts with State health agencies, otherwise
referred to as State survey agencies, to perform survey and review functions on behalf of Medicare
and certify that providers comply with Federal requirements. The types of health care
organizations subject to CoP and CfC are listed on CMS’s Web site at http://www.cms.gov.


Acronyms and Abbreviations for Selected Terms Used in This Section

ASC     ambulatory surgical center                  HHA   home health agency
CfC     conditions for coverage                     MIPPA Medicare Improvements for Patients and
CoP     conditions of participation                       Providers Act of 2008
CPM     Clinical Performance Measure                OBRA Omnibus Budget Reconciliation Act
ESRD    end stage renal disease                     QAPI quality assessment and performance
FISMA   Federal Information Security Management           improvement (program)
        Act of 2002




                                                    Page 49
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                Medicare Part A and Part B




Medicare A/B > Safety and Quality of Care > Hospitals > Noncompliance With CoPs

Hospital Survey and Certification—Provide Guidance to State Survey Agencies
on Assessing Hospital Tracking of Adverse Events


  Recommendation To Be Implemented
           We recommend that CMS provide interpretative guidelines for State survey agencies
            to assess hospitals’ compliance with Federal requirements to track and monitor
            adverse events.




The recommendation would prevent the vulnerabilities that arise when State survey agencies that
certify hospitals’ compliance with Medicare conditions of participation (CoP) and other
requirements lack guidance from CMS about how to assess hospitals’ systems for tracking and
monitoring adverse events (events that cause harm to a patient as a result of medical care or
otherwise occurs in a health care setting).
The absence of interpretive guidance undermines Medicare’s oversight of provider accountability
for safety and quality.
A March 2010 OIG report revealed deficiencies in two critical information sources that could impact
Medicare payment requirements and CoP—inaccurate patient diagnosis codes and missing hospital
incident reports. Hospitals did not generate incident reports for 93 percent of the identified events,
including some of the most serious events involving disability or death.
Additional Background >
Federal regulations require that hospitals, as a Medicare CoP, develop and maintain quality
assessment and performance improvement (QAPI) programs. As a part of the QAPI program,
hospitals must measure, analyze, and track quality indicators, including adverse events. To
accomplish this, hospitals must track medical errors and adverse events, analyze their causes, and
implement preventive actions and mechanisms that include feedback and learning throughout the
hospital.
State health agencies, otherwise referred to as State survey agencies, perform survey and review
functions on behalf of Medicare and certify that hospitals comply with Federal requirements.
However, CMS’s State Operations Manual, through which CMS provides guidance to State survey
agencies that assess hospital compliance with Federal regulations, contains no interpretive
guidelines regarding hospitals’ tracking of medical errors and adverse events. Therefore, when
State agencies perform standard compliance surveys and surveys based on complaints, it is unclear
how surveyors are to assess hospital operations for tracking the errors and events that result in
harm to patients.




                                                       Page 50
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                          Medicare Part A and Part B


Progress of Implementation
In its initial response to our March 2010 report, CMS indicated that it will ensure that the State
Operations Manual includes full guidance for surveyors to assess hospital QAPI systems and
strengthen CMS surveyor-training programs to enhance surveyors’ abilities to evaluate compliance
with the QAPI requirements. CMS has drafted guidance to State survey agencies regarding tracking
and monitoring adverse events; however, the new guidance has not been published in final.
We continue to monitor CMS's progress on publishing guidance in the State Operations Manual.
As a separate matter related to our review, to promote proper coding, we encourage CMS to
continue to publish coding advice regarding hospital-acquired conditions and reporting of present-
on-admission indicators in the Coding Clinic for ICD-9-CM. This publication is used by all hospitals
and reviewers, as it is recognized as the official CMS-approved source of coding instructions.

Primary OIG Report
    2010 MAR Adverse Events in Hospitals – Methods for Identifying Events. OEI-06-08-00221.
             Full Text.

See Also
    2011 OCT Adverse Events in Hospitals: Medicare’s Responses to Alleged Serious Events.
             OEI-01-08-00590. Full Text.
    2010 NOV Adverse Events in Hospitals: National Incidence Among Medicare Beneficiaries.
             OEI-06-09-00090. Full Text.
    2010 JAN Adverse Events in Hospitals: Public Disclosure of Information About Events,
             OEI-06-09-00360. Full Text.
    2008 DEC Adverse Events in Hospitals: Overview of Key Issues. OEI-06-07-00470. Full Text.
    2008 DEC Adverse Events in Hospitals: State Reporting Systems. OEI-06-07-00471. Full Text.
    2008 DEC Adverse Events in Hospitals: Case Study of Incidence Among Medicare Beneficiaries in
             Two Counties. OEI-06-08-00220. Full Text.




                                                  Page 51
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                    Medicare Part A and Part B




Medicare A/B > Safety and Quality of Care > Ambulatory Surgical Centers > Standards

Ambulatory Surgical Center Recertifications—Implement a Minimum Survey and
Certification Cycle


    Recommendations To Be Implemented
        We recommend that CMS
           determine an appropriate minimum cycle for surveying ambulatory surgical centers
            (ASC) certified by State survey agencies and
           hold State agencies and accreditors fully accountable to the Medicare program and the
            public for their performance in overseeing ASCs.




The recommendations would prevent the vulnerabilities that arise when ASCs are infrequently
reviewed for their compliance with Medicare’s conditions for coverage (CfC) and when Medicare
does little to hold accreditors and State survey agencies accountable to the program and the public
for their oversight of ASCs.
In February 2002, OIG issued three reports on ASC quality oversight. Our work revealed that
one-third of ASCs certified by State agencies had not been recertified in 5 or more years when the
review was performed in 2000. CMS had done little to hold accreditors and State survey agencies
accountable to the Medicare program and the public.
At the time of our review, ASCs were one of the fastest growing settings for ambulatory surgery in
Medicare. Quality oversight of ASCs revolves around the ASC CfC, which are Medicare’s set of
minimum health and safety requirements. CMS requires that and ASC become Medicare certified by
a State survey and certification agency or be privately accredited to show that it meets the CfC.
Although ASCs are free to choose which route they take, over 90 percent elect to become certified by
State agencies rather than through private accreditation.

Progress of Implementation
After our 2002 report, CMS initiated administrative and regulatory steps to improve oversight of
ASCs but has not sufficiently documented its actions with regard to frequency of survey and
certification and the accountability of State surveyors and accrediting agencies.
•    In May 2004, CMS updated its State Operations Manual, § 2008F, to say that “resurveys are
     generally conducted annually, but depending on national initiatives and budget constraints, the
     cycle may vary.”
•    On November 18, 2008, CMS issued a final rule implementing revised ASC conditions for
     coverage but did not prescribe frequency of survey and certification. (73 Fed. Reg. 68502.)
•    In 2009, the American Recovery and Reinvestment Act (Recovery Act) allotted funds to allow
     States to survey one-third of all nonaccredited ASCs in fiscal year (FY) 2010.



                                                        Page 52
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                            Medicare Part A and Part B


•    In its 2012 update of our 2002 recommendations, CMS stated that it now requires States to
     survey nonaccredited ASCs every 4 years and expects to maintain that level of frequency.
We are reviewing CMS documentation to determine whether the 4-year survey requirement is in
effect. We continue to monitor CMS’s implementation of the recommendations we specified,
including holding State survey agencies and accreditors accountable to Medicare and the public.

Primary OIG Reports
     2002 Feb Quality Oversight of Ambulatory Surgical Centers – A System in Neglect.
              OEI-01-00-00450. Full Text.
     2002 Feb The Role of Certification and Accreditation, Supplemental Report 1.
              OEI-01-00-00451. Full Text.
     2002 Feb The Role of Certification and Accreditation, Supplemental Report 2.
              OEI-01-00-00452. Full Text


Medicare A/B > Safety and Quality of Care > Hospices > Standards

Hospice Recertifications—Establish Specific Requirements for the Frequency of
Certification Surveys


    OIG Recommendation
           We recommend that CMS seek regulatory or statutory changes to establish specific
            requirements for the frequency of hospice recertification.




The recommendation would prevent the vulnerabilities that arise when hospices are infrequently
surveyed and recertified for compliance with Medicare’s Conditions of Participation (CoP) or other
program standards. (73 Fed. Reg. 32088, June 5, 2008.)
Medicare payments for hospice care increased from $3.6 billion in 2001 to $12.08 billion in 2009.
Despite the rapid growth of the hospice industry and the vulnerability of the seriously ill patients it
serves, surveys of hospices’ compliance with Medicare CoP generally occur only once every
6.5 years.
An April 2007 OIG report noted that the frequency of hospice surveys is budget driven and is less
frequent than the surveys conducted for other providers of services to seriously ill patients.
Because of budgetary constraints, CMS changed its hospice survey frequency from 6 years in 2005
to every 8 years in 2006. Subsequently CMS reset the frequency to every 6.5 years. We found that
hospices past due for recertification (14 percent) in 2005 had not been surveyed for 9 years, on
average. In contrast, the industry standard, as practiced by accrediting organizations, is to survey
hospices every 3 years. Medicare nursing facilities and home health agencies, which also care for
seriously ill patients, are certified at least every 15 months and every 3 years, respectively.
Staff from two professional associations knowledgeable about hospice issues told us they support
more frequent hospice certifications. CMS policy has consistently assigned a higher priority to


                                                        Page 53
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                            Medicare Part A and Part B


certification surveys of hospitals, nursing homes, and home health agencies than it has to
certification surveys of hospices. However, the issues at hospices are no less critical than those at
nursing homes. CMS could change the frequency of surveys by regulation, but stability of funding
for the surveys may require legislation.
Additional Background >
As defined by CMS, hospice care focuses on relief of pain and uncomfortable symptoms for
terminally ill patients, rather than curative care or life-prolonging treatment. Medicare hospice
services include nursing care, counseling, and home health aide services, as well as drugs and
medical supplies. Hospice care is provided either by freestanding hospices or by hospices owned or
operated by home health agencies, hospitals, and skilled nursing facilities.
CoP are minimum standards for hospices with which hospices must comply to participate in
Medicare. State survey agencies conduct surveys of hospices to assess their compliance with the
CoP. The results of State survey agencies’ certification surveys, complaint investigations, and
recommendations for termination are CMS’s primary sources of information about hospice
performance. Neither statute nor regulation specifies survey frequency for hospices.

Progress of Implementation
CMS said that it believed frequency of hospice certification should not be addressed in regulation
and that it was primarily a statutory issue for consideration by Congress. CMS said it believed that
the only effective statutory change would be one that automatically correlated the expected
frequency and number of surveys with the resources to accomplish the mission.
We continue to recommend that CMS seek statutory changes for the frequency of hospice
certification.

Primary OIG Report
    2007 APR Medicare Hospices – Certification and Centers for Medicare & Medicaid Services
             Oversight. OEI-06-05-00260. Full Text.

See Also


    2011 JUL Medicare Hospices That Focus on Nursing Facility Residents. OEI-02-10-00070.
             Full Text.
    2009 SEP Medicare Hospice Care for Beneficiaries in Nursing Facilities Compliance with
             Medicare Coverage Requirements. OEI-02-06-00221. Full Text.
    2009 SEP Medicare Hospice Care: Services Provided to Beneficiaries Residing in Nursing
             Facilities. OEI-02-06-00223. Full Text.
    2008 MAR Hospice Beneficiaries’ Use of Respite Care. OEI-02-06-00222. March 2008. Full Text.
    2007 DEC Medicare Hospice Care: A Comparison of Beneficiaries in Nursing Facilities and
             Beneficiaries in Other Settings. OEI-02-06-00220. Full Text.
    1998 APR Medicare Hospice Beneficiaries: Services and Eligibility. OEI-04-93-00270. Full Text.
    1997 NOV Hospice and Nursing Home Contractual Relationships. OEI-05-95-00251. Full Text.
    1997 SEP Hospice Patients in Nursing Homes. OEI-05-95-00250. Full Text.



                                                    Page 54
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                          Medicare Part A and Part B




Medicare A/B > Safety and Quality of Care > Home Health > Standards

Home Health Agency Recertifications—Implement Intermediate Sanctions for
Noncompliance With Conditions and Standards


  Recommendation To Be Implemented
           We recommend that CMS implement intermediate sanctions against noncompliant
            home health agencies (HHA) as directed by the Omnibus Budget Reconciliation Act of
            1987 (OBRA 1987).




The recommendation would allow less severe sanctions that would offer CMs a more appropriate
response to certain instances of noncompliance, such as certain deficiencies detected by a State
survey agency.
Currently, termination from the Medicare program is CMS's only available Federal sanction to
address an HHA's failure to comply with Medicare conditions and standards. An extreme remedy,
termination is used only rarely. In 2006, termination was applied only 21 times.
OBRA of 1987 authorized intermediate sanctions. CMS issued a proposed rule for intermediate
sanctions on August 2, 1991, but never finalized the regulation. Intermediate sanctions may include
civil money penalties, suspension of all or part of Medicare payments, and appointment of
temporary management for cyclically deficient HHAs. Expanding CMS's oversight options to allow
intermediate sanctions would allow CMS to respond to detected deficiencies and promote
compliance in a manner that allows continued delivery of services to beneficiaries and minimizes
disruption of care.
A July 2008 OIG report revealed that of the cyclically deficient HHAs we identified, 42 percent
repeated at least two of the same citations on each of their three most recent surveys and 5 percent
repeated the same five or more citations. Our July 2008 report also revealed that as of January
2007, 15 percent of HHAs in our sample had repeated at least one deficiency citation on each of
their three most recent surveys. Many cyclically deficient HHAs repeated more than one deficiency
citation across multiple surveys. Most cyclically deficient HHAs repeated standard-level citations.
The repeatedly noncompliant HHAs received, on average, twice as many deficiency citations per
survey compared with HHAs without repeated citations. Furthermore, HHAs with repeated
deficiencies performed worse on subsequent surveys. In such cases, intermediate sanctions are an
appropriate oversight option.
Additional Background >
All HHAs participating in Medicare must comply with 15 Medicare Conditions of Participation
(CoP), 12 of which are subdivided into standards that address specific aspects of the condition. CMS
is responsible for ensuring that the CoP and their enforcement are adequate to protect the health



                                                       Page 55
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                           Medicare Part A and Part B


and safety of individuals receiving home health services. To fulfill this duty, CMS contracts with
State survey agencies to conduct initial HHA certification and recertification reviews.

Progress of Implementation
CMS concurred with the recommendation to implement intermediate sanctions as directed by
OBRA 1987 and said that it had initiated the rulemaking process numerous times but that other
demands had impeded promulgation of a final rule.
•   In December 2009, CMS said that it had drafted an alternative sanction proposal that was under
    review.
•   In 2010 CMS developed a new proposed rule that would require unannounced and extended
    surveys of HHAs and the imposition of intermediate sanctions when HHAs are found to be out of
    compliance with the Medicare standards.
•   On July 13, 2012, CMS published its proposed rule for intermediate sanctions. The proposal
    would create new subpart I, which would provide survey and certification guidance, while new
    subpart J would outline the basis for enforcement of compliance standards for HHAs that are
    not in substantial compliance with Medicare participation requirements. The rule includes a
    number of related provisions, including setting forth rules for certification, documentation of
    findings, periodic review of compliance and approval, certification of noncompliance,
    determining compliance, frequency of surveys, surveyor qualifications, general rules for
    enforcement actions, factors to be considered in selecting sanctions, and available sanctions.
    (77 Fed. Reg. 41548, 41575.) On November 8, 2012, CMS published a final rule implementing
    intermediate sanctions for HHAs. However, the effective date for implementing the
    intermediate sanctions is July 1, 2014, to provide time to develop associated interpretive
    guidance. (77 Fed. Reg. 67068, 67137.)
We encourage CMS to issue interpretive guidance on intermediate sanctions. We continue to
monitor the extent to which the corrective actions implement our recommendation.

Primary OIG Report
    2008 JUL Deficiency History and Recertification of Medicare Home Health Agencies.
             OEI-09-06-00040. Full Text.

See Also
    2012 MAR Intermediate Sanctions for Noncompliant Home Health Agencies. OEI-06-11-00401.
             Full Text.




                                                   Page 56
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                             Medicare Part A and Part B




Medicare A/B > Safety and Quality of Care > Nonphysicians

Physicians—Revise the "Incident-to" Rule and Implement a Service
Code Modifier To Improve Oversight


  Recommendations To Be Implemented
        We recommend that CMS
           seek legislative revisions to Medicare’s “incident to” rule; and
           require physicians who bill services to Medicare that they do not personally perform
            to identify such services on their Medicare claims using a service code modifier.




The recommendations would reduce the vulnerabilities that arise when physicians bill Medicare for
services but, on the basis of the claim alone, Medicare cannot detect whether some or all of the
services were performed by nonphysicians.
“Incident to” services are required to meet Medicare’s general criteria for medical necessity,
documentation, and quality of care. However, such services may be vulnerable to overutilization or
to delivery by persons unqualified to perform the services and may put beneficiaries at risk of
receiving services that do not meet professionally recognized standards of care.
Medicare’s “incident to” rule allows physicians to bill for services performed by any personnel,
licensed or unlicensed, that are performed incident to the physicians’ services.
A September 2009 OIG report revealed that when Medicare allowed physicians more than 24 hours
of services in a day, half of the services were not performed personally by the billing physicians. We
found that nonphysicians performed almost two-thirds of the invasive services (which involve entry
into the living body, as by incision or by insertion of an instrument). Our review disclosed that for
21 percent of all services performed by nonphysicians as “incident to,” the nonphysicians did not
possess the necessary licenses or certifications, had no verifiable credentials, or lacked the training
to perform the services.
Additional Background >
This problem may be more widespread than we were able to report. Our sample included only
those physicians who billed for more than 24 hours of services in a day. The sample was a proxy for
physicians who billed “incident to.” However, we have no reason to believe that the issues identified
in this review are unique to the sampled physicians. Physicians who bill Medicare for fewer than 24
hours of services in a day also bill for “incident to” services, some of which may be performed by
unqualified nonphysicians.

Progress of Implementation
CMS initially said it would provide improved guidance for documenting the qualifications of the
person performing the services that were billed to Medicare by physicians and nonphysician



                                                        Page 57
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                              Medicare Part A and Part B


practitioners who may bill services “incident to” physicians' services. On October 9, 2009, CMS
issued limited guidance (CR Transmittal 574) to its payment contractors stating that the contractors
should use the information in our September 2009 report and should follow the processes and
procedures already in CMS’s Program Integrity Manual concerning data analysis, contractor
strategies, and the progressive corrective action process.
CMS did not concur with our recommendation to create a service code modifier to identify
physicians’ claims for services that physicians do not personally perform and has not provided
updates on further guidance or revisions.
We continue to monitor CMS’s implementation of the recommendations we specified.

Primary OIG Report
    2009 SEP Prevalence and Qualifications of Nonphysicians Who Performed Medicare Physician
             Services. OEI-09-06-00430. Full Text.



 Oversight of Medicare Contractors
As the program manager for Medicare, CMS carries out claims processing and program integrity
functions with the assistance of various types of contractors. For Part A and Part B claims
processing, CMS has used contractors called “intermediaries” and “carriers,” which are being
replaced by Medicare Administrative Contractors (MAC). Benefit integrity functions originally
conducted by carriers and intermediaries were replaced several years ago by program safeguard
contractors (PSC). PSC functions are now being transitioned to Zone Program Integrity Contractors
(ZPIC). Also, Recovery Audit Contractors (RAC) conduct postpayment reviews to identify
underpayments and overpayments. RACs may also identify potential fraud and refer such claims to
CMS for assessment and possible referral to OIG.


Acronyms and Abbreviations for Selected Terms Used in This Section

CMS ARTS        Analysis , Reporting, and           PSC       program safeguard contractor
Tracking        System                              RAC       Recovery Audit Contractor
HIPAA           Health Insurance Portability and    ZPIC      Zone Program Integrity Contractor
                Accountability Act of 1996




                                                    Page 58
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                  Medicare Part A and Part B




Medicare Part A/B > Oversight of Medicare Contractors > Benefit Integrity Contractors Performance

Benefit Integrity Contractor Performance—Improve the
Performance Evaluation Process to Include Quantitative Data


  Recommendation To Be Implemented
           We recommend that CMS address benefit integrity contractors’ results in their
            performance evaluation reports, to include quantitative as well as qualitative
            information.




The recommendation, which was made on the basis of a review of program safeguard contractors
(PSC) (a type of benefit integrity contractor), would provide a more comprehensive picture of PSCs'
performance and provide valuable data for making contract renewal decisions.
If, for example, certain contractor activities are saving money for the Medicare program, the activity
and the amount of money saved should be included in the performance evaluation reports.
A March 2006 OIG report revealed that performance evaluation reports issued by CMS from 1999 to
2004 to PSCs contained only minimal information about the contractors' achievements in detecting
and deterring fraud and abuse under benefit integrity task orders. Because these reports were
limited in their description of the results that the contractors may have been achieving, they
provided limited information on which to base task order renewal decisions. Only 5 of 32 final
reports were issued 3 months before the task orders ended, which is the time by which CMS was
required to notify the contractors of whether the contracts would be renewed.
Additional Background >
The Health Insurance Portability and Accountability Act of 1996 (HIPAA), § 202, authorized CMS to
contract out program integrity functions for Medicare and required a competitive process for
awarding contracts. The first entities awarded such contracts were called PSCs. Once under
contract, PSCs were awarded task orders to carry out specific duties. Prior to HIPAA, Medicare
anti-fraud and abuse activities were conducted by fraud units housed in the Medicare claims
processing contractors (fiscal intermediaries and carriers).
Pursuant to the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, CMS is
replacing PSCs with Zone Program Integrity Contractors (ZPIC). A November 2011 OIG report
revealed that Medicare’s performance evaluations of ZPICs contained few workload statistics.

Progress of Implementation
In its initial response to the results of our March 2006 review, CMS noted that in 2007 it assigned
quantitative measures, as appropriate, to each rating in its performance evaluations. These
measures allowed for more objective and consistent scoring across all evaluations. In its February
2011 update, CMS stated it continues to collect and track quantitative data from PSCs in its CMS
Analysis, Reporting, and Tracking System (CMS ARTS) database. However, the data collected are not



                                                        Page 59
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                         Medicare Part A and Part B


being included in performance evaluations because CMS believes that quantifying output can create
negative incentives and undermine the value of the contractors’ work.
OIG believes quantitative data can be included in ways that do not create negative incentives. We
continue to monitor CMS's progress.

Primary OIG Report
    2006 MAR Medicare’s Program Safeguard Contractors – Performance Evaluation Reports.
             OEI-03-04-00050. March 2006. Full Text.

See Also
    2012 JUN OIG Testimony Before the House Committee on Energy and Commerce,
             Subcommittee on Oversight and Investigations: Medicare Contractors’ Efforts To
             Fight Fraud—Moving Beyond “Pay and Chase.” Full Text.
    2011 DEC Addressing Vulnerabilities Reported by Medicare Benefit Integrity Contractors.
             OEI-03-10-00500. Full Text.
    2011 NOV Zone Program Integrity Contractors’ Data Issues Hinder Effective Oversight.
             OEI-03-09-00520. Full Text.
    2010 MAY Medicare Overpayments Identified by Program Safeguard Contractors.
             OEI-03-08-00031. Full Text.
    2010 MAY Collection Status of Medicare Overpayments Identified by Program Safeguard
             Contractors. OEI-03-08-00030. Full Text.
    2010 MAY Collection Rate for Overpayments Made to Medicare Suppliers in South Florida.
             OEI-03-09 00570. Full Text.
    2009 OCT Medicare Drug Integrity Contractors’ Identification of Potential Part D Fraud and
             Abuse. OEI-03-08-00420. Full Text.
    2007 JUL Medicare’s Program Safeguard Contractors: Activities to Detect and Deter Fraud and
             Abuse. OEI-03-06-00010. Full Text.
    1998 NOV Fiscal Intermediary Fraud Units. OEI-03-97-00350. Full Text.
    1996 NOV Carrier Fraud Units. OEI-05-94-00470. Full Text.




                                                  Page 60
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                  Medicare Part A and Part B




Medicare Part A/B > Oversight of Medicare Contractors > Variation in Overpayment Referral Rates

Overpayment Referrals—Determine Why Medicare Overpayment Referral Rates
Vary Among Contractors


  Recommendations To Be Implemented
        We recommend that CMS
           determine why some PSCs refer low levels of overpayment dollars for collection
            compared with their oversight responsibility and
           determine why some PSCs refer low Part A overpayment dollars for collection
            compared to the Part B overpayment dollars they refer for collection.




The recommendations would help Medicare better evaluate benefit integrity contractor efforts
compared with the dollars and benefit categories at risk. CMS’s contractor performance evaluations
provide very few quantitative details about contractors’ achievements in detecting and deterring
fraud and abuse.
A May 2010 OIG report revealed that of 18 PSCs we reviewed in 2007, only 2 were responsible for
62 percent of the $835 million referred. The amounts of the 18 PSCs' overpayment referrals
differed substantially—from $3 million to $266 million with a median of $15 million.
The May 2010 report also revealed that although Part B payments represented 29 percent of PSCs’
oversight responsibility, Part B overpayments accounted for 89 percent of the overpayment dollars
referred for collection. Conversely, although Part A payments represented 71 percent of PSCs’
oversight responsibility, Part A overpayments accounted for only 11 percent of overpayment dollars
referred for collection.
Additional Background >
We have also found significant variation in fraud detection activities among the new ZPICs that are
replacing PSCs. We noted that while one would expect that contractors would differ somewhat
from one another in activity levels, the variation in results cannot always be explained by the size of
the contractors’ budget or oversight responsibility.

Progress of Implementation
CMS said that the change to its new ZPIC benefit integrity strategy should address OIG’s concerns.
CMS is transitioning benefit integrity functions from PSCs to ZPICs. Each ZPIC is responsible for all
claim types in its geographic zone. As of September 2011, CMS had awarded all ZPIC contracts.
OIG will monitor CMS’s implementation of our recommendations, including whether its contracting
strategy will address our recommendations.




                                                        Page 61
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                 Medicare Part A and Part B


Primary OIG Report
     2010 MAY OIG Report—Medicare Overpayments Identified by Program Safeguard Contractors.
              OEI-03-08-00031. Full Text.

See Also
     2012 JUN OIG Testimony Before the House Committee on Energy and Commerce,
              Subcommittee on Oversight and Investigations: Medicare Contractors’ Efforts To
              Fight Fraud—Moving Beyond “Pay and Chase.” Full Text.




Medicare Part A/B > Oversight of Medicare Contractors > Status of Overpayment Collections

Overpayment Referrals—Implement Controls To Track the Status of
Overpayments Referred for Collection


  Recommendations To Be Implemented
       We recommend that CMS
           require benefit integrity contractors and claims processors to have controls in their
            tracking systems to ensure that all overpayment referrals and data related to their
            collection status can be found and
           determine what happened to the 1,060 overpayments that PSCs referred to claims
            processors in 2007 for which claims processors could not provide any collection
            information.




The recommendations would reduce the risk that the Medicare program might not recover the
overpaid funds that benefit integrity contractors identify and refer to Medicare’s claims processing
contractors.
CMS, as the program manager of Medicare, is responsible for ensuring that PSCs, ZPICs, and claims
processors perform their overpayment identification and referral functions effectively. To
accomplish this, CMS must have complete and accurate information about overpayment referrals
and the collection status of the referrals.
A May 2010 OIG report revealed that PSCs were not required to keep track of the amount that
claims processors collected on their overpayment referrals. We found that overpayments referred
for collection by PSCs in 2007 did not result in significant recoveries to Medicare. Only 7 percent of
the referred amounts had been collected by claims processors as of June 2008. Fifty-three percent
of the referred amount was sent to the Department of the Treasury’s cross-servicing program for
collection. However, the Treasury program does not have a high rate of return. Claims processors
reported that collection was not complete for 5 percent of the overpayments, and another 5 percent
will not likely be collected by claims processors because the providers stopped billing, filed for



                                                       Page 62
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                  Medicare Part A and Part B


bankruptcy, went out of business, or were deceased. For 17 percent of the referred amount,
collection was on hold pending investigation or appeal.
As of June 2008, 6 percent of the PSC overpayment amount was no longer owed by providers
because of revisions that claims processors made to the amounts and appeal decisions that were
favorable to providers. Finally, claims processors could not provide data for one in four PSC
overpayment referrals, which accounted for 8 percent of the PSC overpayment dollars. Claims
processors reported that they did not receive or could not provide any collection information for
1,060 of 4,239 overpayments.

Progress of Implementation
According to CMS’s 2012 status update, it now has a reporting system that enables it to identify the
overpayments that PSCs and ZPICs refer to claims processors for collection and that the system also
enables CMS to identify the status of the overpayments. CMS recently added the number of
overpayments recovered to CMS ARTS.
We continue to monitor CMS’s implementation of our recommendations, including any controls in
place to ensure that all overpayment referrals and data related to their collection status can be
found. In addition, we continue to monitor the status of the 1,060 overpayments identified by the
May 2010 OIG report.

Primary OIG Report
     2010 MAY Collection Status of Medicare Overpayments Identified by Program Safeguard
              Contractors. OEI-03-08-00030. Full Text.

See Also
     2012 JUN OIG Testimony Before the House Committee on Energy and Commerce,
              Subcommittee on Oversight and Investigations: Medicare Contractors’ Efforts To
              Fight Fraud—Moving Beyond “Pay and Chase.” Full Text.
     2102 MAY Obstacles to Collection of Millions in Medicare Overpayments. A-04-10-03059.
              Full Text.



Medicare Part A/B > Oversight of Medicare Contractors > Recovery Audit Contractor Fraud Referrals

Fraud Referrals—Implement a System To Track Recovery Audit Contractors’
Referrals of Potentially Fraudulent Claims


  Recommendations To Be Implemented
           We recommend that CMS implement a system to track all fraud referrals it receives
            from Recovery Audit Contractors (RAC).




                                                        Page 63
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                          Medicare Part A and Part B


The recommendation would provide continuously quantifiable measures of the extent to which
RACs identify potential fraud in conducting their claims payment reviews.
RACs conduct postpayment reviews of Medicare claims to identify overpayments and
underpayments and attempt to recoup any overpayments they identify. The Affordable Care Act,
§ 6411, expanded the RAC program.
A February 2010 OIG report revealed that between March 2005 and March 2008 (a RAC 3-year
demonstration project), RACs referred only two cases of potential fraud to CMS. RACs receive
contingency fees based on the amount of improper payments identified (overpayments and
underpayments). However, RACs do not receive any contingency fees for the cases they refer that
are determined to be fraud. Thus, there may be a disincentive for RACs to refer cases of potential
fraud to CMS.
Additional Background >
RACs are not responsible for reviewing claims for fraudulent activity; however, they are responsible
for referring to CMS any cases of potential fraud identified during their reviews. During the
demonstration project, RACs received no formal training from CMS regarding the identification and
referral of potential fraud. About 40 percent of the improper payments that RACs identified during
the demonstration period were found in medical necessity reviews. Lack of medical necessity is a
common issue in fraudulent billing investigations.

 Progress of Implementation
In its update for 2011, CMS noted that it had developed a Memorandum of Understanding (MOU)
with OIG regarding fraud referrals as well as a referral template for the Medicare fee-for-service
recovery audit program. CMS said that it has used the referral template to send fraud referrals to
OIG. CMS also said that it has an internal database to track all such fraud referrals to OIG.
We believe that CMS should track all fraud referrals it receives from RACs, not just those passed on
to OIG. We will continue to monitor CMS’s implementation of our recommendation.

Primary OIG Report
    2010 FEB Recovery Audit Contractors’ Fraud Referrals. OEI-03-09-00130. Full Text.




                                                   Page 64
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                              Medicare Part A and Part B



 Other Management and Systems Issues
This section addresses CMS’s supporting systems, administrative responsibilities, and other
requirements not directly related to the preceding sections.


Acronyms and Abbreviations for Selected Terms Used in This Section

CMP   civil monetary penalty                         HRSA      Health Resources and Services
FFMIA Federal Financial Management                             Administration
      Improvement Act of 1996                        LEP       limited English proficiency
FMFIA Federal Managers’ Financial Integrity Act of   NPDB      National Practitioner Data Bank
      1982                                           OCR       Office for Civil Rights
HIPDB Healthcare Integrity and Protection Data       OMB       Office of Management and Budget
      Bank                                           OMH       Office of Minority Health
                                                     SOSI      Statement of Social Insurance




Medicare A/B > Reduce Improper Payments > Hotline Complaints

1-800-HHS-TIPS Hotline—Upgrade the System for Processing Complaints (New)


  Recommendation To Be Implemented
          We recommend that CMS upgrade its information system for processing hotline
           complaints.
       Savings probable but not estimated.




The recommendations would prevent the improper payments that occur when long timeframes and
inefficient processes delay starting work on hotline complaints and when a lack of guidance and an
inadequate information system hinder complaint processing.
A March 2011 OIG report revealed that CMS resolved the majority of hotline complaints within at
least 1 year after OIG received them through the 1-800-HHS-TIPS hotline, but 12 percent remained
unresolved. CMS and contractor staff reported the need for written guidance for processing hotline
complaints.
The availability of the hotline is widely publicized in HHS and CMS publications and Web sites.
Given the hotline’s prominence, it is vital that information reported to the hotline be thoroughly
reviewed and appropriately addressed in a timely fashion. OIG hotline staff refer to CMS for
resolution the complaints received. CMS staff, as well as staff at Medicare claims processing
contractors, process the complaints referred by OIG.




                                                     Page 65
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                            Medicare Part A and Part B


Progress of Implementation
CMS said it will use Enterprise Content Management to integrate the OIG hotline database with
1-800-MEDICARE (a toll-free line for issues that fall outside OIG’s jurisdiction or that do not rise to
the level of a complaint) to provide an end-to-end automated system. CMS said that with the added
functionality of tracking user activity, contractor assignments, and the status of complaints, the
investment in an integrated platform and approach obviates previously planned tactical database
upgrades.
We encourage CMS to follow through on its efforts to upgrade its hotline processing system. We
continue to monitor implementation of our recommendation in terms of resolving the conditions
found in our review.

Primary OIG Report
    2011 MAR CMS Processing of Complaints Received Through the 1-800-HHS-TIPS Hotline.
             OEI-07-09-00020. Full Text.
Our report of this review to Congress in FY 2011 included a related recommendation concerning
CMS's issuance of written guidance to its own and its contractor staffs for processing hotline
complaints. That recommendation has since been resolved. (Semiannual Report to Congress,
October 2010 – March 2011.)




                                                    Page 66
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                              Medicare Part A and Part B




Medicare Part A/B > Other Management and Systems Issues > Financial Reporting

Financial Management—Improve CMS’s Financial Reporting and
Related Processes


  Recommendations To Be Implemented
       We recommend that CMS
          establish specific policies and procedures and a protocol to address situations or
           transactions that require the involvement of more than one CMS functional unit to
           ensure that CMS’s interim and year-end financial statements are accurate and
           complete (FY 2010);
          continuously monitor the State Medicaid draws and improve grant oversight activities
           to ensure that States do not overdraw funds (new FY 2011);
          establish a process to perform a claims-level detailed lookback analysis of Medicaid
           Entitlement Benefits Due and Payable to determine the reasonableness of the
           methodology used to estimate the accrual (FY 2010 and FY 2011);
          continue to improve the integrity and efficiency of the various error rate development
           and analysis tools (FY 2010 and FY 2011);
          continue to implement an integrated financial management system to promote
           consistency and reliability in accounting and financial reporting (FY 2010 and FY
           2011);
          continue to enhance its process related to the development, documentation, and
           validation of critical accounting matters and to delegate the responsibility of the
           centers or offices to provide robust analyses on a routine and recurring basis (FY 2010
           and FY 2011); and
          continue discussions with key stakeholders and standard-setting bodies on the
           presentation of the statement of social insurance (SOSI) (FY 2010 and FY 2011).



The recommendations (two of which apply to specifically to Medicaid), would help ensure that
CMS’s financial management systems will process and record financial events effectively and
efficiently and provide complete, timely, and reliable financial information.
Except for the second recommendation above on Medicaid draws, all recommendations were
carried forward from the FY 2010 CMS financial statement audit and remain to be fully
implemented.
The recommendation on Medicaid draws was reported in the FY 2011 CMS financial statement
audit. CMS’s efforts to continuously monitor the State Medicaid draws and perform grant oversight
activities should be improved. Routine and timely review of the draws would ensure that the States



                                                      Page 67
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                          Medicare Part A and Part B


do not overdraw funds. Medicaid grant awards should be finalized timely and settled on a periodic
basis. CMS should ensure that the grant closeout process occurs timely and consistently to
eliminate any erroneous draws to grant awards with remaining authority. The FY 2010 and FY
2011 audits are referenced under “OIG Reports” below.
Additional Background >
Financial management in the Federal Government requires accountability by financial and program
managers, control over the Federal Government’s financial resources, and protection of Federal
assets. The Office of Management and Budget’s (OMB) Circular A-127, Financial Management
Systems, prescribes the policies and standards that each agency should follow in developing,
operating, evaluating, and reporting on financial management systems.
CMS relies on a decentralized organizational structure and complex financial management
systems—not only within its central office and regional offices’ processes, but also within many of
the Medicare contractor organizations—to accumulate data for its financial reporting.

Progress of Implementation
In FY 2011, CMS continued to improve its financial management performance in many areas and
continues to focus its efforts to address the remaining significant deficiencies.
As part of our financial statement audits, we will review CMS’s corrective action plan to ensure that
it adequately addresses the findings and recommendations.

Primary OIG Reports
    2011 NOV CMS Financial Report, Fiscal Year 2011. Audit Opinion Section. Daniel R. Levinson,
             Inspector General, Report on the Financial Statement Audit of the Centers for
             Medicare & Medicaid Services for Fiscal Year 2011, pp. 103, 127. A-17-11-02011.
             Full Text.
    2010 NOV CMS Financial Report, Fiscal Year 2010. Audit Opinion Section. Daniel R. Levinson,
             Inspector General, Report on the Financial Statement Audit of the Centers for
             Medicare & Medicaid Services for Fiscal Year 2011, pp. 89, 114-115. A-17-11-02010.
             Full Text.




                                                   Page 68
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                Medicare Part A and Part B




Medicare Part A/B > Other Management and Systems Issues > Data Integrity and Security

Data Integrity and Security—Improve Medicare Information Systems Controls


  Recommendations To Be Implemented
       We recommend that CMS
           proactively monitor Medicare fee-for-service contractor compliance with its directives
            for data access and for controlling changes made to shared systems;
           ensure that consistent, current, and complete system security plans are prepared by
            all system owners, Medicare fee-for-service claims processing contractors, enterprise
            data centers, and system software maintainers; and
           ensure that appropriate segregation of duties is established in all systems that support
            CMS's programs, including Medicare fee-for-service claims and related financial
            processing at claims processing contractors and enterprise data centers to prevent
            excessive or inappropriate access.




The recommendations would help ensure that Medicare’s critical system assets are protected from
unauthorized usage and that only authorized personnel are granted access to data and programs.
CMS’s information systems controls were considered a significant deficiency in the FY 2011financial
statement audit because CMS did not ensure that configuration management controls were in effect
at the single testing contractor; the single testing contractor's required system security plan was not
current or complete and did not reflect an assessment of risk that the single testing contractor faces
in its role supporting CMS; and there was inconsistent and incomplete execution of CMS's directives
and guidance over information security controls by the Medicare claims processing contractors.
Additional Background >
The Federal Financial Management Improvement Act of 1996 (FFMIA) requires Federal agencies to
maintain acceptable accounting systems. Also, the Federal Managers’ Financial Integrity Act of
1982 (FMFIA) requires agencies to develop, maintain, and test their internal controls and financial
management systems and to report any material weaknesses and planned corrective actions.
A substantial portion of CMS transactions and administration of programs is performed by
geographically dispersed contractors. The contracts between CMS and its contractors that have IT
responsibilities include provisions requiring the contractors to follow security standards detailed in
CMS’s Business Partners Systems Security Manual. Specific security standards followed by a
contractor are to be documented in the contractor’s System Security Plan.

Progress of Implementation
According to CMS’s Financial Report for FY 2011, CMS has continued making progress to remediate
specific information security weaknesses and continues to focus its efforts in on addressing the
remaining significant deficiencies. The Chief Financial Officers audit for FY 2011 noted that


                                                       Page 69
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                Medicare Part A and Part B


improvement was made concerning the FY 2010 significant deficiency associated with Medicare
systems controls. In addition, OIG attended CMS’s monthly Risk Management meetings that
discussed and tracked the progress of CMS’s corrective action plans.
As part of the FY 2012 financial statement audit, CMS’s corrective action plan will be reviewed to
ensure that it adequately addresses the FY 2011 recommendations. We continue to monitor CMS’s
progress.

Primary OIG Report
     2011 NOV CMS Financial Report, Fiscal Year 2011. Audit Opinion Section. Daniel R. Levinson,
              Inspector General, Report on the Financial Statement Audit of the Centers for
              Medicare & Medicaid Services for Fiscal Year 2011, pp. 103, 119-120 .
              A-17-11-02011. November 2011.




Medicare Part A/B > Other Management and Systems Issues > Quality of Data for Oversight > HIPDB

Quality of Data for Oversight—Improve CMS Reporting to the Healthcare
Integrity and Protection Data Bank


  Recommendations To Be Implemented
           We recommend that CMS report all adverse actions to the Healthcare Integrity and
            Protection Data Bank (HIPDB) as required. To accomplish this, CMS should educate
            staff and contractors about the types of adverse actions required to be reported and
            the timeframes for reporting.




The recommendation would help ensure that HIPDB data are accurate and can be successfully used
in monitoring or preventing the participation of potentially fraudulent or abusive health care
providers in Medicare and other health care programs and environments.
The HIPDB is a national data bank containing reports of adverse actions against health care
practitioners, providers, and suppliers. Federal and State government agencies and health plans are
required to report to the HIPDB. CMS imposes a variety of sanctions that are required to be
reported to the HIPDB, including revocations and suspensions of laboratory certifications;
terminations of providers from participation in Medicare; and civil monetary penalties (CMP)
against all types of providers, managed care plans, and prescription drug plans.
A September 2010 OIG report revealed that CMS took adverse actions against providers, but did not
report them to the HIPDB as required. CMS did not report any actions between 2001 and 2008.
We identified a number of adverse actions imposed against laboratories in 2007 and against
managed care and prescription drug plans between January 1, 2006, and July 31, 2009, that were
not reported to the HIPDB. None of the adverse actions against medical equipment suppliers taken
after 2008 had been reported to the HIPDB at the time of our review. However, as of April 30, 2009,



                                                       Page 70
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                          Medicare Part A and Part B


5,125 adverse actions against medical equipment suppliers imposed from 1998 through 2008 had
been added to the databank. None of the nursing homes terminated from participating in Medicare
from 2004 through 2008 were reported to the HIPDB until 2009, well after the required reporting
timeframe.
Additional Background >
The HIPDB is maintained by the Health Resources and Services Administration (HRSA). HRSA also
maintains a similar database of adverse actions against practitioners, the National Practitioner Data
Bank (NPDB).
The Affordable Care Act, § 6403, requires the elimination of duplicative data reporting and access
requirements between the NPDB and the HIPDB. The Secretary of HHS is required to establish a
transition period to transfer all data in the HIPDB to the NPDB and, once the transition is
completed, to cease operations of the HIPDB. Information previously collected and disclosed
through the HIPDB will continue to be collected and disclosed through the NPDB. Therefore, CMS
should continue its efforts to report all adverse actions as required—currently to the HIPDB and,
when it ceases operation, to the NPDB. See proposed rule at 77 Fed. Reg. 9138 (February 15, 2012).

Progress of Implementation
CMS concurred with our recommendation. It described planned efforts to report adverse actions
imposed against nursing facilities, laboratories, and medical equipment suppliers, including
working with HRSA, to develop technical procedures and educating staff and contractors about
HIPDB reporting.
In its update for 2011, CMS reported that the HIPDB records on revocations among medical
equipment suppliers had been updated through August 2010. However, CMS did not provide
information on its efforts to report adverse actions against provider types other than medical
equipment suppliers (e.g., Medicare providers, nursing facilities, laboratories, managed care plans,
and prescription drug plans).
We continue to monitor CMS’s implementation of our recommendation.

Primary OIG Report
    2010 SEP CMS Reporting to the Healthcare Integrity and Protection Data Bank.
             OEI-07-09-00290. Full Text.

See Also
    2012 SEP Recommendation Followup Memorandum Report: CMS Reporting to the Healthcare
             Integrity and Protection Data Bank. OEI-07-09-00292. Full Text.




                                                   Page 71
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                    Medicare Part C



Medicare Part C
(Medicare Advantage)
The Balanced Budget Act of 1997 (BBA) established the Medicare+Choice (M+C) program to
provide a wider range of health plan choices to Medicare beneficiaries. The BBA also modified the
payment methodology under the program with the intent of correcting excess payments, reducing
geographic variations in payments, and aligning payments to reflect beneficiaries’ health status.
However, because some of the BBA's provisions may not have been implemented as intended, their
benefits were not realized.
The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA) redesignated
the M+C program as Medicare Advantage (MA). Despite evidence that MA organizations were
receiving more than sufficient reimbursements, the MMA increased Medicare’s payments to MA
organizations.
OIG’s audits and evaluations do not routinely project the annual cost savings that could be realized
at program level from implementing its recommendations. However, reports are indicative of the
extent to which policies and methodologies may be less than effective and in need of corrective
action.




Medicare Part C > Avoid Wasteful Spending > MA Capitation Payments

Medicare Advantage Payment Amounts—Modify Payments to
Medicare Advantage Organizations


  Recommendation To Be Implemented
          We recommend that CMS modify monthly capitation rates to a level fully supported by
           empirical data.
       Savings probable but not estimated. We found multiple issues that are being addressed
       incrementally. An HHS proposal to adopt competitive bidding for managed care was
       estimated to save $177.2 billion over 10 years (2010 – 2019). (HHS Budget in Brief for
       Fiscal Year 2010.)




This longstanding recommendation would curb the wasteful spending that has occurred because
factors that were known to negatively impact the reasonableness of Medicare reimbursements for
managed care were not timely addressed.
A September 2000 OIG report summarized several factors causing Medicare’s payments for
managed care to be higher than necessary. Such factors included a high (14-percent) fee-for-service
error rate that inflated the 1997 capitation base rate and was carried forward unadjusted into
future years. Other factors included high Medicare-funded administrative costs and the


                                                      Page 72
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                    Medicare Part C


unaccounted-for interest revenue that managed care organizations earned on Medicare’s
prospective payments (prepayments).
The report also noted that the cost estimates used to establish the 1997 base rate for calculating
payments to MCOs were overstated because of actuarial assumptions by 3.1 percent—about
$1.2 billion annually. The overstatement was never remedied. It negated the impact of intended
reductions, and the effect carried forward into subsequent years’ calculations. We estimated the
cumulative effect of this overstatement alone would cost Medicare about $21.7 billion over 10 years
(FY 2000 through FY 2009).
The 2000 report described additional factors placing Medicare’s managed care payment
methodology in question. For example, the Balanced Budget Act of 1997, which created the
Medicare+Choice (M+C) program, was intended to correct excesses in prior managed care payment
methods; however, after implementation, payments were even higher. The BBA established
payments at 95 percent of fee-for-service (FFS) payments to account for presumed efficiencies in
the managed care sector. However, the BBA also included a minimum 2-percent annual increase for
participating organizations and the Balanced Budget Refinement Act of 1999 (BBRA) delayed full
implementation of BBA-authorized risk adjustments that would have saved costs. The net effect
was that the provisions provided higher funding to participating managed care organizations than
had the BBA and BBRA not been implemented.
The report also noted that MCOs were avoiding costs through beneficiaries’ use of nonnetwork
providers, favorable selection of healthier beneficiaries, and overcharging Medicare for certain
special categories of beneficiaries.
We concluded that the implementation of a comprehensive risk adjustment system based on
encounter data from sites of service in addition to inpatient hospital care would further reduce
payments.

Progress of Implementation
The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA) redesignated
the M+C program as Medicare Advantage. Despite evidence that MA organizations were receiving
more than sufficient reimbursements, the MMA increased Medicare’s payments to MA
organizations.
•   The Deficit Reduction Act of 2005 (DRA), § 5301, as summarized by the Congressional Budget
    Office (CBO), required the Secretary to temporarily modify the risk adjustment process. CBO
    estimated Medicare would save $6.5 billion from 2008 through 2010.
•   The HHS Budget in Brief for Fiscal Year 2010, p. 55, proposed to establish a competitive bidding
    system. The approach (which was not enacted) would have allowed the market, not Medicare,
    to set MA payment rates. HHS estimated savings as $177.2 billion over 10 years (2010 – 2019),
    p. 59.
•   The Health Care and Education Reconciliation Act of 2010, §§ 1102 and 1103, froze MA
    payments in 2011, extended CMS’s authority to adjust risk scores relative to FFS, and limited
    administrative costs.
We continue to monitor CMS’s progress in ensuring that Medicare Advantage capitation rates and
adjustments are implemented and calculated in a manner that reflects appropriate empirical data.




                                                  Page 73
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                Medicare Part C


Primary OIG Report
    2000 SEP Adequacy of Medicare's Managed Care Payments After the Balanced Budget Act of
             1997. A-14-00-00212. Full Text

See Also
    2012 SEP Risk Adjustment Data Validation of Payments Made to Paramount Care, Inc., for
             CY 2007 (Contract No. H3653). A-05-09-00044. Full Text.
    2012 MAY Risk Adjustment Data Validation of Payments Made to PacifiCare of Texas for
             Calendar Year 2007 (Contract Number H4590). A-06-09-00012. Full Text.
    2012 FEB Medicare Advantage Organizations' Identification of Potential Fraud and Abuse.
             OEI-03-10-00310. Full Text.
    2011 JAN Rollup Review of Impact on Medicare Program of Investment Income That Medicare
             Advantage Organizations Earned and Retained From Medicare Funds in 2007.
             A-07-10-01080. Full Text.
    2002 JUL Audit of Medicare Adjusted Community Rate Proposals Submitted by 55
             Medicare+Choice Organizations for Contract Year 2000. A-09-01-00051. Full Text.
    2001 NOV Summary Results of Review of the Administrative Cost component of the Adjusted
             Community Rate Proposal at Ten Medicare+Choice Organizations for the 2000
             Contract Year. A-03-01-00017. Full Text.
    2000 AUG Results of the Audit of Investment Income Earned by Managed Care Organizations
             with Risk-Based Contracts. A-02-98-01005. Full Text.
    2000 FEB Review of Payments to Medicare Managed Care Risk Plans for Deceased Beneficiaries.
             A-07-99-01283. Full Text.
    2000 JAN Review of the Administrative Cost Component of the Adjusted Community Rate
             Proposal at Nine Medicare Managed Care Organizations for the 1997 Contract Year.
             A-03-98-00046. Full Text.
    2000 JAN Administrative Costs Reflected on the Adjusted Community Rate Proposals Are
             Inconsistent Among Managed Care Organizations. A-14-98-00210. Full text.
    1999 DEC Review of Medicare Overpayments to Managed Care Organizations Due to Overstated
             Capitation Rates. A-05-99-00025. Full Text.
    1999 APR Review of Medicare Managed Care Payments for Beneficiaries With Institutional
             Status. A-05-98-00046. Full Text.
    1998 SEP Capitation Rates for Medicare Managed Care Plans Are Inflated Due to Improper
             Payments Included in Rate Calculations. A-14-97-00206. Full Text.
    1998 JUL Administrative Costs Submitted by Risk-Based Health Maintenance Organizations on
             the Adjusted Community Rate Proposals Are Highly Inflated. A-14-97-00202. Full
             Text.
    1997 JUN Systems and Overpayment Issues--End Stage Renal Disease Payments to Health
             Maintenance Organizations. A-14-96-00203. Full Text.




                                                Page 74
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                   Medicare Part C




Medicare Part C > Beneficiary Protection > MA Marketing Activities

Medicare Advantage Aggressive Marketing—Ensure That New
Enrollees Understand Plan Rules


  Recommendation To Be Implemented
           We recommend that CMS issue (and enforce) regulations requiring plan sponsors to
            contact all new enrollees to ensure that they understand plan rules.




The recommendation would help protect beneficiaries who, under the influence of sales marketers,
may make uninformed or misinformed decisions about their choice of MA plans. Aggressive
marketing tactics may not include clear information about the cost and scope of benefits and plan
rules.
A March 2010 OIG report revealed that although CMS regulations require sales agents to pass a
marketing test on Medicare regulations annually and be State licensed, no plan sponsor we
reviewed had a policy to contact Medicare beneficiaries enrolled through unqualified sales agents.
The report noted that in August 2009, CMS issued revised marketing guidance instructing plan
sponsors to contact all new enrollees to ensure that Medicare beneficiaries understand plan rules.
To protect beneficiaries and ensure that they understand their new plans’ rules, we recommended
that CMS codify this guidance in regulations.

Progress of Implementation
CMS responded that new regulations are unnecessary because CMS had already used existing
regulations as the basis for its 2009 guidance, which requires outbound enrollment verification
calls to ensure that newly enrolled Medicare beneficiaries understand plan rules.
We are concerned that the guidance may not be sufficient to hold plan sponsors accountable. We
maintain that CMS should reconsider formalizing the guidance as regulations after monitoring plan
sponsors’ implementation of outbound enrollment verification calls. We continue to monitor CMS’s
implementation of the recommendation we specified.

Primary OIG Report
     2010 MAR Beneficiaries Remain Vulnerable to Sales Agents’ Marketing of Medicare Advantage.
              OEI-05-09-00070. Full Text.

See Also
     2006 AUG Medicare Advantage Marketing Materials for Calendar Year 2005. OEI-01-05-00130.
              Full Text.




                                                         Page 75
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                    Medicare Part D



Medicare Part D
(Prescription Drug Program)
The Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA) established
the Medicare Part D prescription drug benefit. Effective January 1, 2006, Part D provides an
optional outpatient prescription drug benefit to Medicare beneficiaries. CMS administers the Part D
program and contracts with private companies, known as plan sponsors, to provide Part D
prescription drug coverage. Beneficiaries can enroll in a stand-alone prescription drug plan that
covers drugs only or a Medicare Advantage prescription drug plan that integrates drug coverage
with other health care services.
Since the inception of the Part D program in 2006, OIG has developed a body of work to review
program integrity and payment accuracy safeguards that are in place to protect the program from
fraud, waste, and abuse. To date, OIG's work has demonstrated that the Part D program oversight
by the Centers for Medicare & Medicaid Services (CMS), its benefit integrity contractors, and the
Part D plan sponsors has been limited. As a result, the program is vulnerable to fraud, waste, and
abuse. There are opportunities to significantly enhance Part D oversight.


 Preventing and Detecting Fraud and Abuse
Within Medicare, the responsibility for ensuring integrity in the Part D prescription drug program is
shared between Part D plan sponsors, benefit integrity contractors, and CMS. The program is large
and complex. With more than $50 billion at risk in the program each year, it is important that all
having programmatic and oversight responsibilities collaborate to ensure that program
vulnerabilities are identified and resolved. The recommendations in this section are directed to
improving the way CMS, its contractors, and the Part D sponsors prevent and detect fraud and
questionable billing in Part D.



Medicare Part D > Fraud and Abuse > CMS Safeguard Strategy

CMS—Develop a Comprehensive Safeguard Strategy for Overseeing Part D
Prescription Drug Plans


  Recommendation To Be Implemented
          We recommend that CMS develop a comprehensive safeguard strategy for overseeing
           Medicare Part D plans with specific activities and target dates and ensure that all
           activities are progressing in a timely manner.
       Savings probable but not estimated.




                                                      Page 76
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                     Medicare Part D


The recommendation would help reduce the vulnerabilities that could arise from Medicare’s lack of
a documented comprehensive safeguard strategy. Overall, OIG's reviews of Part D indicate that
program integrity efforts have been limited in scope and may not sufficiently protect the program.
An October 2007 OIG report revealed that although CMS had begun implementation activities in
several safeguard areas we reviewed, CMS had not developed a comprehensive, written strategy
document and CMS staff could not provide timelines for implementation. Our recommendation
included that CMS make Part D safeguard activities a sufficient priority in the budgeting process to
support their timely and effective administration. Of foremost concern were the commencement of
required financial audits, having sufficient benefit integrity contractors to investigate fraud
complaints, and pursuing innovative data-driven techniques to identify potential fraud and abuse.
Additional Background
CMS is statutorily required to perform financial audits of Part D plan sponsors, which provide Part D
benefits to Medicare beneficiaries. CMS also can conduct a number of other types of audits of plan
sponsors, including bid audits, program audits, benefit integrity audits, and compliance plan audits.
Also, CMS contracts with Medicare Drug Integrity Contractors (MEDICs) to perform integrity
functions, such as identifying and investigating potential fraud, waste, and abuse in Part D. MEDICs
are the cornerstone of CMS’s program integrity efforts.
Part D and its beneficiaries may be exposed to a wide range of fraud, waste, and abuse, including
inappropriate billings, payments for excluded drugs, drug diversion, improper bid submissions,
excessive premiums, and illegal marketing schemes. Such vulnerabilities put Medicare resources at
risk.

Progress of Implementation
Although CMS has taken several steps to implement safeguards in Part D, it has not provided
documentation of a comprehensive strategy with actions tied to timelines.
In responding to our review, CMS reported that it had developed a corrective action plan to address
OIG’s recommendation, it had implemented a regional MEDIC structure, and it was rewriting the
MEDIC USOW to further refine CMS’s coordination and oversight of the MEDICs. Additional
safeguard plans included improving MEDICs’ access to data and developing guidance and
clarification that sponsors must apply training on fraud, waste, and abuse to all entities with which
they are partnering.
CMS also stated that the MEDIC task orders and Umbrella Statement of Work (USOW) represented
CMS’s comprehensive safeguard strategy for Part D. Although OIG agrees that the task orders and
USOW provide an important framework for implementing many safeguard activities, these
documents are specific to the MEDIC activities and do not address the broad coordination needed
between different groups within CMS that each have a role to play in safeguarding Part D.
We encourage CMS to follow through on its oversight efforts and implement the recommendation
we specified. We continue to monitor CMS’s progress in developing the documents.

Primary OIG Report
    2007 OCT CMS’s Implementation of Safeguards During Fiscal Year 2006 To Prevent and Detect
             Fraud and Abuse in Medicare Prescription Drug Plans. OEI-06-06-00280. Full Text.




                                                   Page 77
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                     Medicare Part D


See Also
     2011 DEC [CMS] Audits of Medicare Prescription Drug Plan Sponsors. OEI-03-09-00330.
              Full Text.
     2011 NOV Review of the Centers for Medicare & Medicaid Services' Audits of Part D Sponsors'
              Financial Records. A-03-10-00007. Full Text.
     2010 MAR OIG Testimony Before the Senate Committee on Homeland Security and
              Governmental Affairs, “Oversight Challenges in the Medicare Prescription Drug
              Program.” Testimony.
     2008 NOV Centers for Medicare & Medicaid Services Audits of Medicare Part D Bids.
              OEI-05-07-00560. Full Text.
     2008 OCT CMS’s Oversight of Prescription Drug Plan Sponsors' Compliance Plans.
              OEI-03-08-00230. Full Text.




Medicare Part D > Fraud and Abuse > MEDICs’ Identification of Fraud

MEDICs—Authorize Medicare Drug Integrity Contractors To Directly Obtain the
Information They Need To Investigate Fraud and Abuse


  Recommendation To Be Implemented
           We recommend that CMS authorize Medicare drug integrity contractors (MEDIC) to
            directly obtain from certain entities the information they need to identify and
            investigate potential fraud and abuse, seeking legislation if needed.
        Savings probable but not estimated.




The recommendation would help reveal improper and fraudulent claims that currently go
undetected because Medicare’s benefit integrity contractors are not the authorized to directly
obtain the information they need to facilitate their mission.
An October 2009 OIG report revealed that MEDICs' lack of authority to directly obtain information
such as prescriptions and medical records from pharmacies, pharmacy benefit managers, and
physicians hindered MEDICs’ ability to investigate potential fraud and abuse incidents. In addition,
MEDICs may not have been aware of some potential fraud and abuse incidents because plan
sponsors were not required to refer such incidents to MEDICs. Finally, CMS had not given MEDICs
approval to conduct audits of plan sponsors’ compliance plans as of our review in FY 2008.
Additional Background >
According to the MEDICs’ statement of work and their individual task orders, their responsibilities
include, but are not limited to, identifying potential Part D fraud and abuse through external sources
and proactive methods; fulfilling requests for information from law enforcement agencies;
investigating potential Part D fraud and abuse; referring cases and making immediate advisements


                                                        Page 78
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                  Medicare Part D


regarding potential Part D fraud or abuse to OIG; recommending appropriate administrative actions
to CMS; identifying program vulnerabilities; and auditing the fraud, waste, and abuse programs that
are part of plan sponsors’ compliance plans.

Progress of Implementation
In responding to our review, CMS said it believes that the current arrangement is appropriate given
the structure of the Part D program and the contractual relationship with the plans. In its update
for 2011, CMS stated that it does not have the authority to permit MEDICs to collect information
directly from pharmacies, pharmacy benefit managers, and physicians due to contracts between the
entities and the Part D plan sponsors. Through compliance plan requirements, CMS holds plan
sponsors accountable for the actions of these entities.
OIG understands that CMS currently does not have the authority to allow a MEDIC to directly obtain
information from the necessary entities. However, we continue to recommend that CMS seek
statutory authority if needed. We continue to monitor CMS’s implementation of the
recommendation.

Primary OIG Report
    2009 OCT Medicare Drug Integrity Contractors’ Identification of Potential Part D Fraud and
             Abuse. OEI-03-08-00420. October 2009. Full Text.

See Also
    2012 JUN OIG Testimony Before the House Committee on Energy and Commerce, “Medicare
             Contractors’ Efforts to Fight Fraud – Moving Beyond Pay and Chase.” Testimony.
    2011 DEC Addressing Vulnerabilities Reported by Medicare Benefit Integrity Contractors.
             OEI-03-10-00500. Full Text.
    2011 NOV Zone Program Integrity Contractors’ Data Issues Hinder Effective Oversight.
             OEI-03-09-00520. Full Text.
    2010 MAR OIG Testimony Before the Senate Committee on Homeland Security and
             Governmental Affairs, “Oversight Challenges in the Medicare Prescription Drug
             Program.” Testimony.




                                                 Page 79
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                      Medicare Part D




Medicare Part D > Program Integrity > Sponsors’ Compliance Plans

Sponsors—Determine the Effectiveness of Plan Sponsors’ Antifraud Programs


    Recommendations To Be Implemented
        We recommend that CMS
           review Part D plan sponsors to determine why certain sponsors have especially high
            or low volumes of potential fraud and abuse incidents,
           determine whether the Part D plan sponsors that found potential fraud and abuse
            initiated inquiries and corrective actions and made referrals for investigations as
            recommended by CMS,
           require Part D plan sponsors to maintain and report information about the results of
            their fraud and abuse programs, and
           use this information to help determine the effectiveness of the programs.
        Savings probable but not estimated.




The recommendations would facilitate Medicare’s oversight of Part D sponsors’ antifraud programs.
Improper and fraudulent claims may go undetected when Part D plan sponsors lack effective
compliance plans and antifraud processes and procedures.
An October 2008 OIG report analyzed data for the first 6 months of 2007 from 86 of 91 stand-alone
drug plan sponsors. We found that 28 percent did not report any potential fraud and abuse
incidents. Most incidents were identified by a small number of plan sponsors; and not all sponsors
that identified potential fraud and abuse conducted inquiries, initiated corrective actions, or made
referrals for further investigation. One sponsor identified 67 percent of all incidents reported.
Inappropriate billing was the most prevalent type of potential fraud and abuse and pharmacies
were associated with most of the incidents, e.g., submitting claims for drugs not provided.
Additional Background >
CMS requires that Part D sponsors have compliance plans in place to protect the integrity of the
program. Plans must include certain elements.
•    A December 2006 OIG report revealed that while all plan sponsors had compliance plans, these
     plans did not fully address all of CMS' s requirements and, in some cases, contained only the
     broad outlines of a fraud and abuse plan and did not describe specific compliance and
     anti-fraud processes.
•    A January 2010 OIG report of one sponsor’s internal controls revealed that although most
     internal controls were adequate, there were several internal control weaknesses that
     compromised the plan sponsor’s ability to detect, correct, and prevent fraud, waste, and abuse
     in Part D.



                                                       Page 80
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                 Medicare Part D


Progress of Implementation
CMS has taken steps toward implementing the recommendations we specified. In its 2011 update,
CMS said it provided our findings to the MEDICs, but it did not report to us the results of the
MEDICs' reviews. CMS revised the reporting requirements to provide the Part D sponsors with
specific guidance for tracking and properly labeling any incidents.
We continue to monitor CMS’s progress to determine whether the results of the MEDICS' reviews
addressed our recommendations.

Primary OIG Report
    2008 OCT Medicare Drug Plan Sponsors’ Identification of Potential Fraud and Abuse.
             OEI-03-07-00380. Full Text.

See Also
    2011 JUL Medicare Prescription Drug Sponsors' Training To Prevent Fraud, Waste, and Abuse.
             OEI-01-10-00060. Full Text.
    2010 AUG Review of Sterling Life Insurance Company's Internal Controls To Guard Against
             Fraud, Waste, and Abuse for the Medicare Part D Program. A-07-09-03136. Full
             Text.
    2010 MAR OIG Testimony Before the Senate Committee on Homeland Security and
             Governmental Affairs, “Oversight Challenges in the Medicare Prescription Drug
             Program.” Testimony.
    2010 JAN Review of SilverScript Insurance Company’s Internal Controls to Guard Against Fraud,
             Waste and Abuse for the Medicare Part D Program. A-07-09-03124. Full Text.
    2006 DEC Prescription Drug Plans Sponsors' Compliance Plans. OEI-03-06-00100. Full Text.




                                                Page 81
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                      Medicare Part D




Medicare Part D > Program Integrity > Sponsor Training of Pharmacies

Sponsors—Improve Sponsors’ Training of Pharmacies To Prevent Fraud, Waste,
and Abuse (New)


  Recommendations To Be Implemented
        We recommend that CMS
           reiterate to sponsors their responsibilities as the entities accountable for network
            pharmacies’ training to prevent Part D fraud, waste, and abuse,
           use its monitoring authority to determine compliance with training requirements, and
           ensure that sponsors are providing effective training and education to prevent fraud,
            waste, and abuse.
        Savings probable but not estimated.




The recommendations would help reduce instances of pharmacy-based fraudulent or abusive
behavior. OIG reviews of Medicare prescription drug plans have shown that pharmacies are at risk
for fraud, waste, and abuse from beneficiaries, employees, prescribers, and drug manufacturers.
A July 2011 OIG report revealed that nearly all Part D network pharmacies received sponsor
training to prevent fraud, waste, and abuse in 2009, but some sponsors failed to document the
training. With a few exceptions, the content and source of most training materials reflected
Medicare guidance, but most sponsors could not determine the extent to which the training of
pharmacies was effective. Forty-one percent of all sponsors did not assess the training’s
effectiveness. More than a third of the training materials failed to include information on the Health
Insurance Portability and Accountability Act (HIPAA), and more than half of the materials were
developed by pharmacies' corporate offices, despite CMS guidance stating that pharmacies should
not develop their own materials.
Additional Background >
As a condition for contracting with CMS to offer Part D benefits, sponsors must have compliance
plans that help them follow Federal regulations and prevent fraud, waste, and abuse. Such plans
must include effective annual training and education for network pharmacies to prevent fraud,
waste, and abuse.

Progress of Implementation
In August 2011, CMS hosted its first annual Part C and Part D program integrity conference for plan
representatives and law enforcement for the purpose of sharing and developing best practices and
tools to identify and fight fraud and abuse. In responding to our review, CMS said that a Part C/D
fraud training module will be made available through its training Web site, MEDLearn, and CMS
planned to issue guidance to the plans regarding this module and instructions for documenting the



                                                        Page 82
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                 Medicare Part D


Web-based training. CMS said it continues to explore new ways of measuring effectiveness in the
Part D compliance programs through audits, reviews, and qualitative and quantitative analysis.
We encourage CMS to follow through on its proposed actions and report the results to OIG. We
continue to monitor CMS’s progress in addressing the recommendations we specified.

Primary OIG Report
    2011 JUL Medicare Prescription Drug Sponsors’ Training To Prevent Fraud, Waste, and Abuse.
             OEI-01-10-00060. Full Text.

See Also
    2012 MAY Medicare Retail Pharmacies With Questionable Part D Billing. OEI-02-09-00600.
             Full Text.
    2008 OCT Medicare Drug Plan Sponsors’ Identification of Potential Fraud and Abuse.
             OEI-03-07-00380. Full Text.




                                                 Page 83
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                             Medicare Part D



 Accuracy of Data for Payments and Reconciliations
CMS makes payments to plan sponsors on a monthly basis through estimated subsidy payments
and, as needed, at yearend as a result of the payment reconciliation process. The reconciliation
process compares estimated subsidy payments made to plan sponsors throughout the year with the
cost data submitted by plan sponsors through Prescription Drug Event (PDE) records and direct or
indirect remuneration data to determine whether any residual payments are required by CMS to
plan sponsors or plan sponsors to CMS. The reconciliation process relies on four major data
sources: the sum of payments made to plan sponsors throughout the year, final updated plan
enrollment, PDE records from plan sponsors, and remuneration estimates.




Medicare Part D > Accuracy of Payments > Sponsor Cost Estimates

Sponsor Data—Ensure the Accuracy of Sponsors’ Cost Estimates in Part D Bids


    Recommendations To Be Implemented
        We recommend that CMS
           ensure that sponsors’ bids more accurately reflect the cost of providing benefits to
            Medicare beneficiaries;
           hold sponsors more accountable for inaccuracies in the bids;
           determine whether changes to the reconciliation risk corridors 1 are appropriate,
            seeking legislative changes if needed; and
           determine whether alternative methodologies would better align payments with costs
            for the low-income cost-sharing and reinsurance subsidies.
        Savings probable but not estimated.




The recommendations would result in more accurate sponsor estimates of costs and expected
profits in their Part D bids, thus ensuring more appropriate levels of Medicare and beneficiary
spending for Part D prescription drugs during the plan year. The recommendations would also help
ensure more accurate yearend reconciliation of payments with actual costs.
A September 2009 OIG report revealed that 71 percent of sponsors we reviewed made unexpected
profits large enough to trigger risk sharing at yearend reconciliation for 2007. When sponsors owe
money to Medicare for risk sharing at reconciliation, it means that they overestimated the cost of
providing the benefit when they submitted their bids.



1 The plan’s allowable risk-corridor costs are its actual covered Part D drug costs incurred minus direct and
indirect remuneration and the catastrophic coverage reinsurance subsidy paid by Medicare.


                                                        Page 84
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                   Medicare Part D


CMS uses sponsors’ bids to determine beneficiary premiums and the monthly subsidy payments
(prepayments) that CMS pays to each sponsor. When costs are overstated in bids, Medicare
calculates prepayments and beneficiary premiums that are higher than necessary. Medicare
recoups a portion of these higher payments because of risk-sharing requirements in reconciliation.
However, beneficiaries do not directly recoup any of the money that they pay in higher premiums.

Progress of Implementation
In its initial response to the September 2009 report, CMS described a number of steps it was taking,
planned to take, or was considering. In 2011, CMS issued 19 compliance actions related to bid
submission compliance concerns. In its 2012 Medicare Advantage and Part D Call Letter, CMS said
that, in general, commenters supported the risk corridors it proposed for 2012.
We encourage CMS to follow through on its efforts to ensure accurate sponsor cost data and to
provide documentation to establish how it has addressed each of the recommendations we
specified. We continue to monitor CMS’s progress.

Primary OIG Report
    2009 SEP Medicare Part D Reconciliation Payments for 2006 and 2007.
             OEI-02-08-00460. Full Text.

See Also
    2011 NOV Review of the Centers for Medicare & Medicaid Services' Audits of Part D Sponsors'
             Financial Records. A-03-10-00007. Full Text.
    2011 AUG Review of Aetna, Inc., Pharmacy Audit Recoveries for Medicare Part D Drugs
             Dispensed in Calendar Year 2008. A-03-11-00001. Full Text.
    2011 MAR Concerns With Rebates in the Medicare Part D Program. OEI-02-08-00050. Full Text.
    2010 NOV Medicare Part D Pharmacy Discounts for 2008. OEI-02-10-00120. Full Text.
    2010 JUN Medicare Part D – Prescription Drug Event Reconciliation Process. A-18-08-30102.
             Full Text.
    2010 JUN Review of Coventry Health Care, Inc.’s 2007 Prescription Drug Event Data Elements
             Related to Yearend Reconciliation. A-03-09-00020. Full Text.
    2010 MAR OIG Testimony Before the Senate Committee on Homeland Security and
             Governmental Affairs, “Oversight Challenges in the Medicare Prescription Drug
             Program.” Testimony.
    2008 NOV Centers for Medicare & Medicaid Services Audits of Medicare Part D Bids.
             OEI-05-07-00560. Full Text.
    2007 OCT Medicare Part D Sponsors – Estimated Reconciliation Amounts for 2006.
             OEI-02-07-00460. Full Text.




                                                  Page 85
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                     Medicare Part D




Medicare Part D > Accuracy of Payments > Part D Manufacturer Rebates

Sponsor Data—Ensure the Accuracy of Sponsors’ Rebate Estimates in
Part D Bids (New)


  Recommendations To Be Implemented
       We recommend that CMS
          ensure that sponsors more accurately include their expected rebates in their bids,
          require sponsors to use methods CMS deems reasonable to allocate rebates across
           plans,
          ensure that sponsors have sufficient audit rights and access to rebate information, and
          ensure that sponsors appropriately report the fees that pharmacy benefit managers
           (PBM) collect from manufacturers.
       Savings probable but not estimated.




The recommendations would result in more accurate sponsor estimates of remunerations from
rebates in their Part D bids, thus ensuring more appropriate levels of Medicare and beneficiary
spending for Part D prescription drugs during the plan year. The recommendations would also help
ensure more accurate yearend reconciliation of payments with actual costs.
A March 2011 OIG report revealed that Part D sponsors underestimated rebate remunerations in
69 percent of their bids for plan year 2008. The report noted that it is possible that some sponsors
deliberately underestimate their rebates to increase profits. The March 2011 OIG report explained
that when sponsors underestimate expected rebates in their bids, both the Government and
beneficiaries pay too much to Part D sponsors during the plan year. In reconciliation, the
Government recoups some, but not all, of its excessive prepayments. However, beneficiaries do not
recoup any of the money they pay in excessive premiums.
The March 2011 report also found issues concerning how sponsors allocate rebates across plans,
sponsors’ lack of authority over and access to rebate information, and reporting of fees that PBMs
receive from manufacturers. (See “Progress” section for new reporting requirements.)
Additional Background >
An independent audit issued by OIG in June 2010 described a vulnerability concerning calculations
of actual costs in reconciliations. Actual costs for reconciliation as those actually incurred by the
Part D sponsor and must be net of any direct or indirect remuneration. (42 CFR § 423.308.) If
sponsors understate remuneration (such as from rebates) in yearend reconciliation—and CMS’s
controls fail to detect the understatements—plan sponsors could receive larger yearend payments
from CMS than they are entitled to. The report found that plan sponsors are not required to update
the estimated remuneration information they submitted to CMS once actual amounts are known.



                                                      Page 86
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                     Medicare Part D


Therefore, CMS does not receive the final remuneration data from plan sponsors (or other sources)
that it needs to accurately reconcile costs and payments.
Federal regulations define “direct or indirect remuneration” for reconciliation purposes as including
discounts, chargebacks or rebates, cash discounts, free goods contingent on a purchase agreement,
up-front payments, coupons, goods in kind, free or reduced-price services, grants, or other price
concessions or similar benefits offered to some or all purchasers from any source (including
manufacturers, pharmacies, enrollees, or any other person) that would serve to decrease the costs
incurred by the Part D sponsor for the drug. (42 CFR § 423.308.)

Progress of Implementation
In responding to our review, CMS said it will consider adding to its bid reviews a comparison of the
rebates sponsors actually receive to the expected rebates they include in their bids; that it has
already provided plan sponsors with sufficiently detailed guidance on how they should monitor
PBM rebate information; and that it has a process in place to ensure that sponsors appropriately
report the fees that PBMs collect from manufacturers. CMS agreed to evaluate whether additional
clarification is needed about when fees to PBMs should be reported as rebates.
In April 2012, CMS published a final rule that included changes to the Medicare prescription drug
benefit program. Pursuant to the Affordable Care Act, § 6005, the rule requires PBMs to report to
sponsors and sponsors to report to CMS several data points including the aggregate amount and
type of rebates, discounts, or price concessions (excluding bona fide service fees as defined in
§ 423.501) that the PBM negotiates that are attributable to patient utilization under the plan. It also
requires reporting of the aggregate amount of the rebates, discounts, or price concessions that are
passed through to the plan sponsor and the total number of prescriptions dispensed. (77 Fed. Reg.
22171 (April 12, 2012), 42 CFR § 423.514.)
We note that CMS’s existing processes and guidance did not prevent our finding that Part D
sponsors underestimated rebate remunerations in 69 percent of their bids for plan year 2008. We
encourage CMS to follow through on its corrective actions and in the process to implement the
recommendations we specified. We continue to monitor CMS’s progress.

Primary OIG Report
    2011 MAR Concerns With Rebates in the Medicare Part D Program. OEI-02-08-00050. Full Text.

See Also
    2010 NOV Medicare Part D Pharmacy Discounts for 2008. OEI-02-10-00120. Full Text.
    2010 JUN Medicare Part D – Prescription Drug Event Reconciliation Process. A-18-08-30102.
             (Direct and Indirect Remuneration (DIR), section 3., pp. 13-15.) Full Text.




                                                   Page 87
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                       Medicare Part D



 Beneficiary Cost Sharing
Most Part D drug plans charge a monthly premium fee that varies by plan. The Part D premium is in
addition to the Part B premium. The annual deductible is the amount a beneficiary must pay each
year for prescriptions before the plan begins to pay its share of the covered drugs. Deductibles vary
between plans. No plan may have a deductible more than $320 in 2012. Some plans don't have a
deductible. The copayment, or coinsurance, is the amount a beneficiary pays for each prescription
after the deductible, If any, has been met. Some plans have different levels, or "tiers," of coinsurance
or copayments, with different costs for different types of drugs.
Most Medicare drug plans have a coverage gap (also called the “donut hole”). This means there is a
temporary limit on what the plan will cover for drugs. Not everyone will enter the coverage gap.
The coverage gap begins after the beneficiary and the drug plan have spent a certain amount for
covered drugs. Once beneficiaries get out of the coverage gap, they automatically get “catastrophic
coverage,” which ensures that they pay only a small coinsurance amount, or copayment, for covered
drugs for the rest of the year. (Medicare.gov)
Coverage Gap Savings—Pursuant to the Affordable Care Act, § 3301, cost-sharing in the coverage
gap will decrease each year until beneficiaries are required to pay only 25 percent of the costs of
covered Part D drugs in 2020 and beyond.



Medicare Part D > Beneficiary Cost Sharing > Costs in Coverage Gap

Coverage Gap—Support Outreach and Education for Beneficiaries Before They
Enter the Coverage Gap


  Recommendations To Be Implemented
        We recommend that CMS
           support outreach and education targeted at beneficiaries who make more prescription
            drug purchases before entering the coverage gap and
           target low-income subsidy outreach to beneficiaries who entered the coverage gap in
            previous years without financial assistance.
        Savings for beneficiaries probable but not estimated.




The recommendations would help beneficiaries manage the effect of the statutory coverage gap on
their prescription drug utilization and costs. Beneficiaries may receive financial assistance for drug
costs during the coverage gap from several sources (such as from low-income subsidies or
third-party payers), but some do not.
A March 2009 OIG report revealed that 7 percent of Part D beneficiaries entered the coverage gap
and did not receive financial assistance with prescription drug costs in 2006. During the coverage



                                                        Page 88
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                    Medicare Part D


gap, drug-purchasing behavior changed for 98 percent of the beneficiaries, with 69 percent
reducing the average number of drugs they purchased during the gap. The greater the average
number of drugs per month that they purchased before the coverage gap, the more they reduced the
average number of drugs purchased during the gap.
 We found that beneficiaries who purchased an average of at least nine drugs per month had the
largest decrease at 18 percent. When surveyed, beneficiaries identified specific changes in the way
they purchased or used drugs during the coverage gap, including 38 percent who reported seeking
at least one less-costly alternative to purchasing drugs and one-third who compromised their drug
regimens.
Additional Background >
Although the Affordable Care Act reduced beneficiary liability in the coverage gap and the gap will
close in 2020, several years remain in which beneficiaries in the gap would benefit from outreach
and counseling.

Progress of Implementation
In its initial response to our review, CMS said that it would not be feasible to provide additional
personalized outreach to individual beneficiaries who used a large number of drugs each month
according to the prior year’s PDE data. CMS said that it would continue to emphasize the value of
the low-income subsidy to attract beneficiaries with significant drug utilization who might benefit
from the subsidy.
In its update for 2011, CMS said it continues to refine outreach methods and will use research
findings to shape future outreach strategies, including how to communicate the value of the
low-income subsidy program to those with high drug utilization.
In its 2012 update, CMS said the Affordable Care Act provides for a 50-percent discount on covered
brand-name drugs and some coverage for generic drugs for beneficiaries who reach the coverage
gap.
While the Affordable Care Act reduced beneficiary liability in the coverage gap and the gap will
close in 2020, there are several more years in which beneficiaries could fall into the gap and
experience high drug costs. We maintain that outreach and education would help high-utilization
beneficiaries identify cost-saving strategies.

Primary OIG Report
    2009 MAR Effect of the Part D Coverage Gap on Medicare Beneficiaries Without Financial
             Assistance in 2006. OEI-05-07-00610. Full Text.




                                                  Page 89
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                       Medicare Part D




Medicare Part D > Beneficiary Cost Sharing > TrOOP costs

Coverage Gap—Track Beneficiaries’ True Out-of-Pocket Costs


  Recommendations To Be Implemented
        We recommend that CMS
           ensure that Part D plans collect, process, and submit all the data that are required to
            track enrollees’ true out-of-pocket (TrOOP) costs in a timely manner,
           consider options for increasing the number of data-sharing agreements and for
            seeking to expand its authority to collect data under those agreements, and
           begin or complete implementation of oversight activities regarding tracking TrOOP
            costs.
        Savings to beneficiaries probable but not estimated.



The recommendations would protect beneficiaries’ cost-sharing interests by ensuring that TrOOP
cost data are accurately tracked. TrOOP costs also affect Medicare Part D payments to plans. TrOOP
costs are the prescription drug expenditures that count toward the annual out-of-pocket threshold
that beneficiaries must reach before catastrophic drug coverage begins.
A December 2007 OIG report revealed that information on Part D plan enrollees’ other prescription
drug coverage was not consistently submitted in 2006. Nearly two-thirds of Part D plans cited
problems with transferring TrOOP balances when enrollees changed plans. More than one-third of
Part D plans failed to submit data to CMS in accordance with CMS requirements. CMS has
conducted only limited oversight of Part D plans’ tracking of TrOOP costs.
Additional Background >
Tracking TrOOP costs involves coordination and communication among CMS; contractors, such as
coordination of benefits contractors; Part D plans; and other payers of prescription drug benefits.
Under section 111 of the Medicare, Medicaid, and SCHIP Extension Act of 2007 (MMSEA), all group
health plans are required to report coverage information related to hospital and medical benefits
that are primary to Medicare. Although MMSEA does not specifically mandate the reporting of
private prescription drug coverage, this reporting option is being offered to all entities required to
report under the section 111 reporting processes. As a result, CMS expects to receive a significant
number of reports of prescription drug data via the section 111 process.

Progress of Implementation
In its initial response to our review, CMS agreed that more work is needed to ensure that Part D
plans are calculating TrOOP costs correctly. CMS said that it had taken or will take steps to respond
to each of our recommendations.




                                                           Page 90
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                   Medicare Part D


In its March 2009 status update to OIG, CMS said that it had implemented an automated TrOOP
balance transfer process among Part D plans and between Point-of-Sale Facilitated Enrollment (POS
FE) Contractors and Part D plans, which went into effect on January 1, 2009. CMS said that it would
monitor performance via standard and exception reporting.
In its December 2011 status update, CMS indicated that it issued 67 TrOOP-related compliance
actions. CMS also indicated that it has implemented an automated process for transferring TrOOP
information and continues to monitor sponsor performance.
CMS should submit to OIG additional information about the activities described so we can
determine whether the recommendations we specified have been addressed. We continue to
monitor CMS’s implementation of oversight activities related to the tracking of TrOOP costs.

Primary OIG Report
    2007 DEC Tracking Beneficiaries’ True Out-of-Pocket Costs for the Part D Prescription Drug
             Benefit. OEI-03-06-00360. Full Text.

See Also
    2012 MAY WellPoint, Inc., Did Not Always Calculate Enrollees' True-Out-Of-Pocket Costs in
             Accordance with Federal Requirements. A-05-11-00018. Full Text.




                                                 Page 91
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                      Medicare Part D



 Sponsor Compliance With Conditions for Payment

Medicare Part D > Conditions for Payment > Prescription Drugs > Provider Identifiers

Claims Processing—Ensure the Validity of Prescriber Identifiers on Claims


  Recommendations To Be Implemented
        We recommend that CMS
           conduct periodic reviews to ensure the validity of prescriber identifiers used on
            prescription drug event (PDE) records and
           require Part D plans to institute procedures to identify invalid identifiers in the
            prescriber identifier field on Part D drug claims and flag for review Part D drug claims
            that contain invalid identifiers in the prescriber identifier field.
           For Schedule II drugs, we recommend that CMS
           issue specific guidance requiring sponsors to include a valid Drug Enforcement
            Administration (DEA) number on both standard and nonstandard format PDE records
            and
           implement an edit to reject PDE records for Schedule II drugs when the prescriber
            identifier field contains an invalid prescriber identifier number.
        Savings probable but not estimated.




The recommendations would help verify that the prescribers of the claimed drugs were eligible to
order the drugs for beneficiaries. All Part D plans must submit data and information necessary for
CMS to carry out Part D payment provisions. The recommendations would also reduce instances of
fraud and abuse in Part D.
A June 2010 OIG report revealed that $1.2 billion in Medicare Part D prescription drug claims
contained invalid prescriber identifiers in 2007. Invalid identifiers were used on more than
18 million prescription drug claims. These identifiers either were not listed in the pertinent
registry databases or had been deactivated or retired before January 1, 2006.
A February 2011 OIG report described the results of our review of PDE records for the validity of
prescriber identifiers for Schedule II drugs. Schedule II drugs (controlled substances) have a high
potential for abuse, have an accepted medical use with severe restrictions, and may cause severe
psychological or physical dependence if abused. We found that $20.6 million in Medicare Part D
prescription drug claims contained invalid prescriber identifiers in 2007 for Schedule II Drugs.




                                                         Page 92
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                       Medicare Part D


Additional Background >
Part D Plans submit an electronic record to CMS for each covered prescription filled for their
enrollees. This electronic record, called a PDE record, contains drug cost and payment data fields
that enable CMS to make payments to plans and oversee the Part D benefit.
The Affordable Care Act, § 6402, required the Secretary to issue a regulation by January 1, 2011,
mandating that all Medicare and Medicaid providers include their NPI on all claims and enrollment
applications.

Progress of Implementation
In responding to our review, CMS said that although invalid prescriber identifiers can hinder
program oversight efforts for monitoring prescribing practices, invalid prescriber identifiers are not
an automatic indication of invalid prescriptions or pharmacy claims.
•   In its update for 2011, CMS said that to the extent that it implements a requirement for the use
    of a single prescriber identifier, it also expects to implement a process for verifying the accuracy
    of the number.
•   In light of OIG’s June 2010 report on invalid provider identifiers, CMS announced in its April 4,
    2011, “CY 2012 Call Letter” that it was considering a regulatory change in the Part D program
    that would limit acceptable prescriber identifiers on claims and PDE records in 2013 to only the
    individual NPI. (Call Letter, p. 113.) The Call Letter also announced the imposition of additional
    requirements on plan sponsors with regard to Part D claims for all controlled substances. (Call
    letter p. 112.)
•   In October 2011, CMS published a proposed rule that included Part-D-related NPI provisions.
    (76 Fed. Reg. 63018 (October 11, 2011).) (See p. 63061.) A final rule with comment period,
    which is applicable January 1, 2013, was published on April 12, 2012. (77 Fed. Reg. 22072.)
    (See p. 22143). The rule requires Part D plan sponsors to submit to CMS only PDE records that
    contain an active and valid individual prescriber NPI. (42 CFR § 423.120(c).)
•   An April 17, 2012, notice proposed to amend 45 CFR Part 162 to specify the circumstances
    under which an organization-covered health care provider must require certain noncovered
    individual health care providers who are prescribers to obtain and disclose an NPI. (77 Fed.
    Reg. 22950.) The proposal would virtually ensure the availability of NPIs for Part D
    reimbursement. See the discussion beginning on p. 22965, “III. Proposed Addition to the
    National Provider Identifier Requirements.” The final rule was published at 77 Fed. Reg. 54664
    (September 5, 2012).
We encourage CMS to follow through on improving the use of NPIs on PDE records and to address
each of the recommendations we specified. We continue to monitor CMS’s progress.

Primary OIG Reports
    2010 JUN Invalid Prescriber Identifiers on Medicare Part D Drug Claims. OEI-03-09-00140.
             Full Text.
    2011 FEB Oversight of the Prescriber Identifier Field in Prescription Drug Event Data for
             Schedule II Drugs. A-14-09-00302. Full Text.




                                                    Page 93
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                         Medicare Part D




Medicare Part D > Conditions for Payment > Atypical Antipsychotic Drugs in Nursing Homes

Atypical Antipsychotic Drugs—Ensure That Part D Sponsors Have Information
Needed To Make Accurate Coverage and Reimbursement Determinations (New)


  Recommendations To Be Implemented
       We recommend that CMS
           facilitate Part D sponsors’ access to information necessary to ensure accurate
            coverage and reimbursement determinations for prescription drugs for nursing home
            residents,
           determine whether survey and certification processes offer adequate safeguards
            against unnecessary atypical antipsychotic drug use in nursing homes,
           explore alternative methods beyond survey and certification processes to promote
            compliance with Federal standards regarding unnecessary drug use in nursing homes,
            and
           take appropriate action regarding the claims associated with erroneous payments
            identified in our sample.
       Savings probable but not estimated. Implementation would increase beneficiary safety
       and quality of care.



The recommendations would help ensure that Medicare pays only for drugs that are used for
medically accepted indications approved by FDA (or are supported by specified drug compendia)
and that elderly and disabled nursing home residents are free from unnecessary drugs (an issue of
patient safety and quality of care).
A May 2011 OIG report revealed that 14 percent of 2.1 million elderly nursing home residents had
at least 1 claim for atypical antipsychotic drugs. We determined through medical record review that
22 percent of such drugs were not administered in accordance with CMS standards for unnecessary
drug use in nursing homes and 83 percent of claims for atypical antipsychotic drugs were
associated with off-label conditions (diagnoses). For atypical antipsychotic drugs, “off label”
conditions would be those other than schizophrenia and/or bipolar disorder.
We found that 88 percent of claims were associated with a diagnosis of dementia, the condition
specified by the FDA boxed warning. An “FDA boxed warning” is an alert placed on a drug’s
packaging to warn prescribers and consumers of severe or life-threatening risks. There is an
increased risk of mortality when atypical antipsychotic drugs are used for to treat behavioral
disorders in elderly patients with dementia.
Physicians are not prohibited from prescribing drugs for off-label conditions or in the presence of
conditions specified in an FDA boxed warning. However, Medicare will pay only for drugs that are




                                                       Page 94
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                    Medicare Part D


used for medically accepted indications approved by FDA or supported by specified drug
compendia.
Unless diagnosis information is required and included on a Part D claim, determining whether a
drug was provided for a medically accepted indication is not possible using claims data alone. It is
not standard practice for prescribers to provide the diagnosis with the prescription. Hence, absent
a medical review, CMS and Part D sponsors are unable to determine whether Part D claims lacking
such data meet payment requirements.

Progress of Implementation
In responding to our analysis, CMS said it does not have statutory authority to require physicians to
include necessary diagnosis information on prescriptions (which are generally governed by State
law) and it cannot distribute compendia information (another type of necessary information)
because they are commercially licensed products with licensing agreements. Given that all Part D
drugs are affected by these data deficiencies, we encourage CMS to implement the
recommendations we specified.
In an October 11, 2011 Medicare Part-D-related proposed rule, CMS announced that it was
considering changes to the Conditions of Participation for Long-Term-Care (LTC) Facilities. Citing
our May 2011 report, the proposed rule outlined measures to increase beneficiary protections. (76
Fed. Reg. 63018). In the April 12, 2012, final rule with comment period, CMS provided additional
information related to Part D drug utilization in long-term-care (LTC) settings. (77 Fed. Reg.
22072.) See provision II.B.5, “Independence of LTC Consultant Pharmacists,” p. 22100, column 3,
and provision II.E.9., “Medication Therapy Management Comprehensive Medication Reviews and
Beneficiaries in LTC Settings,” p. 22140.
We encourage CMS to follow through on implementing appropriate protections and address each of
our recommendations. We continue to monitor CMS’s progress.

Primary OIG Report
    2011 MAY Medicare Atypical Antipsychotic Drug Claims for Elderly Nursing Home Residents.
             OEI-07-08-00150. May 2011. Full Text.

See Also
    2012 JUL Nursing Facility Assessments and Care Plans for Residents Receiving Atypical
             Antipsychotic Drugs. OEI-07-08-00151. Full text.
    2011 NOV Ensuring That Medicare Part D Reimbursement Is Limited to Drugs Provided for
             Medically Accepted Indications. OEI-07-08-00152. Full Text.
    2001 NOV Psychotropic Drug Use in Nursing Homes. OEI-02-00-00490. Full Text.
    2001 NOV Psychotropic Drug Use in Nursing Homes. Supplemental Information – Ten Case
             Studies. OEI-02-00-00491. Full Text.




                                                   Page 95
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                        Medicare Cross-Cutting Initiatives



Medicare Cross-Cutting Initiatives
 Medicare Parts A, B, C, and D

Medicare Part A/B > Other Management and Systems Issues > Language Access Services

Language Access Services—Increase Medicare Providers’ and Plans’
Implementation of Standards for Culturally and Linguistically Appropriate
Services


  Recommendations To Be Implemented
       We recommend that CMS
          improve Medicare providers’ awareness and implementation of Culturally and
           Linguistically Appropriate Services in Health Care (CLAS) standards and help
           providers offer language access services and
          improve Medicare plans’ awareness and implementation of CLAS standards.

       We recommend that the HHS Office of Minority Health (OMH)
          collaborate with CMS to inform Medicare plans that they should notify
           limited-English-proficient (LEP) persons both verbally and in writing of their right to
           receive language access services,
          increase outreach to providers to familiarize them with CLAS standards, and
          offer model translated written materials and signs to providers.
       Implementation would increase beneficiary safety and quality of care.




The recommendations would ensure that language access services are sufficient to promote
effective communication between LEP persons and non-LEP persons with regard to CMS programs.
Language access services can include oral interpretation, written translation, and other provisions
that enhance communication, such as translated signs. Office for Civil Rights (OCR) guidance and
OMH’s CLAS standards address the provision of language access services.
Two July 2010 OIG reports revealed the findings of companion reviews (one on Medicare providers
and another on Medicare plans) to examine the extent to which they conducted a four-factor
assessment recommended by OCR; offered language access services consistent with OMH’s CLAS
standards; and reported benefits and encountered obstacles in providing such services.




                                                     Page 96
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                     Medicare Cross-Cutting Initiatives


In our review of Medicare providers, 69 percent of providers conducted the recommended
assessment when determining what language access services to offer. However, only 33 percent
of providers offered services consistent with all standards for language access services.
 In our review of Medicare plans, 88 percent of plans conducted the recommended assessment
when determining what language access services to offer. However, a lower percentage (67
percent) of plans offered services consistent with the standards for language access services, largely
because Medicare plans did not verbally inform LEP persons of their right to language access
services.

Progress of Implementation
For the report on Medicare providers, OCR and OMH concurred with our recommendations, and
CMS indicated that it did not have any substantive comments. OMH said that it will develop specific
marketing strategies to inform providers of the CLAS standards and will disseminate information
through existing CMS communication channels (e.g., listservs, Web sites, and provider partner
organizations). OMH has outline a number of steps it is taking to implement our recommendations,
and we are in communication with OMH about what specifically remains to be done.
For Medicare plans, CMS and OMH collaboratively drafted a memorandum that was sent to all
Medicare Part C and D organizations on December 9, 2010, describing the OMH CLAS standards and
indicating how they apply to Part C and Part D organizations. However, the memorandum did not
address OIG's specific recommendation to provide both verbal and written notices.
In its December 2011 update, CMS indicated it is developing a script that interpreters will read to
non-English speaking callers to Part C and Part D call centers. CMS anticipates this will be in effect
during the 2013 enrollment season (fall 2012). CMS also required Medicare Part C and Part D
sponsors to include written notifications on their 2012 marketing materials that informed
beneficiaries that translations were available for free. CMS’s actions are likely to address the
pertinent recommendations when fully implemented.
We continue to monitor CMS’s and OMH’s implementation of the recommendations we specified.

Primary OIG Reports
    2010 JULY Guidance and Standards on Language Access Services – Medicare Providers.
              OEI-05-10-00050. Full Text.
    2010 JULY Guidance and Standards on Language Access Services – Medicare Plans.
              OEI-05-10-00051. Full Text.




                                                    Page 97
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                  Medicaid Program




Medicaid Program
 Avoid Wasteful Spending
Wasteful spending occurs when Medicaid’s laws, policies, and methodologies fail to ensure that
program costs are reasonable and appropriate in the health care marketplace and fail to reflect
Medicaid’s role as a high-volume, prudent insurer/payer. The Office of Inspector General (OIG)
designated avoiding waste in health care pricing methodologies as one of the top management and
performance challenges facing the Department of Health and Human Services (HHS) in FY 2012.
The recommendations in this section would help curb wasteful spending by modifying current laws,
policies, methodologies, systems, and oversight.
OIG’s audits and evaluations do not routinely project the annual cost savings that could be realized
at program level from implementing the recommendations. However, reports are indicative of the
extent to which policies and methodologies may be less than effective and in need of corrective
action.

Acronyms and Abbreviations for Selected Terms Used in This Section
AAC—Actual acquisition costs                        FFS—fee-for-service
AMP—average manufacturer price                      MDRP—Medicaid drug rebate program
DRA—Deficit Reduction Act of 2005                   NDC—National Drug Code
FDA—Food and Drug Administration                    RAC—Recovery Audit Contractor



Medicaid >Wasteful Spending > Prescription Drugs > Pharmacy Reimbursements

Prescription Drugs—Develop National Pharmacy Acquisition Cost Data as a
Benchmark for Reimbursing Prescription Drugs (New)


  Recommendations To Be Implemented
       We recommend that the Centers for Medicare & Medicaid Services (CMS)
          develop a national benchmark that accurately reflects actual acquisition costs and
           encourage States to consider it when determining Medicaid reimbursement for
           prescription drugs and
          enable States to develop different reimbursement benchmarks for single-source
           drugs, brand-name multiple-source drugs, and generic multiple-source drugs.
       Savings probable but not estimated.




                                                     Page 98
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                  Medicaid Program


The recommendations would reduce wasteful Federal spending by streamlining Medicaid
reimbursement systems; providing a transparent basis for payment; and, if appropriately applied,
significantly reducing Medicaid payment amounts for prescription drugs.
•   A July 2011 OIG report revealed that most Medicaid State agencies (44 of 51) said they would
    prefer a single national prescription drug benchmark to use in setting their Medicaid
    reimbursement rates. Twenty-four States specifically wanted a benchmark based on
    pharmacies’ actual acquisition costs.
•   An October 2011 OIG report concluded that States could better approximate pharmacies’ actual
    acquisition costs of drugs by developing different reimbursements for single-source drugs,
    brand-name multiple-source drugs, and generic multiple-source drugs.
•   The conclusion mirrors a September 2002 OIG report in which we demonstrated that Medicaid
    could achieve more accurate alignments between reimbursements and pharmacy acquisition
    costs by separately evaluating reimbursement levels for multiple tiers of brand-name and
    generic drugs. OIG issued reports in August 2001 and March 2002 concluding that States could
    better control costs for drugs if they would develop reimbursement methodologies that were
    more in line with actual acquisition costs.
Optimally, CMS would make actual acquisition cost data available at the national level for various
drug categories that States could use in their drug reimbursement methodologies.

Progress of Implementation
In a February 2012 proposed rule CMS stated: “… in light of the OIG reports concerning published
prices (OIG Audit reports A-06-00-00023, A-06-01-00053, A-06-02-00041), we believe it is
necessary for States to have a more accurate reference price to base reimbursement for prescription
drugs. Therefore, we propose to replace the term, ‘‘estimated acquisition cost’’ with ‘‘actual
acquisition cost” (AAC).” (77 Fed. Reg. 5318, 5320, column 3, (February 2, 2012).)
As a supporting initiative, CMS’s Survey of Retail Prices will provide State Medicaid agencies with an
array of covered outpatient drug prices that are based on acquisition costs and consumer purchase
prices that they can use to compare their own pricing methodologies and payments to those derived
from the surveys. The Survey of Retail Prices has two parts:
•   Part I – Retail Community Pharmacy Consumer Prices. These data will result in National
    Average Retail Prices (NARP) for Medicaid-covered outpatient drugs.
•   Part II – Survey Of Drug Acquisition Costs Paid By Retail Community Pharmacies. These data
    will result in National Drug Acquisition Costs (NDAC) that may be used as reference prices for
    States to consider when setting their reimbursement methodologies. The NDACs will reflect
    data for multiple drug categories, consistent with OIG’s recommendations.
    We encourage CMS to follow through on the steps it is taking. When the proposed rule is
    finalized and new reference prices are established and are available to States, we will
    determine whether our recommendations have been effectively implemented.

Primary OIG Report
    2011 July Replacing Average Wholesale Price: Medicaid Drug Payment Policy.
              OEI-03-11-00060. Full Text.
    2011 OCT Review of Drug Costs to Medicaid Pharmacies and Their Relation to Benchmark
             Prices. A-06-11-00002. Full Text.


                                                   Page 99
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                   Medicaid Program


See Also
     2005 JUN Variation in State Medicaid Drug Prices. OEI-05-02-00681. Full Text.
     2005 JUN Comparison of Medicaid Federal Upper Limit Amounts to Average Manufacturer
              Prices. OEI-03-05-00110. Full Text.
     2004 DEC OIG Testimony Before the House Committee on Energy and Commerce, Subcommittee
              on Oversight and Investigations. “Medicaid is Paying Too Much for Prescription
              Drugs.” Testimony.
     2002 SEP Medicaid Pharmacy—Additional Analyses of the Actual Acquisition Cost of
              Prescription Drug Products. A-06-02-00041. Full Text.
     2002 MAR Medicaid Pharmacy—Actual Acquisition Cost of Generic Prescription Drug Products.
              A-06-01-00053. Full Text.
     2001 AUG Medicaid Pharmacy—Actual Acquisition Cost of Brand Name Prescription Drug
              Products. A-06-00-00023. Full Text.
     2001 JUL Cost Containment of Medicaid HIV/AIDS Drug Expenditures. OEI-05-99-00611.
              Full Text.




Medicaid Wasteful Spending > Prescription Drugs > Monitoring FDA Approval of Drugs

Prescription Drugs—Require Manufacturers To List All Approved Products With
the Food and Drug Administration as a Requirement of Medicaid Eligibility


  Recommendations To Be Implemented
       We recommend that
           the Food and Drug Administration (FDA) work CMS and Congress to compel
            manufacturers to list all approved products with FDA before the products become
            eligible for Medicaid payment and
           CMS work with FDA to identify any potentially problematic Medicaid payments for
            drugs that have not been approved by FDA.
       Savings probable but not estimated. We estimated $20 million quarterly on the basis of
       an analysis of 2007 fourth-quarter Medicaid expenditures.




The recommendations would help curb the wasteful Medicaid spending that occurs when CMS and
States cannot determine from FDA’s listings whether drugs are eligible for payment under Medicaid.
With certain exceptions, covered outpatient drugs must be approved by FDA for safety and
effectiveness to qualify for Federal payments, including Medicaid.




                                                      Page 100
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                  Medicaid Program


A November 2010 OIG report highlighted the fact that the National Drug Code (NDC) Directory
cannot reliably be used to verify the approval and listing status of drugs paid for under the Medicaid
drug rebate program. The report revealed that 38 percent of drugs paid for by Medicaid in 2008,
accounting for about 25 percent of total Medicaid expenditures for prescription drugs in 2008,
either did not have an approved application number listed with FDA (12 percent) or were not in the
FDA’s NDC Directory at all (26 percent).
According to FDA, one reason that the NDC Directory is neither fully accurate nor complete is that
drug manufacturers do not always submit the required information. Also, the presence of an NDC in
the NDC Directory does not always denote approval by FDA.
A July 2009 OIG report revealed that in a manual review of 75 high-expenditure nonmatching NDCs,
we identified a potential problem involving unapproved drugs. Medicaid paid $20 million in the
fourth quarter of 2007 for 32 drugs that were not approved by FDA, and Medicaid may have
continued to inappropriately pay for the ineligible products beyond that quarter. FDA noted that
many health care providers may be prescribing unapproved drugs because they are unaware of the
drugs’ approval status.

Progress of Implementation
In CMS's 2012 update, it said that it is continuing to work with FDA to identify potentially
problematic Medicaid payments for drugs that do not meet the definition of a covered outpatient
drug for the purposes of the Medicaid drug rebate program. CMS said that FDA provides it with
information on unapproved drugs that may be ineligible for coverage and that CMS reviews the
information to determine whether action should be taken to remove these drugs from the list of
covered drugs.
The HHS Budget in Brief documents for FY 2012 and FY 2013 proposed to require drugs to be
properly listed with the FDA in order to receive Medicaid coverage. This proposal aligns Medicaid
coverage requirements with Medicare requirements. (Savings were not estimated.)
In February 2012, CMS released a proposed rule revising Medicaid requirements for covered
outpatient drugs pursuant to the Affordable Care Act and other authorities. If finalized, the
proposed rule would require all drugs to have an NDC and to be electronically listed with FDA
before the drugs can be treated as covered outpatient drugs under Medicaid. It would further
require that manufacturers submit any relevant, approved FDA application numbers. Such numbers
would help CMS obtain information from FDA as to whether a drug has been approved.
(77 Fed. Reg. 5318 (February 2, 2012). See p. 5322, column 3.)
We are monitoring CMS’s and FDA's progress in implementing the recommendations we specified
and CMS’s progress in finalizing the proposed rule.

Primary OIG Reports
    2010 NOV FDA’s Approval Status of Drugs Paid for by Medicaid. OEI-03-08-00500. Full Text.
    2009 JUL Accuracy of Drug Categorizations for Medicaid Rebates. OEI-03-08-00300. Full Text.

See Also
    2006 AUG The Food and Drug Administration’s National Drug Code Directory. OEI-06-05-
             00060. Full Text.




                                                  Page 101
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                    Medicaid Program




Medicaid Wasteful Spending > Prescription Drugs > Average Manufacturer Price Issues

Prescriptions Drugs—Clarify and Improve Program Guidance to Drug
Manufacturers on Average Manufacturer Price Issues


  Recommendations To Be Implemented
       We recommend that CMS
           clarify specified terms and the treatment of certain aspects of determining average
            manufacture prices (AMP) that we identified,
           address the various industry group concerns about AMP that we reported, and
           encourage States to analyze the relationship between AMP and pharmacy acquisition
            costs to ensure that the Medicaid program appropriately reimburses pharmacies.
       Savings probable but not estimated.




The recommendations would help curb the wasteful Medicaid spending that occurred because
guidelines for determining AMPs were not clear and comprehensive and manufacturers’ methods
for calculating such prices were inconsistent. We continue to monitor this area in light of the
progress that is being made.
AMPs are one of the prices are used in calculating manufacturer rebates on drugs purchased
through Medicaid. Broadly, AMPs are the average prices paid directly to pharmaceutical
manufacturers in the United States by certain purchasers of Medicaid-covered drug products. AMPs
are also used in determining the Federal upper limit for reimbursement of generic drugs.
A May 2006 OIG report revealed that the manufacturers we reviewed interpreted AMP
requirements differently, ultimately impacting Medicaid rebates. Our findings demonstrated the
need to clarify aspects of the definition of AMP and the treatment of pharmacy benefit manager
rebates and Medicaid sales in AMP calculations. Industry groups also emphasized the need to
clarify certain AMP requirements and raised additional issues related to the implementation of
provisions of the Deficit Reduction Act of 2005 (DRA) that made changes to AMP provisions. In
addition, the uses of AMP by CMS and other agencies highlighted the need to ensure the timeliness
and accuracy of manufacturers reporting AMPs. Our Medicaid reviews in prior years also found
issues related to AMPs.
Additional Background >
The May 2006 OIG report was mandated by the DRA, § 6001(c)(3). The DRA also required the
Secretary to clarify the requirements for and the manner in which AMPs are determined by
promulgating a regulation no later than July 1, 2007, taking into consideration our
recommendations.
Many reports of OIG’s AMP-related reviews contain proprietary information and are therefore not
published on OIG’s Web site. A link to the May 2006 report is provided at the end of this section.


                                                      Page 102
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                   Medicaid Program


Progress of Implementation
Several actions in recent years pertain to the issues we raised in our May 2006 report:
•   In July 2007, pursuant to the AMP-related provisions of the DRA of 2005, CMS promulgated a
    final rule that in part established upper limits for multiple-source drugs and revised the
    definition of AMP. (72 Fed. Reg. 39142 (July 17, 2007). However, in December 2007, a Federal
    judge issued a preliminary injunction prohibiting CMS from implementing it. Subsequently,
    CMS published a final rule to withdraw those parts of the 2007 final rule that revised the
    definition of AMP and that established upper limits for multiple-source drugs. (75 Fed. Reg.
    69591 (November 15, 2010).)
•   The Patient Protection and Affordable Care Act of 2010 (Affordable Care Act), § 2503, revised
    the definition of AMP effective October 1, 2010, eliminating a key term that was subject to
    inconsistent interpretations. It specified the entities that drug manufacturers are to include and
    exclude from the determination of AMP and clarified the treatment of discounts and other
    incentives. It also established the use of monthly AMP data in determining Federal upper limits
    for reimbursing multiple-source drugs.
•   In 2010 and 2011, CMS issued three Medicaid Drug Rebate Program releases for participating
    drug manufacturers: Release No. 83 to provide guidance on the AMP process for calculating
    monthly AMP, Release No. 81 to remind manufacturers that they are required to report pricing
    information to CMS on a timely basis, and Release No. 80 to provide guidance on AMP and best-
    price recalculations.
•   In February 2012, CMS published a proposed rule revising regulations for Medicaid
    requirements for covered outpatient drugs. The rule includes the Affordable Care Act changes
    involving the definition of AMP and addresses retail community pharmacies; base date AMP
    recalculations; AMP smoothing; and other AMP-related policies, including enforcement of
    manufacturers’ monthly reporting of AMPs. (77 Fed. Reg. 5318 (February 2, 2012).)
The recommendations and concerns described in our May 2006 report remain open pending CMS’s
implementation of legislative and regulatory clarifications and changes and whether manufacturers
implement consistent methods to calculate AMPs.

Primary OIG Reports
    2006 MAY Determining Average Manufacturers Prices for Prescription Drugs Under the Deficit
             Reduction Act of 2005. A-06-06-00063. Full Text.

See Also
    2010 SEP Drug Manufacturers' Noncompliance With Average Manufacturer Price Reporting
             Requirements. OEI-03-09-00060. Full Text.
    2010 SEP Special Advisory Bulletin—Average Manufacturer Price and Average Sales Price
             Reporting Requirements. Full Text.




                                                  Page 103
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                 Medicaid Program




Medicaid Wasteful Spending > Prescription Drugs > Drug Payments and Rebates

Prescriptions Drugs—Establish a Connection Between the Calculations of
Medicaid Drug Reimbursements and Rebates


  Recommendations To Be Implemented
       We recommend that CMS
          seek legislation that would require Medicaid drug rebates and reimbursements to be
           developed using the same basis or
          review viable alternatives to the current program.
       Savings probable but not estimated.




The recommendations would help curb the wasteful Medicaid spending that occurs because of an
inconsistency between the key values used for calculating reimbursements and rebates. When a
State increases its reimbursements for a drug, it does not receive a correspondingly higher rebate
on that drug purchase because there is no connection between the reimbursement and rebate
calculations.
A May 1998 OIG report noted that legislation was needed to establish the connection. Medicaid
requires that rebates be based on a specifically designated value, AMP, while, at the same time,
allowing reimbursements to be calculated using other, estimated values (historically, a discounted
average wholesale price (AWP)). This creates a situation whereby fluctuations in reimbursements
do not result in a corresponding adjustment in the associated rebates. The inconsistency between
the key values used for calculating rebates and reimbursements causes wasteful spending for drugs.
The 1998 report analyzed a scenario using AWP in calculating both reimbursements and rebates
(i.e., AWP/AWP), and the principle applies to other matching alignments as well. For example, given
that AWP is no longer the preferred basis for States’ drug reimbursements, another combination
could be established, e.g., AMP/AMP.

Progress of Implementation
The Deficit Reduction Act of 2005 (DRA), § 6001, amended the Social Security Act to require that
CMS provide States with AMP data that would have provided States with a new pricing source for
establishing acquisition costs. CMS promulgated a corresponding final rule. However, a Federal
injunction prohibited its implementation. Subsequent changes in law and regulations have not
established the necessary connection between rebates and payments.
The Affordable Care Act, § 2503(b), modified the DRA requirement in a way that may limit the
availability of AMP information for establishing an AMP/AMP connection.




                                                     Page 104
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                   Medicaid Program


We remain concerned that until all States use the same basis in their rebate and reimbursement
formulas, fluctuations in reimbursements will not result in corresponding adjustments to the
associated rebates. We continue to monitor this issue.

Primary OIG Report
     1998 MAY Need to Establish Connection Between the Calculation of Medicaid Drug Rebates and
              Reimbursement for Medicaid Drugs. A-06-97-00052. Full Text.

See Also
     2006 MAY Determining Average Manufacturers Prices for Prescription Drugs Under the Deficit
              Reduction Act of 2005. A-06-06-00063. Full Text.
     2004 DEC OIG Testimony Before the House Committee on Energy and Commerce,
              Subcommittee on Oversight and Investigations – “Medicaid is Paying Too Much for
              Prescription Drugs.” Testimony.




Medicaid > Wasteful Spending > Prescription Drugs > Physician Administered Drugs

Prescription Drugs—Ensure That States Are Accurately Identifying and Collecting
Rebates on Physician-Administered Drugs (New)


  Recommendations To Be Implemented
       We recommend that CMS
           ensure that all States are accurately identifying and collecting rebates owed by
            manufacturers for these drugs,
           work with States to develop guidance for implementing system edits that increase the
            efficiency of physician-administered drug claim reviews,
           work with States to administer guidance to providers and Medicare contractors about
            the physician-administered drug rebate requirements,
           ensure that the crosswalk file (a CMS data file that links two types of commonly used
            drug codes) is complete and accurate and identifies rebateable
            physician-administered drugs, and
           take action against States that do not meet statutory requirements to collect rebates
            on physician-administered drugs.
       Savings probable but not estimated.




                                                       Page 105
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                  Medicaid Program


The recommendations would reduce the wasteful Medicaid spending that occurs when States do
not collect manufacturer rebates on physician-administered drugs. Federal law requires that for
Federal matching funds to be available for certain physician-administered drugs, States must collect
manufacturer rebates for the drugs.
A June 2011 OIG report revealed that 73 percent of 49 responding states self-reported that they met
or exceeded Federal requirements to collect rebates for certain physician-administered drugs;
however, 29 states reported difficulties with manufacturer nonpayment of rebates for the drugs.
The States attributed the difficulty mainly to inaccuracies in the drug code information that
providers entered on claims. Because of incomplete and potentially inaccurate data provided by
States, we were unable to calculate the total rebate dollars all States collected for
physician-administered drugs and, therefore, could not determine the impact that collecting such
rebates had on reducing prescription drug expenditures.
CMS creates a quarterly crosswalk file that links drugs’ Healthcare Common Procedure Coding
System (HCPCS) codes to their applicable National Drug Codes (NDC). Unlike the NDC, the HCPCS
code does not identify the manufacturer responsible for paying a rebate. States that described
issues with the crosswalk file used the file either to identify the NDC or to validate the NDC
information on the claim. The States expressed concern with the accuracy and completeness of the
data, as well as the file’s usefulness for identifying and crosswalking rebateable physician-
administered drugs. The States mentioned that an official crosswalk that contains accurate and up-
to-date information for physician-administered drugs would make rebate collections more efficient
and timely.
Additional Background >
An April 2001 OIG report found that only 17 States collected rebates from manufacturers for
physician-administered drugs in 2001. Partly on the basis of this work, the DRA required that
States collect rebates on all claims for certain physician-administered drugs for matching Federal
funds to be available. The DRA also mandated that claims for physician-administered drugs include
NDCs, a type of code that identifies a drug’s manufacturer, thereby enabling States to invoice
manufacturers responsible for paying rebates.

Progress of Implementation
In responding to our review, CMS said it would reiterate the DRA rebate requirements in a release to
States, as well as provide technical assistance. CMS said that if a State does not meet these rebate
requirements, it may consider withholding Federal matching funds in the future, although CMS
anticipates its additional assistance will make such actions unnecessary.
CMS generally considers direct provider communication to be within the States’ purview.
Therefore, CMS has left this responsibility to the States. CMS maintains that Medicare contractors
are aware of these requirements and have established procedures to accept NDCs on crossover
claims. CMS also said that the DRA's NDC requirements render this file unnecessary. However, our
findings show that the crosswalk file is still being relied upon by certain States. Therefore, we
continue to recommend that CMS ensure that States have access to a reliable crosswalk file.
In its 2012 update, CMS indicated it will continue to monitor and meet with States to encourage
accurate identification and collection of rebates for physician-administered drugs.
In February 2012, CMS released a proposed rule revising Medicaid requirements for covered
outpatient drugs. The proposed rule states that no Federal financial participation (FFP) is available
for physician-administered drugs for which a State has not required the submission of claims using



                                                  Page 106
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                     Medicaid Program


codes that identify the drugs sufficiently for the State to bill a manufacturer for rebates. (77 Fed.
Reg. 5318 (February 2, 2012. See p. 5367, column 2.)
We encourage CMS to address each recommendation we specified and finalize its rule withholding
FFP for insufficiently documented claims. We continue to monitor CMS’s progress.

Primary OIG Report
     2011 JUN States’ Collection of Medicaid Rebates for Physician-Administered Drugs.
              OEI-03-09-00410. Full Text.

See Also
     2011 AUG Nationwide Rollup Report for Medicaid Drug Rebate Collections. A-06-10-00011.
              Full Text.
     2004 APRIL       Medicaid Rebates for Physician-Administered Drugs. OEI-03-02-00660.
               Full Text.
     2005 JUL Multistate Review of Medicaid Drug Rebate Programs. A-06-03-00048. Full Text.




Medicaid Wasteful Spending > Prescription Drugs > Generic Drugs > Additional Rebates

Prescriptions Drug Rebates—Extend the Additional Rebate Payment Provisions
for Brand-Name Drugs to Generic Drugs


  Recommendation To Be Implemented
           We recommend that CMS seek legislative authority to extend the additional rebate
            provisions for brand-name drugs to generic drugs.
       Savings probable but not estimated. An August 2011 OIG report estimated that rebates
       reduced Medicaid's expenditures for selected generic drugs by only 3 percent in 2009
       ($13.5 million out of $449 million) compared to 45 percent for selected brand-name
       drugs.




The recommendation would help curb the potentially wasteful Medicaid spending that occurs
because additional rebates available for brand-name drugs do not similarly apply to generic drugs.
Rebates for brand-name drugs (those still under patent or those once covered by patents) have two
components: a basic rebate and an additional rebate. Manufacturers pay an additional rebate when
the AMP for a brand-name drug increases more than a specified inflation factor. (Social Security
Act, § 1927(c)(2).) Generally, the amount of the additional rebate is based on the amount that the
drug’s reported AMP exceeds its inflation-adjusted baseline AMP. Manufacturers pay the additional
rebate for each unit of the drug reimbursed by Medicaid.




                                                       Page 107
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                 Medicaid Program


An October 2007 OIG report estimated that by applying the statutory method for calculating
additional rebates for brand-name drugs to generic drugs, the Medicaid program would have
received $966 million in additional rebates for the top 200 generic drugs, ranked by Medicaid
reimbursement, from 1991 through 2004.
Additional Background >
OIG subsequently collected data in a review of rebates in 2009. An August 2011 OIG report of the
review revealed that 55 percent of the total Medicaid rebates owed for 100 selected brand-name
drugs in 2009 were owed because manufacturers paid the additional inflation-based rebates along
with basic rebates. Total rebates reduced Medicaid’s expenditures for the 100 selected brand-name
drugs by 45 percent ($2.9 billion out of $6.4 billion). Rebates reduced Medicaid's expenditures for
selected generic drugs by only 3 percent in 2009 ($13.5 million out of $449 million.

Progress of Implementation
In responding to our review, CMS said that it considers all improvements to the Medicaid drug
rebate program, including seeking legislative change when CMS believes it is appropriate.
CMS noted that the Affordable Care Act, § 2501, increased the rebate amounts and formulas for
brand-name and generic drugs effective January 1, 2010.
We continue to recommend that CMS align rebate policies for generic drugs with rebate policies for
brand-name drugs.

Primary OIG Report
    2007 OCT Review of Generic Drug Price Increases. A-06-07-00042. Full Text.

See Also
    2011 AUG Higher Rebates for Brand-Name Drugs Result in Lower Costs for Medicaid Compared
             to Medicare Part D. OEI-03-10-00320. Full Text.




                                                 Page 108
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                     Medicaid Program




Medicaid > Wasteful Spending > Prescription Drugs > 340B Discount Drug Program

Prescription Drugs—Improve the Policies and Information Available for State
Medicaid Agencies To Oversee Reimbursements for 340B-Purchased Drugs
(New)


  Recommendations To Be Implemented
       We recommend
           that CMS direct State Medicaid Agencies to create written policies for how covered
            entities are to bill Medicaid for the drugs they purchased at a discount pursuant to the
            Public Health Service Act, § 340B, prescription drug discount program (340B
            program);
           that CMS inform States about tools they can use to identify claims for 340B-purchased
            drugs; and
           that the Health Resources and Services Administration (HRSA) share 340B ceiling
            prices with States.
       Savings probable but not estimated.




The recommendations would reduce the wasteful spending that occurs when State Medicaid
agencies overpay for drugs purchased pursuant to the 340B program because States lack definitive
billing policies for covered entities, cannot effectively identify 340B-related claims, lack access to
340B ceiling prices, and therefore cannot establish necessary prepayment system edits.
The 340B program requires drug manufacturers to provide covered outpatient drugs to certain
eligible health care entities (safety-net entities) at or below statutorily defined discount prices.
Such entities include eligible community health centers, critical access hospitals, and children's
hospitals. The entities bill Medicaid for reimbursement of the drugs they provide to Medicaid
patients.
A June 2011 OIG report revealed that HRSA’s guidance directs covered entities to follow States’
340B policies, but about half of the State Medicaid agencies (25 of 51) did not have written policies
for how 340B-covered entities are to bill Medicaid for reimbursement. Without written policies,
covered entities may not know how States expect them to bill Medicaid.
We also found that States did not effectively identify claims by covered entities that dispense 340B-
purchased drugs to Medicaid patients. States need to identify 340B claims so they do not subject
drug manufacturers to duplicate discounts by including 340B claims in utilization data submitted
for Medicaid rebates. Conversely, States may inappropriately forgo rebates they are owed by
manufacturers if the incorrectly exclude non-340B claims from their utilization data. CMS should
inform States of various options for identifying 340B-purchased drugs.




                                                      Page 109
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                  Medicaid Program


We found that State Medicaid agencies do not have the 340B pricing information they need to create
prepayment edits to prevent overpaying 340B-purchased drugs. They do not have 340B ceiling
prices because the prices are calculated using AMP, to which States historically have not had access.
Without prepay edits, States reimburse 340B-purchased drugs at the amounts that covered entities
bill—which may be above 340B prices. HRSA should provide ceiling prices to State Medicaid
agencies.
Additional Background >
•   The Affordable Care Act, § 7102, requires the Secretary to improve covered entities’ compliance
    with 340B by developing more detailed guidance describing methodologies and options
    available to covered entities for billing covered drugs to State Medicaid agencies in a manner
    that avoids duplicate discounts. However, it did not require the development of State-specific
    policies for billing of 340B-purchased drugs. HRSA’s directive that covered entities follow State
    policies is still in effect.
•   Section 7102 also provides for covered entities to access the applicable ceiling prices for
    covered drugs. However, it did not provide for State Medicaid agencies to access such data.

Progress of Implementation
In responding to our review, CMS concurred with our recommendations and outlined steps it will
take to implement them. However, we have not received documentation that the actions were
taken.
In a December 2011 update, HRSA indicated that because of statutory limitations, it is not able to
implement the recommendation to share 304B ceiling prices with States. It did not indicate
whether it intends to seek the authority it needs.
We continue to monitor CMS’s and HRSA’s implementation of the recommendations we specified.

Primary OIG Report
    2011 JUN State Medicaid Policies and Oversight Activities Related to 340B-Purchased Drugs.
             OEI-05-09-00321. Full Text.

See Also
    2005 DEC OIG Testimony Before the House Committee on Energy and Commerce,
             Subcommittee on Oversight and Investigations: “340B Program.” Testimony




                                                  Page 110
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                    Medicaid Program




Medicaid Wasteful Spending > Enhanced Payments to Public Providers

Payments to Public Providers—Limit Medicaid Payments to Costs and
Require That Payments Returned by Public Providers Be Used To Offset the
Federal Share


  Recommendations To Be Implemented
       We recommend that CMS
          issue definitive guidance for calculating enhanced payment limits, which should
           include using facility-specific limits that are based on actual cost report data (with the
           effect of limiting enhanced payments to cost) and
          require that returns of Medicaid payments by a county or local government to the
           State be declared refunds of those payments and thus be used to offset the Federal
           share generated by the original payments.
       Savings – A January 2007 proposed rule that effectively addressed our concerns was
       estimated to result in $120 million in savings during the first year and $3.87 billion in
       savings over five years; however the final rule was vacated and withdrawn. A May 2012
       OIG report of a review of 15 State-owned facilities revealed that $700 million in Federal
       savings could have been achieved in State fiscal year 2009 had the State used actual costs
       as the starting point in its rate methodology for those facilities.




The recommendations would help curb the wasteful Federal spending that occurs when States
claim Federal reimbursement for Medicaid payments to public providers and such payments are not
used in accordance with their intended purpose or do not comply with the Federal requirement that
that payments be consistent with economy and efficiency.
A September 2001 OIG report revealed that for seven enhanced payment programs in six States ,the
enhanced payments to local government-owned providers were not based on the actual cost of
providing services to Medicaid beneficiaries. Enhanced payments are in addition to the basic
payment rates for Medicaid providers. We did not find a direct relationship in the use of these funds
to increase the quality of care provided by the public facilities.
Medicaid permits States to provide enhanced payments, which qualify for Federal reimbursement,
to non-State-owned government providers, such as county or local publically owned nursing
facilities and hospitals. All Medicaid payments for care and services are required to be consistent
with efficiency, economy, and quality of care. Essentially, funds are to be used to pay for daily needs
of Medicaid beneficiaries in nursing facilities for medical services and room and board expenses for
food and for personnel salaries, etc.




                                                     Page 111
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                   Medicaid Program


We found that some or most of the funds were transferred back to the States for other uses. Some
of the funds transferred back to the State governments were earmarked for use in health-care-
related service areas but not necessarily for Medicaid-covered services approved in the State plans.
For the portion of the enhanced payments that was returned to the States, it appeared that the
States did not incur a health care expenditure for which Federal matching funds were claimed. This
condition calls into question whether the amounts returned to the State agencies constitute a
refund required to be reported as other collections and consequently to be offset against
expenditures reported to CMS. As is, State agencies have developed mechanisms to obtain Federal
Medicaid funds without committing the States’ share of required matching funds.
Such practices limit the ability of Congress, HHS, and State and local governments to manage,
account for, and assess the public benefits of Medicaid dollars.
Additional Background >
OIG reports issued in 2004 and 2005 revealed that substantial portions of enhanced payments
directed to local-government-owned nursing facilities were returned to the States, leaving the
facilities underfunded. All the nursing facilities we reviewed had been identified by State survey
and certification reviewers as having serious deficiencies in patient care. For more detail on
enhanced payments and related vulnerabilities, see OIG testimony, June 2005, and the reports listed
under “See Also” at the end of this section.
A May 2012 OIG report of a review in one State (New York) revealed misalignments of costs and
payments with regard to State-operated Intermediate Care Facilities (ICF) for individuals with
intellectual and developmental disabilities (developmental centers). The Federal Government
might have saved over $700 million in reimbursements in State FY (SFY) 2009 for the 15 selected
State-operated developmental centers had the State used prior year actual costs as the starting
point in its rate methodology instead of its current method in calculating the daily rate. We
concluded that New York may not have met the Federal requirement that payments be consistent
with economy and efficiency. The daily rate for Medicaid beneficiaries to reside in the selected
developmental centers grew from $195 per day in SFY 1985 to $4,116 per day in SFY 2009, which is
the equivalent of $1.5 million per year for one Medicaid beneficiary. The developmental center rate
was more than nine times the average rate for all other State-operated and privately operated ICFs
in New York in SFY 2009.

Progress of Implementation
Several actions in recent years pertain to the issues we raised in our September 2001 report:
•   On January 18, 2007, CMS published a proposed rule at 72 Fed. Reg. 2236 that proposed to
    “clarify the documentation required to support a certified public expenditure; limit
    reimbursement for health care providers that are operated by units of government to an
    amount that does not exceed the provider’s cost; [and] require providers to receive and retain
    the full amount of total computable payments for services furnished under the approved State
    plan ….” Savings were estimated to result in $120 million during the first year and $3.87 billion
    over five years (p. 2244).
•   However, effective May 25, 2007, the U.S. Troop Readiness, Veterans’ Care, Katrina Recovery, and
    Iraq Accountability Appropriations Act of 2007, § 7002, prohibited implementation of CMS’s
    proposed rule for 1 year following the date of the law’s enactment.
•   On May 29, 2007, CMS published a Final Rule With Comment Period at 72 Fed. Reg. 29748 that
    modified Medicaid reimbursement consistent with our recommendations.


                                                  Page 112
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                 Medicaid Program


•   However, on May 23, 2008, the U.S. District Court for the District of Columbia found that the
    Department of Health and Human Services (HHS) had violated the Congressional moratorium
    on finalization of the regulation, vacated the rule, and remanded the matter to HHS.
•   The American Recovery and Reinvestment Act of 2009 (Recovery Act), § 5003(d)(1), provided
    that it was the sense of Congress that the Secretary of HHS should not promulgate the
    regulation.
•   Accordingly, CMS formally withdrew the final rule. (75 Fed. Reg 73972 (November 30, 2010).)
•   CMS informed OIG that in 2010 it initiated enhanced reporting capability within the Form
    CMS-64 report to require quarterly reporting of supplemental payments.
•   The HHS Budget in Brief documents for FY 2012 and FY 2013 proposed to prevent States from
    using Federal funds to pay the State share of Medicaid or CHIP unless specifically authorized
    under law to match Medicaid or CHIP funds (savings not estimated). (p. 63.)
In its 2012 update, CMS said that through the State plan amendment review process, CMS asks
States to identify the funding source of the non-Federal share and to indicate whether providers
retain their payments.
We continue to monitor CMS’s progress toward limiting payments to public providers to cost and
requiring that Medicaid payments returned by public providers be used to offset the Federal share.

Primary OIG Report
    2001 SEP Review of Medicaid Enhanced Payments to Local Public Providers and the Use of
             Intergovernmental Transfers. A-03-00-00216. Full Text.

See Also
    2012 SEP Office of Inspector General Testimony Before the House Committee on Oversight
             and Government Reform. Examining the Administration's Failure To Prevent and
             End Medicaid Overpayments. Testimony.
    2012 MAY Medicaid Rates for New York State-Operated Developmental Centers May Be
             Excessive. A-02-11-01029. Full Text.
    2005 JUN Office of Inspector General Testimony Before the Senate Committee on Finance.
             Financing Mechanisms To Shift the Cost of Medicaid to the Federal Government
             Contrary to Federal and State Sharing Formulas. Testimony.
    2005 APR Adequacy of New York State’s Medicaid Payments to A. Holly Patterson Extended Care
             Facility. A-02-03-01004. Full Text.
    2005 MAR Adequacy of Washington State’s Payments to Newport Community Hospital, Long
             Term Care Unit. A-10-04-00001. Full Text.
    2005 MAR Adequacy of Tennessee’s Medicaid Payments to Nashville Metropolitan Bordeaux
             Hospital, Long-Term Care Unit. A-04-03-03023. Full Text.
    2004 JUN Adequacy of Medicaid Payments to Albany County Nursing Home.
             A-02-02-01020. Full Text.
    More >      North Carolina. A-04-00-00140. Alabama. A-04-00-02169. Illinois.
                A-05-00-00056.



                                                 Page 113
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                         Medicaid Program


                 Washington State. A-10-00-00011. Pennsylvania. A-03-00-00203. Nebraska.
                 A-07-00-02076. Alabama. A-04-00-02165.




Medicaid Wasteful Spending > Uncollected Refunds > System Support for Monitoring Credit Balances

Uncollected Refunds—Establish a National Medicaid Credit Balance Reporting
Mechanism To Monitor Refundable Amounts in Providers’ Patient Accounts


  Recommendations To Be Implemented
       We recommend that CMS
           establish a national Medicaid credit balance reporting mechanism similar to that used
            for Medicare Part A and
           require its regional offices to actively monitor the reporting mechanism that is
            established.
       Savings probable but not estimated.




The recommendations would help curb the wasteful Medicaid spending that occurs because CMS
does not require States to routinely monitor providers’ efforts to identify and refund credit balances
in Medicaid patient accounts.
Credit balances generally occur when the reimbursement that a provider receives for services
provided to a Medicaid beneficiary exceeds the charges billed, such as when a provider receives a
duplicate payment for the same service from the Medicaid program or a third-party payer, such as
Medicare. Medicaid is generally the payer of last resort. Credit balances could indicate that the
some or all of the payments a State made to the provider on behalf of a Medicaid patient should be
refunded to the State.
OIG reports issued in March 1993 and May 1995 revealed that significant outstanding Medicaid
credit balances existed nationwide. We reported that many State agencies’ efforts were inadequate
to ensure that providers were identifying the majority of credit balances in Medicaid patient
accounts and determining any amounts that should be refunded to the State in a timely manner.

Progress of Implementation
CMS decided not to establish a national Medicaid credit balance reporting mechanism similar to
that used for Medicare Part A, citing uncertain or minimal savings potential, the Administration’s
commitment to enhancing States’ flexibility, and avoiding the imposition of an unfunded mandate.
In 2010, CMS described actions it had taken to update and issue its financial management review
guide addressing Medicaid provider overpayments, to develop an annual work plan for reviewing
high-risk financial management areas, and to establish overpayment reporting mechanisms in the



                                                      Page 114
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                               Medicaid Program


CMS-64 quarterly expenditure reports. CMS also stated that Medicaid Integrity Contractors (MIC)
and Recovery Audit Contractors (RAC) for Medicaid are charged with identifying and recovering
Medicaid overpayments to providers.
We continue to recommend that CMS establish a national Medicaid credit balance reporting
mechanism and require its regional offices to monitor reporting. We are pursuing audit work in the
Medicaid credit balance area to update our work.

Primary OIG Reports
    1995 MAY Quarterly Credit Balance Reporting Requirements for Medicaid. A-05-93-00107.
             Full Text.
    1993 MAR Nationwide Audit of Medicaid Credit Balances. A-04-92-01023. Full Text.

See Also
    Reviews of Medicaid Credit Balances at Various Providers:
    2011 SEP A-04-10-04007. Full Text.
    2011 JUN A-09-11-02000. Full Text.
    2010 JUL    A-09-09-00106. Full Text.
    2010 MAY A-06-09-00102. Full Text.
    2010 APR A-09-09-00107. Full Text.
    2009 NOV A-09-09-00090. Full Text.
    2009 NOV A-09-09-00078. Full Text.
    2009 AUG A-09-09-00077. Full Text.
    2009 AUG A-09-09-00073. Full Text.
    2009 AUG A-09-09-00072. Full Text.
    2009 JUL A-07-09-02756. Full Text.
    2009 JUL A-07-09-02755. Full Text.
    2009 JUL A-07-09-02751. Full Text.
    2009 JUN A-09-09-00079. Full Text.




                                                Page 115
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                    Medicaid Program




Medicaid > Wasteful Spending > Third-Party Liability for Payment

Third-Party Liability—Ensure That States Collect From Noncustodial Parents
With the Ability To Contribute Toward Their Children’s Medicaid or Children’s
Health Insurance Program (CHIP) Costs


    Recommendations To Be Implemented
        We recommend that CMS
           clarify third-party liability regulations to help State Medicaid agencies coordinate with
            States’ child support enforcement programs to collect Medicaid costs from
            noncustodial parents with the ability to contribute medical support;
           seek legislation that would allow States to accumulate medical support payments to
            offset Medicaid fee-for-service (FFS) costs for a reasonable period;
           determine whether more Federal funds are needed to help States interface their
            databases;
           implement a process to collect program costs from noncustodial parents; and
           as appropriate, provide funds for this purpose.
        Savings probable but not estimated. On the basis of two 8-State reviews, we estimated
        $99 million for Medicaid and $14 million for CHIP for the selected States over 2 years.




The recommendations would help curb the wasteful Medicaid spending that occurs because State
child support enforcement (CSE) agencies fail to collect Medicaid costs from noncustodial parents
who have the financial ability to pay.
Medicaid regulations do not address how State Medicaid agencies should coordinate with CSE
agencies or how the States should establish and administer Medicaid FFS recoveries.
Two OIG reports issued in May and June 2005 summarized reviews of the ability of noncustodial
parents to contribute toward the medical costs of their Medicaid-eligible children. Using the most
recent data available from each State in 2001 or 2002, we estimated that Title IV-D children who
were enrolled in Medicaid had noncustodial parents who were financially able to contribute $99
million. Children who received CHIP benefits had noncustodial parents who could potentially
contribute $14 million toward the CHIP premiums.
Additional Background >
•    Unless the custodial parent and children already have satisfactory health insurance other than
     Medicaid, Federal regulations require State agencies operating child support enforcement
     programs pursuant to Title IV-D of the Social Security Act to petition the court or administrative
     authority to include health insurance that is available to the noncustodial parent at reasonable
     cost in new or modified orders for support.


                                                        Page 116
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                   Medicaid Program


•   Title XXI of the Social Security Act, which authorizes CHIP, is silent with regard to collecting
    CHIP costs from noncustodial parents. Although some States have taken steps to collect CHIP
    costs from noncustodial parents, others have questioned their authority to do so or expressed
    concern about the costs that would be incurred.

Progress of Implementation
CMS agreed to work toward drafting legislation to allow States to accumulate medical support
payments because Federal laws and regulations prohibit States from accumulating additional
medical support payments. The HHS Budget in Brief for FY 2013 proposed to allow States to collect
medical child support where health insurance is available from a noncustodial parent. CMS’s
responses to the recommendations included the following.
•   CMS agreed to alert States to their option to pursue the Federal and State shares of these costs.
•   Subsequently, CMS told us that it had provided guidance to States on the collection of Medicaid
    costs from available employer-sponsored health care coverage of noncustodial parents and on
    their authority under Federal law to collect CHIP costs from noncustodial parents.
CMS noted that States had the authority to fund the administrative costs of building an
infrastructure with the State child support enforcement agency under their 10-percent
administrative CHIP cap and recognized that there is no mechanism in CHIP to provide States with
more funding if they spend funds up to the cap.
We encourage CMS to follow through on its efforts to ensure that States appropriately collect from
noncustodial parents for the health care costs of Medicaid- and CHIP-eligible children. We continue
to recommend that CMS consider alternatives to ensure that States receive adequate funds,
especially if States are at or near their 10-percent administrative cap.

Primary OIG Reports
    2005 JUN Eight-State Review of the Ability of Noncustodial Parents To Contribute Toward the
             Medical Costs of Title IV-D Children That Were Paid Under the Medicaid Program.
             A-01-03-02501. Full Text.
    2005 MAY Eight-State Review of the Ability of Noncustodial Parents To Contribute Toward the
             Medical Costs of Title IV-D Children Under the State Children's Health Insurance
             Program. A-01-03-02502. Full Text.




                                                   Page 117
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                  Medicaid Program




Medicaid > Wasteful Spending > Hospitals > Inpatient Outlier Payments

Hospital Payments—Encourage States To Update Hospital Outlier Payment
Methodologies (New)


  Recommendations To Be Implemented
        We recommend that CMS encourage all States that make Medicaid outlier payments to
           use the most recent cost-to-charge ratios to calculate Medicaid outlier payments,
           reconcile Medicaid outlier payments upon cost report settlement or use an alternative
            method to ensure that outlier payments are more closely aligned with actual costs,
            and
           amend their State plans accordingly.
        Savings probable but not estimated.




The recommendations would reduce the wasteful Medicaid spending that occurs when States
miscalculate outlier payments. To protect hospitals against large financial losses from
extraordinarily high-cost cases, State agencies may supplement base payments with an additional
“outlier” payment.
A July 2011 OIG report revealed that eight State agencies we reviewed did not calculate Medicaid
inpatient hospital cost outlier payments in a way that would effectively limit such payments to
extraordinarily high-cost cases. Medicaid outlier payments are calculated using formulas that vary
by State. The States we reviewed used outdated cost-to-charge ratios and did not reconcile
Medicaid outlier payments upon settlement of cost reports. We estimated that if the eight States
had used the most recent cost reports to calculate the cost-to-charge ratios, they could have,
between FYs 2004 and 2006, more effectively limited the payments to extraordinarily high-cost
cases, thereby reducing Medicaid outlier payments by $320 million.
The review is a followup to similar audits we conducted in 2004.
Medicaid outlier payments increased from approximately $913 million in FY 2004 to approximately
$1.2 billion in FY 2006. During this period, Medicaid outlier payments increased substantially faster
than Medicaid diagnosis review group base payments and Medicare outlier payments.

Progress of Implementation
CMS agreed that reconciliation would better align outlier payments to the costs incurred by
hospitals but added that “… it is more appropriate to defer to States and let them determine what
changes, if any, are appropriate.” CMS also stated that two of the audited states, Pennsylvania and
Illinois, have proposed to revise outlier payment methodologies. Illinois’ proposed State plan
amendment would increase the threshold for designating a case as an outlier. Pennsylvania’s




                                                       Page 118
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                   Medicaid Program


proposed State plan amendment would make adjustments to the way the State calculates its outlier
payments. Both States report a decrease in expenditures related to these proposed amendments.
CMS intends to issue informational guidance to all States that outlines the findings and encourages
States to review existing outlier payment methodologies. This guidance may also include options
for States interested in revising their outlier payment methodologies.
We encourage CMS to follow through on its plan to issue guidance to States. We will continue to
monitor the progress of implementation.

Primary OIG Report
     2011 JUL Medicaid Hospital Outlier Payment Followup for Fiscal Years 2004 Through 2006.
              A-07-10-04160. Full Text.)




Medicaid Wasteful Spending > Adult Day Health Services

Adult Day Health Settings—Ensure That Services Provided Qualify for Medicaid
Reimbursement (New)


  Recommendations To Be Implemented
       We recommend that CMS
           specify what minimum services are required to qualify for Medicaid reimbursement of
            adult day health services,
           direct States to enforce supervision requirements for staff who provide therapy
            services in Medicaid adult day health centers, and
           take appropriate action with regard to the adult day health centers that did not
            respond to repeated data requests.
       Savings probable but not estimated.




The first recommendation would help curb the wasteful Medicaid spending that occurs when CMS
lacks clear standards and information to determine whether services billed by adult day health
providers are eligible for Federal reimbursement under Medicaid.
The second recommendation would help reduce the patient safety and quality-of-care
vulnerabilities that occur when therapy services provided in an adult day health setting do not meet
the States’ supervision and qualifications requirements.
Adult day health centers provide outpatient health, therapeutic, and social services and activities.
Within broad Federal Medicaid requirements, individual States establish the specific requirements
that must be met for Medicaid reimbursement of adult day health services.




                                                         Page 119
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                     Medicaid Program


Federal and State reviews have identified questionable billings and vulnerabilities in the
reimbursement systems, which vary between States. CMS and State Medicaid agencies often do not
receive information from providers about the individual services being provided.
A July 2011 OIG report summarized a review of 12 State Medicaid programs that allow nursing- and
therapy-focused adult day health services as a State plan benefit. For the last 6 months of 2007, we
found that on 40 percent of service days paid for by Medicaid, beneficiaries received no documented
health services. (We defined health services as nursing or therapy services.) However, most States
do not require that beneficiaries receive a health service each day in an adult day health setting. On
86 percent of the Medicaid-paid service days on which there were no documented health services,
meals and/or snacks were the only documented services provided.
CMS does not have any standard definition or guidance as to what constitutes a health service for
adult day care. Clear delineation as to what services are required for Medicaid reimbursement of
adult day health services would ensure that CMS pays a Federal share only for the services
necessary to deliver quality care to beneficiaries.
Also, OIG found that approximately 43 percent of the therapy services we reviewed were provided
by staff members who lacked the supervision required under the States’ laws or regulations.
Therapy services on sampled service dates sometimes lacked documentation about who actually
provided the services. Insufficiently supervised therapy services could undermine quality of care.
Additional Background >
•   In general, adult day health services must be ordered or requested by a physician or other
    medical practitioner, correspond with the patient assessment and plan of care, be rendered by
    staff whose qualifications and/or supervision meet State licensing requirements, and be
    supported by appropriate documentation. In addition to providing health services, adult day
    health centers also generally provide meals, assistance with activities of daily living, social and
    recreational activities, and transportation to and from the center.
•   Eligibility may be for a limited period to address a rehabilitative goal or for many years to
    address a chronic health issue.
•   Although States have established requirements for services (such as adult day health) that are
    covered under the rehabilitative benefit, there are no explicit Federal requirements concerning
    the types of services that are eligible for Medicaid reimbursement. CMS issued a proposed rule
    on Medicaid coverage for rehabilitative services on August 13, 2007, but withdrew it in
    November 2009. (72 Fed. Reg. 45201 (August 13, 2007).)

Progress of Implementation
In its response to our review, CMS outlined several steps it planned to take to implement our
recommendations. We encourage CMS to follow through on its planned actions and provide
evidence of such actions to OIG. We continue to monitor CMS’s progress on implementing the
recommendations we specified.

Primary OIG Report
    2011 JUL Medicaid Services Provided in an Adult Day Health Setting. OEI-09-07-00500.
             Full Text.




                                                    Page 120
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                    Medicaid Program



 Identify and Reduce Improper Payments
Medicaid improper payments are commonly associated with claims-based or claims-processing-
based deficiencies. Improper payments, which cost Federal programs billions of dollars annually,
are payments that should not have been made or that were made in incorrect amounts and include
overpayments and underpayments.
The Federal Government reimburses States on the basis of the State’s Medicaid expenditures and
other approved costs. However, States do not always effectively identify and reduce erroneous and
inappropriate billing by providers and suppliers prior to submitting the amounts to CMS for Federal
reimbursement. For claims deemed to be inappropriate, the items or services reflected on bills are
not supported by the documentation in the providers’ medical files, are not medically necessary,
may have administrative or policy errors, or do not meet other Federal and State requirements.
OIG’s audits and evaluations do not routinely project the annual cost savings that could be realized
at program level from implementing the recommendations. However, reports are indicative of the
extent to which policies and methodologies may be less than effective and in need of corrective
action.

Acronyms and Abbreviations for Selected Terms Used in This Section
CMS—Centers for Medicare & Medicaid Services         PPS—prospective payment system
DOJ—Department of Justice                            PCS—personal care services
IDEA—Individuals With Disabilities Education Act



Medicaid Improper Payments > School-Based Health Services

School-Based Health Services—Ensure Compliance With Medicaid Requirements


  Recommendations To Be Implemented
       We recommend that CMS ensure that States
          disseminate CMS guidance and other information to the local education agencies in a
           timely manner,
          monitor local education agencies to ensure compliance with Federal and State
           requirements, and
          help local education agencies develop written policies and procedures that require
           service providers to document all pertinent health services and retain those records
           for review.
       Savings probable but not estimated.




                                                     Page 121
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                    Medicaid Program


The recommendations would help prevent the improper Federal Medicaid payments that occur
when States claim reimbursement for school-based services that were not provided or failed to
comply with Federal and State standards.
In a number of reviews conducted from 2001 through 2011, we identified Medicaid overpayments
for school-based health services; the Federal share of the overpayments was estimated at more than
$1 billion. Many of the services claimed lacked a referral by appropriate medical professionals or
were not provided by or under the direction of qualified providers. These unallowable claims
occurred generally because States did not provide sufficient guidance and oversight of local
education agencies and rates were not developed in accordance with applicable Federal cost
allocation requirements or CMS program guidelines.
Additional Background >
Medicaid pays for school-based health services when they are included in an individualized
education plan or individualized family service plan established pursuant to the Individuals With
Disabilities Education Act (IDEA).

Progress of Implementation
According to our findings, CMS has taken recovery actions on improper claims and/or the claims
have been settled by the Department of Justice (DOJ). We have noted through our continuing work
in this area that CMS has also initiated efforts to bring State plans into compliance with Federal law,
regulations, and policy in the coverage areas that pertain to Medicaid services delivered in school
settings.
•   In December 2007, CMS issued a final rule specifying that Federal financial participation under
    the Medicaid program will not be available for school-based administrative and certain
    transportation costs. The rule addressed long-standing concerns about improper billing by
    school districts as determined by both HHS's Inspector General and the Government
    Accountability Office.
•   A moratorium issued in the Medicare, Medicaid, and SCHIP Extension Act Of 2007 prevented
    implementation of the final rule through June 30, 2008.
•   In May 2010, CMS issued a school-based services financial management review guide for use by
    its staff, titled Claims for IDEA-Related School Based Services.
•   CMS said it continues to provide guidance to States regarding claiming for services provided in
    schools in conjunction with the State plan amendment process. CMS said it routinely provides
    States with copies of approved State plan amendments, cost reports, and cost report instruction
    for use as templates. Central and regional office staff meet with State staff prior to and after an
    amendment is submitted to ensure that the State is aware of all CMS requirements.
    Requirements for reimbursement are detailed in the internal CMS manual that helps ensure
    consistent application of reimbursement policies for school-based services throughout the
    regions.
Although CMS developed a review guide for its staff to use in reviewing school-based claims, it has
not yet taken steps to provide guidance for dissemination by States to local education agencies in an
effort to reduce unallowable claims. Our reviews that continue to identify unallowable claims point
to the need for such guidance at the local level. We continue to monitor CMS’s efforts to ensure that
States comply with our recommendations.




                                                   Page 122
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                             Medicaid Program


Primary OIG Reports
    2012 APR Review of Colorado Direct Medical Service and Specialized Transportation Costs for
             the Medicaid School Health Services Program for State Fiscal Year 2008.
             A-07-11-04185. Full Text.
    2012 JAN Review of Medicaid Payments for School-Based Health Services Made to Manchester,
             New Hampshire. A-01-10-00014. Full Text.

See Also
    2011       West Virginia. A-03-05-00203.
    2010       New Jersey. A-02-07-01052 and A-02-07-01051. Arizona. A-09-07-00051.
    2009       West Virginia. A-03-06-00201.
    2008       New Jersey. A-02-04-01017.
    2007       Utah. A-07-06-04069. Maryland. A-03-05-00206.
    2006       Nevada. A-09-05-00054. Minnesota. A-05-05-00040. Kansas. A-07-05-01018.
               Kansas. A-07-06-01030. Kansas. A-07-03-00155. New Jersey. A-02-03-01003.
               Texas. A-06-02-00051.
    2005       Texas. A-06-02-00047. New York City. A-02-03-01023. New York City.
               A-02-02-01029. Illinois. A-05-02-00050. Kansas. A-07-03-00154. Vermont.
               A-01-03-00004. Maine. A-01-04-00004.
    2004       Massachusetts. A-01-02-00016. New York State. A-02-03-01008. New York State.
               A-02-02-01030. North Carolina. A-04-01-00005. Iowa. A-07-02-02099. Rhode
               Island. A-01-02-00014. Texas. A-06-02-00037.
    2003       Illinois. A-05-02-00049. Washington State. A-10-02-00008. Massachusetts.
               A-01-02-00009. Connecticut. A-01-02-00006. New Jersey. A-02-02-01022.
               Oklahoma. A-06-01-00083. Maryland. A-03-01-00224. Wisconsin.
               A-05-02-00023.
    2002       New York City. A-02-02-01018. Oklahoma. A-06-01-00077. Oregon.
               A-10-01-00006. Connecticut. A-01-01-00006. Washington State. A-10-01-00011.
    2001       North Carolina. A-04-00-02161.




                                                Page 123
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                 Medicaid Program




Medicaid Improper Payments > Home Health Services

Home Health—Prevent Duplicate Medicaid and Medicare Payments


  Recommendation To Be Implemented
          We recommend that CMS ensure that Medicaid does not pay home health providers
           for nonroutine medical supplies and therapeutic services paid by Medicare.
       Savings probable but not estimated.




The recommendation would help prevent the improper Medicaid payments that occur when States
claim reimbursement for home health services that are paid for by Medicare. When Medicaid and
Medicare cover particular supplies and services, Medicaid is the payer of last resort and Medicare
should pay first for services provided to individuals who meet dual-eligibility requirements.
A May 2008 OIG report revealed that each of the five States we examined had established payment
system edits to compare claims for home health services to Medicare eligibility information;
however, incomplete eligibility information and payment system edit overrides resulted in
inappropriate payments. States do not have direct access to Medicare prospective payment system
(PPS) data that would provide information about whether and when a beneficiary is receiving
Medicare-paid services. The order of claims submission dates and dates of payment indicated that
some home health providers were submitting Medicaid claims for medical supplies and therapeutic
services when they had already received Medicare payments.
Additional Background >
Home health services are intended to restore health and minimize the effects of illness and
disability, enabling beneficiaries to live in community settings and avoid institutionalization.
Medicaid and Medicare pay home health providers for services specified in the plans of care for
beneficiaries; however, both programs should not pay for the same supplies or services for the same
beneficiaries. The May 2008 report revealed that four States inappropriately paid home health
providers a combined $1 million for claims for nonroutine medical supplies (e.g., catheters,
dressings, syringes, and needles) and therapeutic services that were also paid by Medicare. This
represented about 1 percent of the $113 million that the four States spent on home health
nonroutine medical supplies and therapeutic services. In two States, Medicaid paid $6.6 million for
routine medical supplies (e.g., cotton balls, gloves, and incontinence items) on the same dates that
Medicare covered home health services, but the Medicaid claims data did not include enough
information to determine whether the supplies qualified for Medicare payment.

Progress of Implementation
In responding to our review, CMS said that it recognized the importance of preventing duplicate
Medicaid and Medicare billings. CMS's 2012 update of its response to this recommendation said
that since our report was issued, many States have been able to obtain Medicare crossover claims
data. In addition, CMS said it is working with States to refine and improve the integration of



                                                    Page 124
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                  Medicaid Program


Medicare claims information into States' Medicaid claims processing systems by using additional
data elements to correctly adjudicate duplicate Medicaid and Medicare claims for home health
services. Furthermore, CMS said it will conduct a special study in collaboration with a selected
State to identify suspected duplicate payments and payment aberrancies.
We continue to monitor the implementation of CMS's actions to ensure that Medicaid does not pay
home health providers for nonroutine medical supplies and therapeutic services already covered
under the Medicare benefit.

Primary OIG Report
    2008 MAY Duplicate Medicaid and Medicare Home Health Payments – Medical Supplies and
             Therapeutic Services. OEI-07-06-00640. May 2008. Full Text.

See Also
    2009 FEB Memorandum Report – Medicaid and Medicare Home Health Payments for Skilled
             Nursing and Home Health Aide Services. OEI-07-06-00641. Full Text.




Medicaid Improper Payments > Personal Care Services

Personal Care Services—Enforce Policies Prohibiting Payments for Personal Care
Services for Institutionalized Beneficiaries


  Recommendations To Be Implemented
       We recommend that CMS
          enforce Federal Medicaid payment policies that prohibit Medicaid reimbursement for
           personal care services (PCS) provided over a range of dates if the range includes dates
           on which the beneficiary was institutionalized and
          work with States to reduce erroneous Medicaid payments for PCS provided during
           institutional stays.
       Savings probable but not estimated.




The recommendations would help prevent the improper Federal Medicaid payments that occur
when States claim Federal reimbursement for PCS provided during institutional care stays.
An August 2008 OIG report revealed that although five States we reviewed reported having
Medicaid controls to prevent payments for PCS provided during institutional stays, the controls did
not fully prevent erroneous payments. In three States, we estimated nearly $11 million in a single
quarter may have been paid in error.




                                                      Page 125
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                   Medicaid Program


Additional Background >
PCS provide the elderly, people with disabilities, and individuals with chronic or temporary
conditions with the assistance they need to remain in their homes or communities. PCS are
currently offered as either a State Plan optional benefit or through various demonstrations and
waivers in 50 States. State Medicaid programs may reimburse the cost of PCS for individuals who
are not inpatients or residents of certain institutions but should not separately reimburse for PCS
furnished during institutional stays.

Progress of Implementation
CMS's 2012 update indicated that it is continuing to work with its regional offices and with the
States on a solution for disseminating information to ensure that Medicaid does not pay for
Medicare-paid services. In addition, CMS indicated that it has begun collecting information from
States on prepayment review procedures to detect PCS provided during institutional stays and
plans to publish States' best practices. CMS also indicated that it is preparing guidance to assist
States in educating providers regarding the prohibition against billing for PCS during institutional
stays.
We continue to monitor CMS’s progress in enforcing policies to reduce erroneous Medicaid
payments for PCS during institutional stays.

Primary OIG Report
    2008 AUG Payments Made in Error for Personal Care Services During Institutional Stays.
             OEI-07-06-00620. Full Text.

See Also
    Selected Audits of Other PCS-Related Issues:
    2012 JUN West Virginia Complied With Certain Federal Requirements for Most of the Personal
             Care Services Claimed for Its Aged and Disabled Waiver Program. A-03-11-00205.
             Full Text.
    2012 JAN Review of Medicaid Personal Care Claims Submitted by Providers in New Jersey.
             A-02-09-01002. Full Text.
    2011 NOV Review of Personal Care Services Claimed Under Maryland's Medicaid State Plan.
             A-03-11-00200. Full Text.
    2011 JUL Nebraska Medicaid Payments for Personal Care Services. A-07-10-03152. Full Text.
    2011 JUN Review of Medicaid Personal Care Services Claimed by Washington State.
             A-09-09-00030. Full Text.
    2011 JUN Review of Medicaid Personal Care Services Claims Submitted by Providers in North
             Carolina. A-04-10-04003. Full Text.
    2009 JUN Review of Medicaid Personal Care Services Claims Made by Providers in New York City.
             A-02-07-01054. Full Text.
    2008 NOV Partnership Review of Medicaid Claims Processed by Cerebral Palsy and Stavros for
             Personal Care Attendant Services Provided to Beneficiaries During Inpatient Stays.
             A-01-08-00001. Full Text.



                                                   Page 126
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                  Medicaid Program


     2008 OCT Medicaid-Funded Personal Care Services in Excess of24 Hours per Day.
              OEI-07-06-00621. Full Text.




Medicaid > Improper Payments > Personal Care Services

Personal Care Services—Ensure that Medicaid Claims Provided by Attendants
With Undocumented Qualifications Are Not Paid (New)


  Recommendations To Be Implemented
       We recommend that CMS work with States to
          ensure that Medicaid claims for PCS provided by attendants with undocumented
           qualifications are not paid and
          take action regarding the inappropriately paid claims identified in our review.
       Savings probable but not estimated.



The recommendations would encourage provider and supplier compliance with Federal and State
documentation requirements. Insufficiently documented claims are improper and should not be
paid.
A December 2010 OIG report of a 10‐State review revealed that Medicaid paid about $724 million
for PCS claims that we determined were inappropriate because PCS attendants’ qualifications were
undocumented. These claims represented 18 percent of Medicaid PSC claims in the 10 States. The
qualifications most often undocumented were background checks, age, and education.
We also estimated that Medicaid paid an additional 2 percent of claims inappropriately because the
respondents had no record of providing services to the beneficiaries. Respondents were agencies
or individuals that State Medicaid agency officials indicated we should contact to request
documentation to support attendants’ qualifications. We reviewed claims paid from September 1,
2006, through August 31, 2007.
Additional Background >
PCS provide the elderly, people with disabilities, and individuals with chronic or temporary
conditions with the assistance they need to remain in their homes or communities. PCS are
currently offered as either a State Plan optional benefit or through various demonstrations and
waivers in 50 States. Combined State and Federal Medicaid expenditures for PCS totaled $9.9 billion
in 2006, an increase of 20 percent from 2004. Although there are no Federal requirements for PCS
attendant qualifications, States are required to institute provider safeguards to protect the health,
welfare, and safety of Medicaid beneficiaries receiving PCS. Examples of safeguards include the
establishment of attendant qualifications, such as requiring criminal background checks and
establishing minimum age, health status, education, and training requirements.




                                                        Page 127
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                Medicaid Program


Progress of Implementation
CMS’s 2012 update described plans to work with States to ensure that Medicaid claims for PCS
provided by attendants who do not meet States’ qualifications are not paid. CMS said it will work
through the State plan amendment and waiver review process and other educational and
communication opportunities to address this recommendation. CMS said it will review the
information regarding the inappropriate claims we identified and take action based on that review.
We encourage CMS to follow through on its plans for implementing our specific recommendations.
We continue to monitor CMS’s progress.

Primary OIG Report
    2010 DEC Inappropriate Claims for Medicaid Personal Care Services. OEI-07-08-00430.
             Full Text.

See Also
    2012 JUN Review of New Mexico Medicaid Personal Care Services Provided by Clovis Homecare,
             Inc. A-06-09-00117. Full Text.
    2011        OIG’s Spotlight on Medicaid Personal Care Services, available on our Web site.
    2006 DEC States’ Requirements for Medicaid-Funded Personal Care Service Attendants.
             OEI-07-05-00250. Full Text.




                                                 Page 128
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                   Medicaid Program



 Protect the Health of Medicaid Children
According to CMS, over 42 million children were enrolled in Medicaid and/or the Children’s Health
Insurance programs for part or all of FY 2010, representing 5.4-percent growth over the previous
year. Over 34 million children were enrolled in Medicaid alone in FY 2010. The Early and Periodic
Screening, Diagnostic, and Treatment (EPSDT) benefit provides comprehensive and preventive
health care services for children under age 21 who are enrolled in Medicaid. EPSDT is key to
ensuring that children and adolescents receive appropriate preventive, dental, mental health,
developmental, and specialty services.




Medicaid > Children’s Health > Preventive Screening Services

Improve Medicaid Children’s Utilization of Preventive Screening Services


  Recommendations To Be Implemented
        We recommend that CMS
           require States to report beneficiaries’ vision and hearing screenings,
           collaborate with States and providers to develop effective strategies to encourage
            beneficiary participation in Medicaid’s Early and Periodic Screening, Diagnostic, and
            Treatment (EPSDT) screenings,
           collaborate with States and providers to develop education and incentives for
            providers to encourage complete medical screenings, and
           identify and disseminate promising State practices for increasing children’s
            participation in EPSDT screenings and providers’ delivery of complete medical
            screenings.




The recommendations would help reduce the risks to children’s health that arise from inadequate
screening and treatment programs. Services provided under EPSDT benefits are intended to screen,
diagnose, and treat children eligible for EPSDT services at early, regular intervals to avoid or
minimize childhood illness. The EPSDT services cover four health-related areas—medical, vision,
hearing, and dental.
A May 2010 OIG report revealed that Medicaid-covered children were not fully benefiting from
Medicaid’s EPSDT comprehensive screening services. Appropriate laboratory tests were the most
often missing component. Seventy-six percent of children (2.7 million children) in nine selected
States did not receive all the required medical, vision, and hearing screenings.




                                                        Page 129
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                   Medicaid Program


Additional Background >
Officials from all nine selected States identified strategies to improve participation in the EPSDT and
the completeness of medical screenings. The disconnect between States’ efforts to improve the
EPSDT program and the low number of children receiving required screenings is difficult to account
for, but indicates that additional efforts are required. Forty-one percent of children did not receive
any of the required medical screenings. More than half of children did not receive any required
vision or hearing screenings. Of the 55 percent of children in the nine States who received a
medical screening during the review period, 59 percent lacked at least one component of a
complete medical screening.

Progress of Implementation
In responding to our review, CMS said that it is undertaking efforts in conjunction with States and
national experts to improve the provision of EPSDT services. CMS also said that a National EPSDT
Improvement Workgroup had been formed and was tasked with making recommendations on
improving EPSDT data collection opportunities. CMS plans to encourage individual States to submit
promising practices for increasing participation in EPSDT screening and said it would post these on
its Web site.
We continue to monitor CMS’s implementation of our recommendations.

Primary OIG Report
    2010 MAY Most Medicaid Children in Nine States Are Not Receiving All Required Preventive
             Screening Services. OEI-05-08-00520. Full Text.

See Also
    2005 JUL Children’s Use of Health Services While in Foster Care – Common Themes.
             OEI-07-00-00645. Full Text.
    2005 JUN Children’s Use of Health Services While in Foster Care – New York.
             OEI-02-00-00362. Full Text.
    2005 JAN Children’s Use of Health Services While in Foster Care – Georgia.
             OEI-07-00-00644. Full Text.
    2004 AUG Children’s Use of Health Services While in Foster Care – North Dakota.
             OEI-07-00-00643. Full Text.
    2004 JUN Foster Care Children’s Use of Medicaid Services in Oregon.
             OEI-02-00-00363. Full Text.
    2004 FEB Children’s Use of Health Services While in Foster Care – Texas.
             OEI-07-00-00641. Full Text.
    2004 FEB Children’s Use of Health Services While in Foster Care – Illinois.
             OEI-07-00-00642. Full Text.
    2003 AUG Children’s Use of Health Services While in Foster Care – Kansas.
             OEI-07-00-00640. Full Text.
    2003 JUL Foster Care Children’s Use of Medicaid Services in New Jersey.
             OEI-02-00-00360. Full Text.



                                                   Page 130
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                   Medicaid Program



 Ensure the Adequacy of Data for Oversight
The Department and OIG rely heavily on the availability and completeness of data to ensure that the
over 300 departmental programs are operating as intended and to help identify instances of fraud,
waste, and abuse. The Department's programs compile an enormous amount of data on
beneficiaries, providers, drugs, equipment and supplies, the delivery of services, and the quality of
care. When these data are unavailable, are incomplete, or contain inaccuracies, program oversight
and monitoring activities are hindered. OIG identified the availability and quality of data for
effective oversight as one of the top challenges facing HHS in FY 2012.
OIG work has shown challenges in the Medicaid Statistical Information System (MSIS) in that the
data are not current, available, complete, and accurate. The MSIS is the only national database of
Medicaid claims and beneficiary eligibility information. CMS does not always enforce certain MSIS
data requirements, such as the submission of managed care encounter data. To conduct necessary
Medicaid oversight, OIG, CMS, and others conducting Medicaid research must sometimes request
data directly from each State.




Medicaid Oversight Data > Managed Care > Encounter Data

Managed Care—Enforce Federal Requirements for Submitting
Medicaid Managed Care Encounter Data


  Recommendation To Be Implemented
          We recommend that CMS enforce Federal requirements that States include managed
           care encounter data in Medicaid Statistical Information System (MSIS) submissions.




The recommendation would ensure that MSIS has accurate and complete data necessary for
oversight of Medicaid managed care.
A May 2009 OIG report revealed that the usefulness of the MSIS was limited because CMS did not
enforce encounter data requirements for all States. Encounter data are the primary records of
Medicaid services provided to beneficiaries enrolled in capitated Medicaid managed care. CMS
could develop system edits to ensure that States comply with MSIS requirements and that the data
are complete and meet quality expectations. The Affordable Care Act, § 6402(c) authorizes the
Secretary to withhold the Federal matching payments for States that fail to report enrollee
encounter data in the MSIS.
The Balanced Budget Act of 1997 (BBA) requires that Medicaid claims submitted to CMS “on or
after January 1, 1999, provide for electronic transmission of claims data in the format specified by
the Secretary of HHS and consistent with the MSIS." As the only national database of Medicaid
claims and beneficiary eligibility information, the MSIS is used by CMS to manage, analyze, and




                                                    Page 131
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                  Medicaid Program


disseminate data regarding Medicaid beneficiaries, services, and payments and is widely used for
research and policy analysis and for detecting fraud, waste, and abuse.

Progress of Implementation
CMS concurred with the recommendation. CMS’s 2011 update of its response to our
recommendation said that it intends to increase efforts to consistently enforce the Federal reporting
requirements for encounter data and that it will review statutory and regulatory authorities to
determine areas in which it can strengthen the reporting of these data. We continue to monitor
CMS's efforts to ensure that all States enter timely, accurate encounter data into the MSIS.

Primary OIG Reports
    2009 MAY Medicaid Managed Care Encounter Data – Collection and Use. OEI-07-06-00540.
             Full Text.
    2009 AUG MSIS Data Usefulness for Detecting Fraud, Waste, and Abuse. OEI-04-07-00240.
             Full Text.




                                                  Page 132
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                     Public Health Agencies



Public Health Agencies
Public health activities and programs represent the country’s primary defense against acute and
chronic diseases and disabilities and provide the foundation for the Nation’s efforts to promote and
enhance the health of the American people.



 Centers for Disease Control and Prevention
The Centers for Disease Control and Prevention (CDC) operates a health surveillance system to
monitor and prevent disease outbreaks, including bioterrorism; implements disease prevention
strategies; and maintains national health statistics.



Public Health > Centers for Disease Control and Prevention > Public Health Emergencies > Pandemics

Public Health Crises—Improve States’ and Localities’ Medical Surge
Preparedness for Pandemics


  Recommendation To Be Implemented
           We recommend that the Assistant Secretary for Preparedness and Response (ASPR),
            in collaboration with the Centers for Disease Control and Prevention (CDC), work with
            States and localities to improve their efforts within each of the five components of
            medical surge that we reviewed.



The recommendation would help reduce the large-scale threats to public health that would occur
under pandemic conditions, such as widespread influenza.
A September 2009 OIG report revealed that all of the 10 localities that we reviewed had established
partnerships to prepare for a medical surge; however, the degree to which coordination occurred
varied. Fewer than half of the localities had started to recruit medical volunteers, and none of the
five States that we reviewed had implemented an electronic system to manage volunteers. Similarly,
the 10 localities had acquired limited medical equipment for a pandemic, but only 3 of the 5 States
had electronic systems to track available beds and equipment.
As of late summer 2008, most of the localities were in the early stages of planning for alternate care
sites, and most had not identified guidelines for altering triage, admission, and patient care during a
pandemic. Although the localities conducted medical surge exercises, none consistently
documented the lessons learned.
Additional Background >
A pandemic would affect much of the country at the same time, so medical resources—such as
hospital beds, medical equipment, and personnel—likely would be scarce. The ability to rapidly
respond to an increased demand for medical resources is often referred to as a “medical surge.” The


                                                       Page 133
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                              Public Health Agencies


public health emergency caused by an outbreak of human cases of H1N1 influenza has highlighted
the need for States and localities to be prepared for a medical surge.
The five components of medical surge that we reviewed were: coordinating with and involving a
wide array of stakeholders in medical surge and pandemic planning; recruiting, registering, and
training medical volunteers for use in a pandemic; managing medical equipment being stockpiled
for a public health emergency, such as a pandemic; planning for alternate care sites for use during a
pandemic; and identifying and adopting guidelines for altering triage, admission, and patient care
during a pandemic.

Progress of Implementation
ASPR indicated that it was taking steps toward implementation.
•   In October 2009, ASPR said that it had updated its Medical Surge Capacity and Capability
    Handbook and added hospital reporting requirements to aid State health care system planning.
•   In December 2010, ASPR said that it was engaging with other agencies and Departments
    administering health-related preparedness grants as a primary partner in a “grant alignment”
    project designed to streamline all Federal grant mechanisms and to maximize the efficiency of
    grant management processes to improve preparedness and response outcomes.
We encourage ASPR to follow through on its efforts. We continue to monitor ASPR’s progress in
implementing our recommendation.

Primary OIG Report
    2009 SEP State and Local Pandemic Influenza Preparedness – Medical Surge.
             OEI-02-08-00210. Full Text

See Also
    2012 JUN Medicaid Vaccines for Children Program: Vaccine Storage and Management.
             OEI-04-10-00430. Full Text.




                                                  Page 134
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                  Public Health Agencies



 Food and Drug Administration
The Food and Drug Administration (FDA) is responsible for ensuring the safety of the Nation’s food,
drugs, medical devices, biologics, cosmetics, and animal food and drugs.



Public Health > Food and Drug Administration > Ethics Oversight

Ethics Oversight—Ensure That Clinical Investigators Disclose All
Financial Interests


  Recommendations To Be Implemented
       We recommend that FDA
           require that sponsors submit financial information as part of the pretrial application
            process,
           ensure that sponsors submit complete financial information for all their clinical
            investigators, and
           ensure that FDA reviewers consistently review financial information and take action
            in response to disclosed financial interests by using a review template and providing
            guidance and training to reviewers.




The recommendations would improve FDA’s ability to identify financial interests between clinical
investigators and drug sponsors that could create a potential for bias and compromise the safety of
human subjects and the integrity of research data.
Sponsors (often pharmaceutical or device companies) are responsible for developing and testing
investigational products in clinical trials. Sponsors are required to disclose all clinical investigators’
financial interests to FDA in the marketing application.
A January 2009 OIG report revealed that in FY 2007, FDA could not determine whether sponsors
had submitted financial information for all clinical investigators because it did not have a complete
list of the clinical investigators. We found that FDA approved 42 percent of marketing applications
in FY 2007 that were missing financial information. In almost one-third of marketing applications,
FDA reviewers did not document a review of financial interest information, and neither FDA nor
sponsors took action on 20 percent of marketing applications with disclosed financial interests.
When FDA did act, it did not consistently take action in response to disclosed financial interests.
Additional Background >
Although sponsors must collect financial information from clinical investigators before the trials,
sponsors submit financial information to FDA only when they submit their marketing applications
after the clinical trials end. For each clinical investigator, sponsors submit a financial form either



                                                       Page 135
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                 Public Health Agencies


certifying that the investigator does not have a financial interest regarding the outcome of the trial
or disclosing such a financial interest.

Progress of Implementation
In responding to our review and with regard to requiring sponsors to submit financial information
for clinical investigators during the pretrial application process, FDA emphasized that collecting
financial information before clinical trials is the sponsors’ responsibility.
•   As of February 2009, FDA required entities submitting marketing applications to include a
    complete list of clinical investigators and either certify to the absence of reportable financial
    arrangements or disclose the nature of the financial arrangements.
•   In May 2011 FDA issued draft guidance, Guidance for Clinical Investigators, Industry, and FDA
    Staff – Financial Disclosure by Clinical Investigators. (76 Fed. Reg. 30175, May 24, 2011.) FDA
    also updated the Compliance Program Guidance Manual chapter entitled “Clinical Investigator
    Inspections.”
We continue to recommend that sponsors submit financial information as part of the pretrial
application process and will monitor FDA's progress in implementing this recommendation. The
proposed revisions are aimed at strengthening FDA's oversight and review of clinical investigators'
financial disclosures. Once FDA’s guidance is finalized, OIG will consider the recommendations
about clinical investigators’ information and FDA’s reviewers to be closed.

Primary OIG Report
    2009 JAN The Food and Drug Administration’s Oversight of Clinical Investigators’ Financial
             Information. OEI-05-07-00730. Full Text

See Also
    2007 SEP The Food and Drug Administration’s Oversight of Clinical Trials. OEI-01-06-00160.
             Full Text.
    2000 JUN FDA Oversight of Clinical Investigators. OEI-05-99-00350. Full Text.




                                                    Page 136
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                  Public Health Agencies




Public Health > Food and Drug Administration > Safety of Medical Devices

Safety of Medical Devices—Use Adverse Event Reports To Detect and Address
Safety Concerns


  Recommendations To Be Implemented
       We recommend that FDA
           develop a clear protocol for reviewing adverse event reports that specifically
            addresses following up with manufacturers who routinely submit reports late or with
            incomplete information and enhancing outreach strategies to reduce user facility
            underreporting and
           seek legislative authority to eliminate the regulation for user facilities to submit
            redundant annual reports.




The recommendations would reduce the public safety risks that arise when manufacturers and
facilities that use medical devices delay reporting or fail to report to FDA adverse events associated
with medical devices.
Adverse events include deaths, serious injuries, malfunctions, and events that require remedial
action to prevent an unreasonable risk of substantial harm to the public. FDA’s adverse event
reporting system provides FDA and manufacturers with a means to identify and monitor significant
adverse events involving medical devices. Regulations require that manufacturers of medical
devices and facilities that use these devices (user facilities) submit reports to FDA within specific
timeframes ranging from 5 days to 1 year following the occurrence of an adverse event.
An October 2009 OIG report revealed that FDA has not documented followup on adverse events, nor
does it consistently perform its first-time reading of adverse event reports in a timely manner. In
addition, FDA rarely acts when manufacturers and user facilities submit reports late. The inability
to obtain complete and usable information in adverse event reports hinders analysts’ review of the
reports, and FDA makes limited use of annual reports. Overall, FDA received twice as many adverse
event reports for medical devices in 2007 as in 2003; however, the number of some types of reports,
such as 5-day reports, decreased. Although manufacturers submitted most adverse event reports
on time, many 5-day manufacturer reports and 5-day user facility reports were late.
Additional Background >
A clear protocol is needed to ensure that all responsible parties report and take appropriate action
in response to adverse events associated with medical devices. We recommended that FDA seek
legislative authority to eliminate the requirement for user facilities to submit annual reports
because, other than a count of total adverse event reports, all the information in the annual reports
is redundant to the originally submitted reports. Eliminating this requirement (21 U.S.C.
§ 360i(b)(c)) would decrease the regulatory burden on user facilities, as well as the review burden




                                                       Page 137
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                               Public Health Agencies


on FDA. Instead, FDA should emphasize the importance of timely and appropriate reporting of all
injuries and deaths by user facilities.

Progress of Implementation
In its comments on our review, FDA said that it would develop a clear review protocol that
addresses the needs that our report identified. FDA said it is implementing a new database, FDA
Adverse Event Reporting System (FAERS), which should allow for more extensive documentation
and followup on adverse events and permit FDA to more readily identify late and incomplete
reports.
The database is designed to support FDA's postmarketing safety surveillance program for drug and
therapeutic biologic products. If a manufacturer receives an adverse event report, it is required to
send the report to FDA as specified by regulations. The reports received directly and the reports
from manufacturers are entered into FAERS.
Although the new FAERS database provides more data for analysis and oversight, FDA has not
demonstrated that it addresses our recommendation about establishing a protocol to ensure
followup with late-reporting manufacturers and to reduce underreporting.
We continue to monitor FDA’s progress in implementing the recommendations we specified,
including seeking statutory authority to eliminate redundant annual reporting that poses a burden
to manufacturers.

Primary OIG Report
     2009 OCT Adverse Event Reporting for Medical Devices. OEI-01-08-00110. Full Text



Public Health > Food and Drug Administration > Food Safety

Food Safety—Improve and Strengthen Food Facilities’ Compliance With Records
Requirements for Traceability of Food Products


  Recommendations To Be Implemented
  We recommend that FDA
           seek statutory authority to ensure that facilities are complying with record
            requirements,
           work with the food industry to develop additional guidance to strengthen traceability,
           address issues related to mixing raw food products from a large number of farms, and
           conduct education and outreach to inform the food industry about its records
            requirements.




                                                      Page 138
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                Public Health Agencies


The recommendations would facilitate effective traceability of food products when FDA has
reasonable belief that a product is adulterated and presents a serious threat to public health.
Traceability is the ability to follow the movement of food products through the stages of production,
processing, and distribution. FDA is not authorized to request facilities’ records regarding
traceability during routine inspections. Traceability is often needed in product recalls and seizures
to identify the sources of contamination and the recipients of the contaminated food.
A March 2009 OIG report noted that we were able to trace only 5 of 40 selected products through
each stage of the food supply chain. For most products, we were able to identify facilities that likely
handled the products. Several factors prevented us from tracing products through the food supply
chain, including that facilities did not always maintain lot-specific information; products were not
labeled with required information; and raw products from multiple farms were comingled. Fifty-
nine percent of the facilities we reviewed did not meet FDA’s record requirements about sources,
recipients, and transporters, and one quarter of the food facilities were not aware of FDA’s records
requirements. We could estimate only a range of deliveries (from one or more facilities) that may
have included the products we purchased.
Additional Background >
Beginning in 2005, FDA required certain food facilities to maintain records identifying the sources,
recipients, and transporters of food products. These records enable FDA to trace articles of food
through each stage of the supply chain—from retail outlets back to farms—if FDA has a reasonable
belief that a food product is adulterated and presents a serious health threat.

Progress of Implementation
In responding to our review, FDA said it would consider seeking statutory authority to ensure that
facilities are complying with record requirements and described its efforts to work with the food
industry to conduct education and outreach.
•   FDA’s February 2011 update noted that it has taken several steps to improve recordkeeping and
    food tracing. For example, FDA completed a pilot study on tracing in the tomato industry and is
    planning several other pilot studies to assess the feasibility of different tracing systems and
    technologies. FDA described its efforts to work with the food industry to conduct education and
    outreach.
•   FDA’s December 2011 update that it and USDA held public meetings in December 2009 on
    whole chain traceability. The public comment period associated with these meetings closed
    March 10, 2010 and FDA indicated it was still reviewing the comments received.
We acknowledge the efforts FDA has taken and continue to monitor its progress in implementing
our recommendations. Two of the report’s six original recommendations have been resolved. We
encourage FDA to address the remaining four recommendations and emphasize seeking statutory
authority to ensure that facilities are complying with the record requirements related to food
traceability.

Primary OIG Report
    2009 MAR Traceability in the Food Supply Chain. OEI-02-06-00210. Full Text




                                                   Page 139
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                Public Health Agencies


See Also
     2009 MAR OIG Testimony Before the House Committee on Appropriations, Subcommittee on
              Agriculture, Rural Development, Food and Drug Administration, and Related
              Agencies. “Traceability in the Food Supply Chain.” Testimony




Public Health > Food and Drug Administration > Food Safety

Food Safety—Ensure That Food Facility Registry Provides Complete
and Accurate Information


  Recommendations To Be Implemented
       We recommend that FDA
           consider seeking statutory authority to impose civil penalties through administrative
            proceedings against facilities that either fail to register or fail to provide accurate
            information for the registry and
           work with the food industry to conduct additional education and outreach activities to
            inform food facilities about the registry requirements.




The recommendations would help reduce the risk that FDA would not be able to quickly locate
facilities during an outbreak of foodborne illness.
Section 305(a) of the Public Health Security and Bioterrorism Preparedness and Response Act of
2002 requires certain food facilities to register with FDA. The purpose of this registration is to
provide FDA with sufficient and reliable information about food facilities so that it can locate the
facilities for inspection.
A December 2009 OIG report raised questions about the accuracy and utility of the food facility
registry. We found that 52 percent of the facility managers at the selected facilities reported that
they were unaware of FDA’s registry requirements. Seven percent either failed to register or failed
to cancel their registrations with FDA, as required. Additionally, 48 percent of selected facilities
either failed to provide accurate information when they first registered or failed to provide accurate
information after changes in the facility’s information, as required. For each of these facilities, FDA
was missing information or had inaccurate information, which could hinder FDA’s ability to identify
food facilities that may be linked to an outbreak of foodborne illness.
As of December 2003, FDA began requiring food facilities that manufacture, process, pack, or hold
food for consumption in the United States to register their facilities with FDA. In many cases,
because providing certain information in the registry is optional, facilities failed to provide
information that may be useful to FDA in an emergency.




                                                      Page 140
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                   Public Health Agencies


Progress of Implementation
In responding to our review, FDA noted that the study confirmed problems that the agency has
encountered as well as the need for additional statutory authority.
Regarding the first recommendation to seek statutory authority to impose civil penalties, the food
safety bill passed by the House of Representatives in the 111th Congress (H.R. 2749, the Food Safety
Enhancement Act) would have authorized (in section 135) civil penalties for food-related violations
of section 301 (prohibited acts) of the Federal Food, Drug, and Cosmetic Act. However, this civil
penalty authority was not included in the FDA Food Safety Modernization Act (FSMA, P.L. 111-353)
that was ultimately enacted. FDA indicated that it does not currently plan to pursue this authority;
however, it remains supportive of this and will look for opportunities to pursue this in the longer
term.
In its January 2011 update, FDA indicated that it continues activities to inform food facilities about
the registry requirements. An outreach strategy will be developed and the necessary documents
will be created or updated accordingly.
We continue to monitor FDA’s progress in addressing the recommendations we specified. Although
the FDA Food Safety Modernization Act implemented one of the report’s recommendations (that
facilities be required to reregister on a routine basis), we continue to emphasize the need for FDA to
have additional authority to penalize noncompliant facilities.

Primary OIG Report
     2009 DEC FDA’s Food Facility Registry. OEI-02-08-00060. Full Text




Public Health > Food and Drug Administration > Food Safety

Food Safety—Strengthen Inspections of Domestic Food Facilities To Ensure
Safety and Compliance


  Recommendations To Be Implemented
       We recommend that FDA
           provide additional guidance about when it is appropriate to lower
            official-action-indicated (OAI) classifications;
           take appropriate actions against facilities with OAI classifications, particularly those
            that have histories of violations;
           ensure that violations are corrected for all facilities that receive OAI classifications;
            and
           consider seeking statutory authority that would allow FDA to impose civil penalties
            through administrative proceedings.




                                                      Page 141
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                Public Health Agencies


The recommendations would reduce the risks to public health that arise when FDA does not
regularly inspect food facilities’ compliance with Federal requirements, does not take or follow up
on corrective actions in a timely manner, and does not implement enforcement mechanisms.
An April 2010 OIG report revealed that many food facilities went 5 years or longer without an FDA
inspection. There was a large decline in the number of food facility inspections conducted by FDA
over a 5-year period, as well as a decline in the number of violations identified by FDA inspectors.
Further, when violations were identified, FDA did not routinely take swift and effective action to
ensure that these violations were remedied. Specifically, for 36 percent of the facilities that received
OAI classifications, FDA took no additional steps to ensure that the violations were corrected.
Additional Background >
FDA inspects food facilities to ensure food safety and compliance with regulations. According to
FDA guidance, when FDA identifies violations that are significant enough to warrant an OAI
classification, some type of regulatory action should be recommended. This action could include
issuing a warning letter; holding a regulatory meeting; or initiating an enforcement action, such as a
seizure or an injunction.

Progress of Implementation
In responding to our review, FDA agreed with our recommendation to provide additional guidance
about when it is appropriate to lower OAI classifications.
In its December 2011 update, FDA noted that it had made progress on the two recommendations
designed to improve FDA's method of handling OAI classifications. Specifically, FDA initiated the
OAI Follow-up Inspection Improvement Project, which ensures that FDA takes appropriate actions
against facilities with OAI classifications and ensures that violations are corrected.
Notably, FDA recommended a 6-month timeframe for followup inspections of food facilities with
OAI classifications. FDA has not provided documentation of the full implementation of this
initiative.
Regarding the recommendation to seek statutory authority to impose civil penalties, the food safety
bill passed by the House of Representatives in the 111th Congress (H.R. 2749, the Food Safety
Enhancement Act) would have authorized (in section 135) civil penalties for food-related violations
of section 301 (prohibited acts) of the Federal Food, Drug, and Cosmetic Act. However, this civil
penalty authority was not included in the FDA Food Safety Modernization Act (FSMA) that was
ultimately enacted. FDA indicated that it does not currently plan to pursue this authority; however,
it remains supportive of this and will look for opportunities to pursue this in the longer term.
We will continue to monitor FDA’s implementation of the recommendations we specified.

Primary OIG Report
    2010 APR FDA Inspections of Domestic Food Facilities. OEI-02-08-00080. Full Text

See Also
    2011 DEC Vulnerabilities in FDA’s Oversight of State Food Facility Inspections.
             OEI-02-09-00430. Full Text.)




                                                   Page 142
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                Public Health Agencies




Public Health > Food and Drug Administration > Food Safety

Food Safety—Ensure That Food Facility Inspections Conducted by State Agencies
Are Complete, Properly Documented, and Appropriately Paid For (New)


  Recommendations To Be Implemented
        We recommend that FDA
           ensure that all contract inspections are completed, properly documented, and
            appropriately paid for;
           ensure that contract inspections are properly classified in accordance with FDA
            guidance;
           ensure that all inspection violations are remedied by routinely tracking all actions
            taken to correct violations;
           ensure that the minimum audit rate is met in all States; and
           address any systemic problems identified by audits.




The recommendations would help ensure the quality and effectiveness of food facility inspections
and audits conducted by State agencies under contract with FDA.
FDA is responsible for safeguarding the Nation’s food supply and for routinely inspecting food
facilities. In addition to conducting its own inspections, FDA relies on State agencies to conduct
inspections on its behalf. A December 2011 OIG report revealed that although FDA has increasingly
relied on States to inspect food facilities, we identified significant weaknesses in FDA's oversight of
these inspections.
We found that in eight States, FDA failed to ensure that the required number of inspections was
completed. Moreover, FDA paid for many inspections that were incomplete. In addition, FDA did
not ensure that all inspections were properly classified or that all inspection violations were
remedied. We found that FDA officials were often unclear about how to properly classify contract
inspections. Also, FDA officials reported that when States are responsible for correcting violations,
FDA was not always informed about actions taken by the States. As a result, FDA was unable to
ensure that all inspection violations were remedied. Finally, FDA failed to complete the required
number of audits in one-third of the States with inspection contracts.
Additional Background >
FDA often enters into contracts with State agencies responsible for ensuring food safety. Each
contract includes the number of food facility inspections the State will conduct for FDA and the
amount the State will be paid for each inspection. During an inspection, State inspectors may
identify potential violations of food safety laws and regulations. These violations are recorded in
the inspection report. On the basis of the inspection report, FDA generally assigns one of three



                                                       Page 143
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                 Public Health Agencies


classifications: official action indicated (OAI), voluntary action indicated (VAI), or no action
indicated (NAI).

Progress of Implementation
Since the issuance of this report, two State agencies have informed OIG of discrepancies between
the number of inspections reported in FDA data systems and that in State records. As a result of this
new information, FDA said it is implementing new processes and quality checks to ensure that
future contract inspections are received , accounted for, and accurately entered into FDA data
systems in a timely manner.
We will continue to monitor FDA’s progress in implementing our recommendations.

Primary OIG Report
     2011 DEC Vulnerabilities in FDA’s Oversight of State Food Facility Inspections.
              OEI-02-09-00430. Full Text.



 Health Resources and Services Administration
The Health Resources and Services Administration (HRSA) maintains a safety net of health services
for people who are low income or uninsured or who live in rural areas or urban neighborhoods
where health care is scarce.



Public Health > Health Resources and Services Administration > Patient Safety

Patient Safety—Increase Reporting of Medical Malpractice Cases to the National
Practitioner Data Bank


  Recommendations To Be Implemented
           We recommend that Health Resources and Services Administration (HRSA) and the
            National Institutes of Health (NIH) each
                o    implement corrective action to address unreported cases and
                o    improve internal controls involving file management.
           HRSA should also assign staff members to assume responsibility for addressing
            practitioner questions/complaints and data entry of reports into the National
            Practitioner Data Bank (NPDB).




The recommendations would help ensure the completeness and usefulness of the NPDB. Pursuant
to an HHS policy directive issued on October 15, 1990, all settled or adjudicated medical
malpractice cases involving HHS must be reported to the NPDB.


                                                       Page 144
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                             Public Health Agencies


An October 2005 OIG report revealed that as of October 2004, HHS agencies had failed to report as
many as 474 medical malpractice cases to the NPDB. Individual agency underreporting was as
follows:
•   IHS, 290 cases
•   HRSA, 179 cases
•   NIH, 5 cases
This underreporting was caused by a number of factors, including lost medical malpractice files;
incomplete information in medical malpractice files; a decision by the HHS peer review entity, the
Medical Claims Review Panel, not to identify practitioners who met the standard of care (a decision
that was inconsistent with policy); and the failure to replace a key Program Support Center claims
official or to reassign the person’s reporting duties.

Progress of Implementation
Before we issued our October 2005 report, IHS started reporting cases in which standards of care
were not met. HRSA also started reporting such cases soon thereafter. HRSA’s Administrator
indicated that HHS was developing a policy on reporting cases in which standards of care were not
met.
•   As of April 2008, HRSA had submitted 297 reports to NPDB. As of April 2008, NIH had not
    submitted any reports. In March 2009, HRSA informed OIG that it had submitted 17 medical
    malpractice payment reports between January 1 and December 31, 2008.
•   In December 2010, HRSA said that it submitted 22 medical malpractice payment reports to
    NPDB in FY 2010. In December 2011, HRSA stated that it worked with IHS to draft a new
    Medical Claims Review Panel charter to increase NPDB reporting. That same month, NIH said
    that it will not submit reports to NPDB until a revised departmental policy is issued. We have
    not been informed as to the status of finalizing the charter.
We continue to monitor the implementation of our recommendations to HRSA and NIH, including
the development of departmental policy by HRSA and NIH's reporting to NPDB.

Primary OIG Report
    2005 OCT HHS Agencies' Compliance With the National Practitioner Data Bank Malpractice
             Reporting Policy. OEI-12-04-00310. Full Text




                                                  Page 145
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                    Public Health Agencies




Public Health > Health Resources and Services Administration > Wasteful Spending > 340B Drug Program

Wasteful Spending—Eliminate Excessive Costs in the 340B Drug Pricing Program


    Recommendations To Be Implemented
        We recommend that HRSA
           establish detailed standards for the calculation of 340B ceiling prices,
           ensure that entities are charged at or below the 340B ceiling price, and
           provide participating entities with secure access to certain pricing data to help
            approximate the 340B ceiling prices.
        Savings – We estimated savings based on $3.9 million in overpayments by 340B entities in
        1 month in 2005, multiplied by 12 to calculate savings for 1 year. Indirect savings to HHS
        are likely but have not been estimated.




The recommendations would help reduce the wasteful spending by certain federally supported
entities for prescription drugs that occurs because of deficiencies in the Government’s management
and oversight of the 340B Drug Pricing program.
Section 340B of the Public Health Service Act created the 340B Drug Discount Program to lower
drug prices for more than 15,000 safety-net entities, such as community health centers, critical
access hospitals, and children’s hospitals.
An October 2005 OIG report revealed that because of systemic problems with the accuracy and
reliability of the Government’s record of 340B ceiling prices, HRSA could not adequately oversee the
340B Drug Pricing Program. HRSA lacks the oversight mechanisms and authority to ensure that
340B entities pay at or below the 340B ceiling price. Participating entities cannot independently
verify that they receive the correct 340B discount due to confidentiality provisions.
Additional Background >
A July 2006 followup report revealed that 14 percent of purchases made by 340B entities exceeded
the 340B ceiling price, resulting in $3.9 million in projected overpayments for a single month, June
2005.

Progress of Implementation
HRSA has taken some positive steps toward implementing our recommendations as follows.
•    In April 2007, HRSA said that it had implemented a 1-year 340B Drug Pricing Program pilot
     project requesting manufacturers to voluntarily submit their prices for comparison with the
     ceiling price.




                                                      Page 146
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                             Public Health Agencies


•   In September 2009, HRSA reported that its pilot project revealed that apparent discrepancies
    between the manufacturer’s price and the 340B ceiling price were primarily because of
    differences in the package sizes that were being compared.
•   In 2010, the Patient Protection and Affordable Care Act (Affordable Care Act), § 7102, directed
    the Secretary of HHS to improve manufacturer compliance with 340B reporting rules, including
    verifying the accuracy of ceiling prices, establishing a system for manufacturers to refund
    overcharges, and providing 340B participating entities with access to ceiling prices.
We continue to monitor HRSA’s implementation the recommendations we specified.

Primary OIG Reports
    2005 OCT Deficiencies in the Oversight of the 340B Drug Pricing Program.
             OEI-05-02-00072. Full Text.

See Also
    2011 JUN State Medicaid Policies and Oversight Activities Related to 340b-Purchased Drugs.
             OEI-05-09-00321. Full Text.
    2006 JUL    Review of 340B Prices. OEI-05-02-00073. Full Text.
    2005 DEC Testimony of Stuart Wright, Deputy Inspector General or Evaluation and
             Inspections, before the House Committee on Energy and Commerce, Subcommittee
             on Oversight and Investigations on the “340B Program.” Testimony.



 Indian Health Service
The Indian Health Service (IHS) provides or funds health care services for American Indians and
Alaska Natives.




                                                 Page 147
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                     Public Health Agencies




Public Health > Indian Health Service > Wasteful Spending > Contract Health Services

Wasteful Spending—Reduce Overpayments for Contract Health Services Hospital
Claims and Cap Payments for Nonhospital Services at Medicare Rates


  Recommendations To Be Implemented
           We recommend that IHS seek legislative authority to cap payments for Contract
            Health Services (CHS) nonhospital services at the Medicare rate for those services.
        Savings– We estimated that if IHS and tribal payments for nonhospital claims were capped
        at the Medicare rate, IHS and tribes could have saved as much as $13 million in one
        calendar quarter: January – March 2008.




The recommendation would reduce the wasteful spending that occurs because historically IHS and
tribes have had difficulty negotiating rates similar to Medicare rates for CHS because of the
relatively small number of American Indians and Alaska Natives and because there are few private
providers in rural areas.
IHS contracts with private providers, such as hospitals and physicians, to deliver emergency or
specialty services to eligible Indians when an IHS or a tribal facility is unable to provide the
necessary care. The passage of an MMA provision helped ensure lower rates for hospital services.
A separate provision may be necessary to ensure lower rates for nonhospital services.
A September 2009 OIG report revealed that IHS and tribes paid above the Medicare rate for
22 percent of hospital claims. As a result, IHS and tribes overpaid $1 million for hospital claims
between January and March 2008. We also determined that if IHS and tribal payments for
nonhospital claims were capped at the Medicare rate, IHS and tribes could have saved as much as
$13 million between January and March 2008. Savings from claims over the Medicare rate could
have paid for about 41,000 more nonhospital claims between January and March 2008 that might
otherwise have been deferred or denied. Moreover, IHS and tribes paid above Medicare rates for 71
percent of nonhospital claims, most of which were for physician services.
Additional Background >
Pursuant to the Medicare Prescription Drug, Improvement, and Modernization Act of 2003 (MMA)
and its implementing regulations, all Medicare-participating hospitals must accept reimbursement
no greater than the Medicare rate as payment in full for patients eligible for CHS contracts.
Nonhospital providers, including physicians, are not covered by the MMA provision. We reviewed
the extent to which IHS and tribes paid above the Medicare rate for CHS hospital claims.
Whatever method IHS uses to cap payments reasonably and accurately should be determined after
careful determination of the impact of the new rates on the provider community, as well as other
potential barriers to implementing the new rates.




                                                        Page 148
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                          Public Health Agencies


Progress of Implementation
In its responding to our review, IHS said that it will continue to meet with tribes and tribal
organizations to develop a plan to cap payments for CHS nonhospital services.
We encourage IHS to follow through on its efforts. We continue to monitor IHS’s implementation of
our recommendation.

Primary OIG Report
     2009 SEP IHS Contract Health Services Program – Overpayments and Potential Savings.
              OEI-05-08-00410. Full Text




Public Health > Indian Health Service > Quality of Care > Mental Health and Dialysis Services

Quality of Care—Improve Access to Mental Health and Dialysis Services at IHS
and Tribal Facilities (New)


  Recommendations To Be Implemented
        The Indian Health Service (IHS) should provide guidance and technical assistance to
           help tribes explore potential partnerships with non-American-Indian-and-Alaska-
            Native (AI/AN) providers of community mental and behavioral health services,
           help IHS and tribal facilities offer alternative treatments for dialysis services,
           continue to expand its telemedicine capabilities for mental health services,
           develop a plan and provide expertise to assist tribes in expanding dialysis services,
            and
           create a database of all IHS and tribal health care facilities.




The recommendations would reduce the risks to quality of care that occur when IHS guidance to
tribes is insufficient to ensure optimal use of available external resources, alternative treatments,
telemedicine capabilities, and other expansions of care. The last recommendation would improve
the quality of data needed formulate a comprehensive approach to Indian health care reform” and
provide planning information relative to the distribution of health services for AI/ANs throughout
the country.
Compared to other populations in the United States, AI/ANs experience a disproportionately high
rate of mental and behavioral health challenges and a high incidence of end stage renal disease. IHS
is responsible for providing Federal health services to AI/ANs. IHS operates from 12 Area Offices
across the country to oversee the delivery of health services to members of federally recognized
tribes eligible for IHS health care.



                                                          Page 149
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                 Public Health Agencies


We conducted two evaluations of AI/ANs' access to mental health and kidney dialysis services at
IHS and tribal health facilities. Two September 2011 OIG reports presented the results of these
evaluations.
•   Mental Health Services. Of the 630 IHS and tribal facilities, 514 provide some type of mental
    health service. Facilities that do not provide mental health services refer clients to other
    providers either outside the AI/AN community or on the reservation. Staffing issues and
    shortages of highly skilled providers limit AI/ANs’ access to mental health services. Physical,
    personal/social, and economic challenges of AI/ANs may affect access to mental health services.
•   Kidney Dialysis Services. Only 20 of 506 IHS and tribal facilities reported that kidney dialysis
    services are provided at their facilities; most AI/ANs receive dialysis services at non-
    IHS/nontribal dialysis facilities. Of the facilities that did not provide dialysis services,
    56 percent reported that they assist in referring their patients to other facilities, both IHS/tribal
    and non-IHS/nontribal. The remoteness of dialysis facilities can affect the availability of
    services and create hardships for AI/ANs. Most IHS and tribal facilities do not provide kidney
    dialysis services because of a lack of resources and small patient populations. Finally, many IHS
    and tribal facilities assist tribal members in accessing dialysis services by providing
    transportation and expanding access to specialists.

Progress of Implementation
In its response to our review, IHS outlined actions it intends to take to implement our
recommendations.
Regarding the mental health report, IHS said that it will collaborate with the Substance Abuse and
Mental Health Services Administration (SAMHSA) to develop written guidance that addresses
mental and behavioral health service gaps and lack of coordination between States, IHS, tribal
facilities, and non-AI/AN providers. IHS also said that it will provide technical assistance to tribes
regarding Federal reimbursement policies for eligible AI/ANs and that it will assist tribes in
collaborating with SAMHSA, States, and non-AI/AN providers to address the challenges of obtaining
culturally sensitive services for AI/AN patients.
Regarding the dialysis report, IHS said that it will conduct a tribal consultation process to determine
whether tribes need increased centralized IHS assistance in expanding dialysis services and offering
alternative treatments for dialysis services.
We continue to monitor IHS’s progress toward implementing the recommendations we specified.

Primary OIG Reports
    SEP 2011 Access to Mental Health Services at Indian Health Service and Tribal Facilities.
             OEI-09-08-00580. Full Text.
    SEP 2011 Access to Kidney Dialysis Services at Indian Health Service and Tribal Facilities.
             OEI-09-08-00581. Full Text.




                                                    Page 150
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                Public Health Agencies



 National Institutes of Health
The National Institutes of Health (NIH) supports medical and scientific research examining the
causes of and treatments for diseases, such as cancer, human immunodeficiency virus (HIV), and
acquired immunodeficiency syndrome (AIDS).



Public Health > National Institutes of Health > Ethics Oversight

Ethics Oversight—Increase Oversight of Grantees’ Management of Financial
Conflicts of Interest in Research


    Recommendations To Be Implemented
        We recommend that NIH increase oversight to ensure that grantee institutions
           maintain proper financial interest documentation,
           take appropriate actions against researchers who do not follow institutions' policies
            and procedures, and
           provide adequate oversight of subgrantee compliance.
        NIH should also develop and disseminate guidance on methods to verify researchers'
        financial interests.




The recommendations would improve NIH’s ability to identify financial interests that could create a
potential for bias and compromise the safety of human subjects and the integrity of research data.
Federal regulations establish standards to ensure that the design, conduct, or reporting of research
funded under Public Health Service (PHS) grants is not biased by any conflicting financial interest of
an investigator.
•    A January 2008 OIG report examined the extent to which NIH oversees grantee institutions’
     financial conflicts of interest for FY 2004 through FY 2006. We found that NIH’s primary
     method of oversight was to rely on grantees’ assurances that financial conflict-of-interest
     regulations were being followed.
•    A November 2009 OIG report examined the nature of financial conflicts of interest reported to
     NIH in FY 2006 and the ways in which grantee institutions managed, reduced, or eliminated
     these conflicts. We found a number of vulnerabilities.
Additional Background >
Federal regulations require each institution that receives NIH funds to have a written policy for
identifying investigators’ financial conflicts of interest and ensuring that such conflicts are managed,
reduced, or eliminated. Of NIH’s 27 Institutes and Centers, 24 have grant-making authority and are
responsible for managing and overseeing grants. Grantees must inform their respective funding


                                                         Page 151
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                             Public Health Agencies


institutes of any financial conflicts of interest before spending any NIH grant funds. Conflicts
identified during the grant period must be reported to the institutes within 60 days.

Progress of Implementation
In August 2011, NIH published a final rule revising regulations covering financial conflicts of
interest on the part of investigators. (76 Fed. Reg. 53256 (August 25, 2011).) The final rule
addressed prior OIG recommendations to require grantee institutions to provide details regarding
the nature of financial conflicts of interest and the ways in which they are managed, reduced, or
eliminated.
We continue to monitor NIH’s progress in ensuring that grantees are complying with the new
requirements outlined in the regulation.

Primary OIG Reports
     2009 NOV Review of How Grantees Manage Financial Conflicts of Interest in Research Funded by
              the National Institutes of Health. OEI-03-07-00700. Full Text
     2008 JAN National Institutes of Health – Conflicts of Interest in Extramural Research.
              OEI-03-06-00460. Full Text




Public Health > National Institutes of Health > Ethics Oversight > Institutional Conflicts Of Interest

Ethics Oversight—Require NIH Grantee Institutions To Identify, Report, and
Address Institutional Financial Conflicts of Interest (New)


    Recommendations To Be Implemented
             We recommend that the National Institutes of Health (NIH) promulgate
              regulations that address institutional conflicts of interest.



The recommendation would help ensure that grantee institutions identify, report, and manage
actual or potential institutional financial conflicts of interest.
An institutional conflict may arise when a grantee institution’s own financial interests (e.g.,
royalties, equity, stockholdings, and gifts) or those of its senior officials pose risks of undue
influence on decisions involving the grantee institution’s research. There are no Federal
requirements that grantee institutions identify, report, and manage actual or potential institutional
financial conflicts of interest. We surveyed 250 grantee institutions to determine whether they have
developed any policies and procedures regarding institutionally held financial interests and
conflicts related to NIH grants awarded in fiscal year 2008.
A January 2011 OIG report revealed that although there are no requirements, of the 156 responding
NIH grantee institutions, 70 had policies addressing institutional financial interests and 69 had
policies addressing conflicts of such interests. Grantee institutions that had written policies and



                                                            Page 152
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                Public Health Agencies


procedures were more likely to identify a conflict (15 of 69 grantee institutions) compared to those
that did not have written policies and procedures (3 of 87 grantee institutions). Eighteen grantee
institutions identified at least 38 institutional conflicts related to NIH research grants in FY 2008.

Progress of Implementation
When we issued our report in January 2011, NIH was reviewing public comments to finalize
regulations regarding researchers’ financial conflicts of interest. On August 25, 2011, NIH published
a final rule revising regulations covering financial conflicts of interest for researchers. However, the
final rule does not address our recommendation regarding institutional conflicts of interest.
Instead, in the final rule, NIH states that “[w]e continue to believe that further careful consideration
is necessary before PHS regulations could be formulated that would address the subject of
institutional conflict of interest Y.”
We continue to recommend that NIH promulgate regulations to address institutional financial
conflicts of interest. Until regulations are promulgated, NIH should encourage grantee institutions
to develop policies and procedures regarding institutional financial interests and conflicts.

Primary OIG Report
    2011 JAN Institutional Conflicts of Interest at NIH Grantees. OEI-03-09-00480.
             Full Text.




                                                   Page 153
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                     Human Services Agencies



Human Services Agencies
 Administration for Children and Families
The Administration for Children and Families (ACF) operates over 30 programs that promote the
economic and social well-being of children, families, and communities, including Temporary
Assistance for Needy Families (TANF); the national child support enforcement (CSE) system; the
Head Start program for preschool children; and assistance for child care, foster care, and adoption
services.



Human Services > Administration for Children and Families > Refugee Assistance > Quality of Services to Children

Quality of Services to Children—Delineate Roles and Enforce Unaccompanied
Children’s Services Requirements


  Recommendation To Be Implemented
           We recommend that the Administration for Children and Families (ACF) establish a
            memorandum of understanding (MOU) between HHS and the Department of
            Homeland Security (DHS) to clearly delineate the roles and responsibilities of each
            Department with regard to unaccompanied alien children.




An MOU between HHS and DHS with regard to unaccompanied alien children would reduce the
risks that such children may be in unsafe conditions and sponsors may not be in compliance with
their agreements with the Government.
An unaccompanied alien child is a child under the age of 18 who has no lawful immigration status in
the United States and who has no parent or legal guardian in the United States available to provide
care and physical custody. When an unaccompanied alien child is found, DHS apprehends and
detains the child and contacts the ACF Office of Refugee Resettlement (ORR), which coordinates
placement and care of the child. Pursuant to the Homeland Security Act of 2002, the Director of
ORR is responsible for the care and custody of unaccompanied alien children and DHS is
responsible for immigration benefits and enforcement.
In our case file reviews of unaccompanied children apprehended by DHS who were in facilities
overseen by ORR between April 1 and September 30, 2006, we found that most children were
placed in and released from such facilities in accordance with Federal standards. However, we
determined from our file reviews and facility visits that improvements were needed in case file
documentation, program oversight, and the delineation of responsibilities between DHS and HHS.
At a minimum, the MOU should address the following.
Delineate each entity’s specific responsibilities for gathering and exchanging information when a
child comes into Federal custody and is placed into a facility overseen by ORR.


                                                        Page 154
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                     Human Services Agencies


Delineate each entity’s specific responsibilities for gathering and exchanging information about
children who have been reunified with a sponsor to ensure that children are safe and that sponsors
are adhering to agreements.

Progress of Implementation
In July 2011, ACF said that ORR was drafting a Joint Operations Manual (JOM) with DHS, with the
ultimate goal of drafting an MOU. The revised JOM will conform to the new statutory requirements
in the Trafficking Victims Protection Reauthorization Act of 2008.
We requested that ACF provide OIG a copy of the JOM when it is finalized. We will continue to
monitor ACF’s development and finalization of an MOU.

Primary OIG Report
     2008 MAR Division of Unaccompanied Children’s Services: Efforts To Serve Children.
              OEI-07-06-00290. Full Text

See Also
     2005 SEP Department of Homeland Security, OIG. OIG 05-45. A Review of DHS’
              Responsibilities for Juvenile Aliens. Full Text.
     2004 MAR Department of Justice, OIG. Open Inspector General Recommendations Concerning
              the Former Immigration and Naturalization Service from ‘Unaccompanied Juveniles
              in INS Custody. OIG-04-18. Full Text.
     2001 SEP Department of Justice, OIG. Unaccompanied Juveniles in INS Custody. I-2001-009.
              Linked Contents.



Administration for Children and Families > Services to Children > Safety and Quality

Quality of Services to Children—Early Head Start Program Should Ensure That All
Teachers Have the Required Credentials (New)


  Recommendation To Be Implemented
           We recommended that ACF provide guidance to programs about training teachers.




The recommendation would help ensure that Early Head Start programs have the support they
need from ACF to hire and train teachers.
Early Head Start provides comprehensive services to low-income pregnant mothers and infants and
toddlers from birth to age 3. Head Start programs reported challenges to employing only teachers
with the required credentials and to training teachers. Programs most commonly reported finding
substitutes and managing work schedules as challenges to providing training. Other challenges to
training teachers appeared to be more prevalent in rural areas. Despite the challenges expressed,


                                                         Page 155
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                          Human Services Agencies


81 percent of Early Head Start teachers had the required credentials that met or exceeded a CDA.
Nearly all Early Head Start programs reported requiring teachers to complete training.
Additional Background >
In 2007, Congress reauthorized the Head Start Act and created the first law governing the
credentialing and training of center-based Early Head Start teachers. The Head Start Act requires
that by September 30, 2010, all center-based Early Head Start teachers have a minimum of a child
development associate (CDA) credential and have been trained (or have equivalent coursework) in
early childhood development. It also requires that all Early Head Start teachers have training (or
have completed equivalent coursework) in early childhood development with a focus on infant and
toddler development by September 30, 2012.

Progress of Implementation
In its response to our review, ACF said that it could provide guidance about teacher training, but
that it could not require a certain number of training hours without a regulatory change. However,
in a subsequent update, ACF provided examples of training opportunities that were made available
for EHS staff. To implement this recommendation, ACF could update guidance documents to reflect
the EHS program's current strategies to provide training, paying particular attention to rural
programs and the challenges identified in our report.
We continue to monitor ACF’s progress with regard to supporting grantees in hiring and training
teachers.

Primary OIG Report
    2011 AUG Most Early Head Start Teachers Have the Required Credentials, But Challenges Exist.
             OEI-05-10-00240. Full Text.




                                                 Page 156
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                          Human Services Agencies



 Administration for Community Living
The Administration for Community Living (ACL) includes the Administration on Aging (AoA), the
Administration on Intellectual and Developmental Disabilities (AIDD), the Center for Disability and
Aging Policy (CDAP), and an administrative component. It provides national leadership and
direction to plan, manage, develop, and raise awareness of coordinated systems of long-term
services and supports that enable older Americans and individuals with disabilities, including
intellectual, developmental, and physical disabilities, to maintain their health and independence in
their homes and communities. (Statement of Organization, Functions, and Delegations of Authority.
77 Fed. Reg. 23250, April 18, 2012.)




Human Services > Administration for Community Living > Administration on Aging > Grants Management

AoA Grants Management—Use Voluntary Contributions To Expand Services for
the Elderly


    Recommendations To Be Implemented
        We recommend that AoA revise its regulations in accordance with the Older Americans
        Act of 1965 (OAA), as amended, to make it clear that
            recipients’ voluntary contributions and related interest earned are to be treated as
             program income that must be used only to expand the services for which the
             contributions were given and
            recipients’ voluntary contributions are not to be used to meet Federal matching
             requirements.
        Savings probable but not estimated. On the basis of information in financial status reports
        for all States, the District of Columbia, and Puerto Rico, we estimated that $90.8 million
        could have been saved in FY 1996 if AoA had made it clear to States that recipients’
        contributions were not to be used as matching funds.




The recommendation would curb States’ noncompliance with the OAA that occurs when States
misuse the voluntary contributions made by recipients of OAA-funded services for purposes not
authorized by the OAA.
A February 2001 OIG report revealed that instead of using OAA recipients’ voluntary contributions
to expand specific OAA services, States improperly diverted the recipients’ contributions to meet
Federal matching requirements. (OAA, § 315(b). 2) The diversion occurred because AoA’s related


2The February 2001 OIG report from which the recommendations are derived states that the use of voluntary
contributions to meet cost-sharing or matching requirements as permitted by these regulations is contrary to


                                                           Page 157
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                            Human Services Agencies


regulations did not make the OAA requirement clear and allowed a matching alternative that is not
authorized by the OAA. (45 CFR 1321.67(b).) In its January 8, 2001 response to OIG’s review, AoA
agreed that its regulation was inconsistent with the OAA and said it would submit revised
regulations. However, as of 2012, AoA had yet to revise its regulations.
Our 2001 report revealed that 28 States and the District of Columbia misused $90.8 million in
recipients’ voluntary contributions in FY 1996 to meet the matching requirements of their grant
agreements.
Additional Background >
The OAA authorizes grants for programs that provide meals and various supportive services to help
vulnerable older persons remain in their own homes. Services provided under the grants include
congregate and home delivered meals, transportation, and in-home support. Pursuant to the OAA,
§ 315(b), grantees may solicit noncoersive contributions from recipients and encourage
contributions from individuals whose self-declared income is at or above a designated percent of
the poverty line. Contribution levels are to be based on the actual cost of services. All collected
contributions must be safeguarded and accounted for and be used to expand the service for which
each contribution was given. The 2006 reauthorization amendments clarified that contributions
are to supplement (not supplant) Federal funds received under the OAA. (OAA,§ 315(b)(4)(E).)
In April 2012, the Secretary incorporated AoA into the new Administration for Community Living.
AoA supports programs that provide services such as meals, transportation, and caregiver support
to older Americans at home and in the community through the nationwide network of services for
the aging.

Progress of Implementation
 AoA concurred with this recommendation. The OAA is being reauthorized. As part of this activity,
AoA conducted an open process for soliciting input throughout the country and received
recommendations related to voluntary contributions as well as other proposals for improving
provisions in the OAA. Also, in July 2012, AOA distributed to its Regional Offices and States a
document summarizing the various types of consumer contributions that may be collected by OAA
services providers. This document states that “All funds received from voluntary contributions
must be used to expand the service for which the payment or contribution was given and may not
be used to supplant other funding.” Following a reauthorized statute, AoA will determine whether
regulatory changes are needed.
We continue to monitor AoA’s progress in revising its regulations.

Primary OIG Report
     2001 FEB States' Use of Voluntary Contributions Under Title III of the Older Americans Act.
              A-12-00-00002. Full Text




§ 307(a)(13)(C)(ii) of the Older Americans Act (Act) and that the section requires that voluntary contributions be used to
increase the services.” The current OAA reference for the requirement is § 315(b).



                                                             Page 158
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                               Human Services Agencies




Human Services > Administration for Community Living > Administration on Aging > Grants Management

AoA Grants Management—Ensure That States’ Cost-Sharing Practices Comply
With Requirements and Improve Data Quality


  Recommendations To Be Implemented
       We recommend that AoA
          ensure that States’ recipient cost-sharing practices comply with OAA requirements,
          provide more guidance to States about recipient cost sharing, and
          improve the quality of its data so that any effects of recipient cost sharing can be
           determined.




The recommendations would ensure that States that implement recipient cost sharing pursuant to
the OAA comply with all the OAA’s pertinent requirements.
Historically, the OAA has allowed States to solicit and collect voluntary contributions from
recipients of OAA services. The OAA Amendments of 2000 added an option to implement recipient
cost sharing for certain OAA services. Under cost sharing, fees may be charged to recipients
pursuant to OAA rules. OAA requirements include that each collected cost-sharing payment be used
to expand the service for which such payment was given. It also provides that services for which
funds are received under the OAA not be denied for an older individual because of the income of
such individual or such individual’s failure to make a cost-sharing payment. (OAA, § 315(a)(5).)
A September 2006 OIG report revealed that of the 12 States that had implemented cost sharing in
2005, not all had followed the OAA’s requirements. As of 2005, AoA had provided only limited
guidance to States about implementing cost sharing.
Additional Background >
The OAA includes a number of requirements for States that are intended to ensure that low-income
older individuals can obtain services. Pursuant to the OAA Amendments of 2000, the Assistant
Secretary of AoA is to annually conduct a comprehensive evaluation of practices for cost sharing to
determine its impact on participation rates (with particular attention to low-income older
individuals, including low-income minority older individuals, older individuals with limited English
proficiency, and older individuals residing in rural areas). If the Assistant Secretary finds that there
is a disparate impact upon low-income or minority older individuals or older individuals residing in
rural areas in any State or region within the State regarding the provision of services, the Assistant
Secretary shall take corrective action to ensure that such services are provided to all older
individuals without regard to the cost-sharing criteria. (OAA, § 315(d).)
AoA collects participation data for many OAA services through the NAPIS/SPR. States report data in
the NAPIS/SPR differently, and the demographic data in the NAPIS/SPR are incomplete. As a result,
data in the NAPIS/SPR do not present a complete picture of participation and, therefore, cannot be



                                                    Page 159
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                           Human Services Agencies


used to measure any impact that cost sharing might have on overall participation or on
participation of low-income individuals and other subgroups specified in the OAA. We
recommended that AoA improve the quality of its data so that the effects of recipient cost sharing
can be determined.
Note: In April 2012, the Secretary incorporated AoA into the new Administration for Community
Living. (77 Fed. Reg. 23250, April 18, 2012.)

Progress of Implementation
In its response to our review, AoA indicated that it had taken several actions, including holding
senior agency staff meetings with regional administrators to review OAA cost-sharing requirements
and establishing technical assistance and developing guidance for State Units on Aging. Regarding
the recommendation to improve the quality of data, AoA noted that it had made several
improvements, such as developing a software reporting structure and training manual.
We encourage AoA to follow through on its oversight of States’ implementation of cost sharing and
request that AoA provide OIG with documentation if it believes any of the recommendations we
specified above have been fully implemented. New reauthorization legislation has been introduced.
We continue to monitor AoA’s progress.

Primary OIG Report
    2006 SEP Cost Sharing for Older Americans Act Services. OEI-02-04-00290. Full Text

See Also
    1996 MAY Cost Sharing Under the Older Americans Act. OEI-05-95-00170. Full Text.
    1990 OCT Cost Sharing for Older Americans. OEI-02-90-01010. Full Text.




                                                  Page 160
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                        Other HHS-Related Reviews



Other HHS-Related Issues

Other HHS-Related Issues > Financial Management

Financial Management—Improve Financial Analysis and Reporting Processes


  Recommendations To Be Implemented
       We recommend that HHS
          continue to develop and refine its financial management systems and processes to
           improve its accounting, analysis, and oversight of financial management activity and
          continue to focus on remediating the remaining financial management system
           deficiencies.




The recommendations would help ensure the continuous improvement of HHS’s ability to produce
reliable consolidated information from its reporting systems.
The Government Management Reform Act of 1994 (GMRA) requires that many Federal agencies,
including HHS, prepare annual financial statements. The FY 2011 financial statement audit noted
significant improvement in the internal control weaknesses in HHS financial management systems
and financial analyses and oversight reported in previous fiscal years. HHS implemented automated
tools to address issues regarding the segregation of duties and implemented a new Consolidated
Financial Reporting Systems (CFRS). HHS used CFRS to automatically and consistently consolidate
financial information from the three financial systems: the Unified Financial Management System,
the National Institutes of Health Business System, and the Healthcare Integrated General Ledger
Accounting Systems.
Despite the improvements detailed above, the FY 2011 financial statement audit still noted general
control issues related to the design and operation of key controls related to security management,
access controls, configuration management, and contingency planning. In addition, weaknesses
were noted in general controls, business process controls, interface controls, and data management
system controls for specific financial applications.
The FY 2011 financial statement audit also noted certain reconciliations and account analyses were
not adequately or promptly performed to ensure that differences were identified and resolved.
HHS’s financial management systems still did not substantially comply with Federal financial
management systems requirements.
Additional Background >
The Government Accountability Office’s (GAO) Government Auditing Standards and the Office of
Management and Budget’s (OMB) Bulletin 07-04, Audit Requirements for Federal Financial
Statements, provide auditors with guidance about how to audit and report on the Federal financial
statements. OMB Bulletin A-127, Financial Management Systems, requires that financial statements


                                                  Page 161
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                                  Other HHS-Related Reviews


be the culmination of a systemic accounting process. The statements are to result from an
accounting system that is an integral part of a total financial management system containing
sufficient structure, effective internal control, and reliable data.

Progress of Implementation
 In the FY 2011 Agency Financial Report, issued in November 2011, HHS generally concurred with
the findings in the audit report. HHS will prepare corrective action plans to address the findings.
We continue to monitor HHS’s progress in improving its financial analysis and report processes and
related controls as part of the annual audit of the HHS’s financial statements.

Primary OIG Report
     2011 NOV Department of Health and Human Services Fiscal Year 2011 Agency Financial Report.
              Section II. Daniel R. Levinson, Inspector General, Report on the Financial Statement
              Audit of the Department of Health and Human Services for Fiscal Year 2011.
              A-17-11-00001. (pp. II-5, II-45.)




Other HHS-Related Issues > Safety and Quality of Care > Persons With Disabilities

Safety and Quality of Care—Strengthen State Protections for Persons With
Disabilities in Residential Settings


  Recommendations To Be Implemented
  We recommend that the pertinent HHS agencies work cooperatively to
           provide information and technical assistance to States to improve the reporting of
            potential abuse or neglect of persons with disabilities across all residential settings,
           strengthen investigation and resolution processes,
           assist in analyzing incident data to identify trends that indicate systemic problems,
            and
           identify the nature and causes of incidents to prevent future abuse.




Several HHS operating divisions fund programs or services that play a role in protecting persons
with disabilities from abuse or neglect.
A May 2001 OIG report revealed that between 1999 and 2000, about 90 percent of persons with
disabilities in residential facilities were in facilities that are not subject to oversight by the Centers
for Medicare & Medicaid Services (CMS) and relied solely on protections offered by State systems to
identify, investigate, and resolve reports of abuse or neglect, including the misuse of restraints and
seclusion. The levels of protection provided by State systems vary widely. Limited Federal
standards, partly because of HHS’s limited statutory authority to set requirements for many


                                                       Page 162
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                            Other HHS-Related Reviews


facilities and homes, have left persons with disabilities more vulnerable in residential facilities in
which State systems are not well developed. Also, HHS was at a disadvantage in identifying
systemic problems because it received limited information on occurrences of abuse or neglect.
Additional Background >
For facilities receiving Medicare or Medicaid funds—including nursing homes, psychiatric facilities,
and intermediate care facilities for individuals with intellectual disabilities, CMS has established
Conditions of Participation (CoP) requiring that residents and patients be protected from abuse or
neglect. ACF and the Substance Abuse and Mental Health Services Administration (SAMHSA)
provide States with grants to establish protection and advocacy systems for investigating
allegations of abuse or neglect. Also, FDA oversees the regulation of medical devices, including
physical restraints, and receives information on deaths that occur during the use of restraints.

Progress of Implementation
CMS, ACF, SAMHSA, and FDA concurred with working cooperatively to provide information and
technical assistance to States. Each agency detailed actions that it was taking or planned to take to
improve safeguards.
The SAMHSA grant program to support implementation of effective alternatives to restraint and
seclusion was initiated in FY 2001 and concluded in FY 2010. SAMHSA has established a national
technical assistance center for seclusion and restraint and trauma-informed care. A number of
Technical Assistance (TA) events have been provided to an array of audiences and a National
Summit was held November 14 - 15, 2011, to formally launch the new TA initiative.
In FY 2010, ACF added tasks related to the investigation of abuse and neglect in home and
community-based settings to the technical assistance contract for protection and advocacy agencies.
In FY 2011, the Training and Advocacy Support Center (TASC), funded through an interagency
agreement between the ACF Administration on Developmental Disabilities (ADD), SAMHSA, and
Department of Education’s Rehabilitation Services Administration (RSA), conducted a community
monitoring project to track the quality of life and outcomes of individuals coming out of large
institutions to live in the community. Findings and information from the project are being
disseminated to the State Protection and Advocacy Systems (P&A) network. ACF/ADD has been
leading cross-agency meetings (monthly) of the Federal agencies that fund the P&A system,
including SAMHSA, RSA, HRSA, and the Social Security Administration, to discuss ways of
strengthening the system. Some of the discussions across the Federal agencies have focused on
improving reporting requirements and processes for the P&A systems.
We continue to monitor the progress made on the recommendations we specified.

Primary OIG Report
    2001 MAY Reporting Abuses of Persons with Disabilities. A-01-00-02502. Full Text




                                                    Page 163
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                          Other HHS-Related Reviews




Other HHS-Related Issues > Ethics Oversight > Waivers

Ethics Oversight—Require That HHS’s Conflict-of-Interest Waivers Be
Documented as Recommended (New)


  Recommendations To Be Implemented
        We recommend that the Office of the General Counsel (OGC)
           require HHS operating divisions (OPDIV) and staff divisions (STAFFDIV) to document
            conflict-of-interest waivers as recommended in Governmentwide Federal ethics
            regulations and the Secretary’s instructions,
           develop additional guidance and training to assist OPDIVs and STAFFDIVs in
            documenting conflict-of-interest waivers as recommended in Governmentwide
            Federal ethics regulations and the Secretary’s instructions,
           take action to revise the conflict-of-interest waivers in our review that were not
            documented as recommended in Governmentwide Federal ethics regulations and the
            Secretary’s instructions if the waivers are still in effect,
           expand the review of conflict-of-interest waivers for special Government employees
            (SGE) on committees, and
           require all employees to sign and date their conflict-of-interest waivers or otherwise
            document that they received and acknowledged them.




The recommendations would help ensure that HHS operating divisions comply with Federal
documentation requirements for conflict-of-interest waivers.
HHS employees, including SGEs serving as subject-matter experts on Federal advisory committees
(committees), play an influential role in the Federal Government’s public health policies. HHS
employees are prohibited from participating in certain official Government matters affecting their
personal financial interests. These interests may include outside employment, grants, and stock
ownership.
An August 2011 OIG report revealed that most (56 percent) of HHS conflict-of-interest waivers in
our review were not documented as recommended in provisions of selected Governmentwide
Federal ethics regulations and the January 2009 instructions of the Secretary of HHS (Secretary). In
addition, although signatures and dates were not required, 18 percent of waivers were signed and
dated by the HHS employees receiving them. Most of the waivers (27 of 28) were granted to SGEs
on committees.
Additional Background >
The Office of Government Ethics (OGE) promulgates Governmentwide Federal ethics regulations for
all executive branch employees and oversees all Federal agencies’ ethics programs. With oversight



                                                        Page 164
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012                         Other HHS-Related Reviews


and guidance from OGC, an HHS OPDIV or STAFFDIV may grant conflict-of-interest waivers to HHS
employees if the OPDIV or STAFFDIV determines that the conflicts are not likely to affect the
integrity of the employees’ services to the Government or if the need for the employees’ services
outweighs the potential for conflicts. Waivers permit employees who have conflicts of interest to
act in an official Government capacity on matters in which they would otherwise be prohibited from
participating.
OGE said that as a general matter, the recommendations support good documentation practices that
it strongly recommends
According to selected regulations and the Secretary’s instructions, a waiver should describe, among
other things, the employee’s specific financial interest that poses the conflict; the particular
matter(s) in which the employee is permitted to participate; and the particular matter(s), if any, in
which the employee is prohibited from participating. In addition, although it is not a Federal
requirement for employees to sign and date their waivers, OGC’s sample waivers have a signature
line. Signatures and dates show that employees received, acknowledged, and may be held
accountable for complying with their waivers.

Progress of Implementation
We encourage OGC to address each of the recommendations we specified and provide
documentation on how they have been implemented. We continue to monitor the progress of
HHS’s implementation of the recommendations.

Primary OIG Report
    2011 AUG Conflict-of-Interest Waivers Granted to HHS Employees in 2009. OEI-04-10-00010.
             Full Text.




                                                  Page 165
HHS Office of Inspector General
Compendium of Unimplemented Recommendations | 2012      Other HHS-Related Reviews




                       https://oig.hhs.gov




                                             Page 166
